No.

In the Supreme Court of the United States
UNITED STATES PATENT AND TRADEMARK OFFICE;
ANDREI IANCU, UNDER SECRETARY OF COMMERCE FOR
INTELLECTUAL PROPERTY AND DIRECTOR, UNITED
STATES PATENT AND TRADEMARK OFFICE, PETITIONERS
v.
BOOKING.COM B.V.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

SARAH T. HARRIS
General Counsel
THOMAS W. KRAUSE
Solicitor
CHRISTINA J. HIEBER
Senior Counsel
MOLLY R. SILFEN
Associate Solicitor
United States Patent and
Trademark Office
Alexandria, Va. 22314

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
JOSEPH H. HUNT
Assistant Attorney General
MALCOLM L. STEWART
Deputy Solicitor General
ERICA L. ROSS
Assistant to the Solicitor
General
MARK R. FREEMAN
DANIEL TENNY
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

Under the Lanham Act, 15 U.S.C. 1051 et seq., generic terms may not be registered as trademarks. The
question presented is as follows:
Whether the addition by an online business of a generic
top-level domain (“.com”) to an otherwise generic term
can create a protectable trademark.

(I)

RELATED PROCEEDINGS

United States District Court (E.D. Va.):
Booking.com B.V. v. Matal, No. 16-cv-425 (Aug. 9,
2017) (order on summary judgment)
Booking.com B.V. v. Matal, No. 16-cv-425 (Oct. 26,
2017) (order on defendants’ motion to amend judgment and motion for expenses)
United States Court of Appeals (4th Cir.):
Booking.com B.V. v. United States Patent & Trademark Office, No. 17-2458 (Feb. 4, 2019, amended
Feb. 27, 2019), petition for reh’g denied, Apr. 5, 2019
(defendants’ appeal of partial grant of summary
judgment)
Booking.com B.V. v. United States Patent & Trademark Office, No. 17-2459 (Feb. 4, 2019, amended
Feb. 27, 2019), petition for reh’g denied, Apr. 5, 2019
(plaintiff ’s cross-appeal on expenses)
Supreme Court of the United States:
Booking.com B.V. v. United States Patent & Trademark Office, petition for cert. pending, No. 18-1309
(filed Apr. 10, 2019)

(II)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 2
Statutory provisions involved ...................................................... 2
Statement ...................................................................................... 2
Reasons for granting the petition ............................................. 12
A. The court of appeals’ decision is wrong ..................... 13
B. The question presented warrants review .................. 23
Conclusion ................................................................................... 27
Appendix A — Court of appeals opinion (Feb. 4, 2019,
amended Feb. 27, 2019) ............................. 1a
Appendix B — District court memorandum opinion on
summary judgment (Aug. 9, 2017) ......... 46a
Appendix C — District court memorandum opinion on
motion to amend the judgment and
motion for expenses (Oct. 26, 2017) ...... 108a
Appendix D — Trademark Trial and Appeal Board
opinion (Feb. 18, 2016) ........................... 136a
Appendix E — Trademark Trial and Appeal Board
opinion (Feb. 18, 2016) ........................... 182a
Appendix F — Court of appeals order denying
rehearing (Apr. 5, 2019) ......................... 225a
Appendix G — Statutory provisions .................................... 227a
TABLE OF AUTHORITIES

Cases:
Abercrombie & Fitch Co. v. Hunting World, Inc.,
537 F.2d 4 (2d Cir. 1976) .................................... 3, 11, 13, 20
Advertise.com, Inc. v. AOL Adver., Inc., 616 F.3d 974
(9th Cir. 2010) .................................................... 16, 17, 23, 24
America Online, Inc. v. AT & T Corp., 243 F.3d 812
(4th Cir.), cert. dismissed, 534 U.S. 946 (2001) ................ 22

(III)

IV
Cases—Continued:

Page

B & B Hardware, Inc. v. Hargis Indus., Inc.,
135 S. Ct. 1293 (2015) ........................................................... 7
Brookfield Commc’ns, Inc. v. West Coast Entm’t
Corp., 174 F.3d 1036 (9th Cir. 1999).................................... 8
CES Publ’g Corp. v. St. Regis Publ’ns, Inc.,
531 F.2d 11 (2d Cir. 1975) .................................................... 4
Dickinson v. Zurko, 527 U.S. 150 (1999)............................... 6
Goodyear’s India Rubber Glove Mfg. Co. v.
Goodyear Rubber Co., 128 U.S. 598 (1888) ............. passim
Hotels.com, L.P., In re, 573 F.3d 1300
(Fed. Cir. 2009) ................................................... 8, 15, 23, 26
Howe Scale Co. v. Wyckoff, Seamans & Benedict,
198 U.S. 118 (1905).............................................................. 15
Hunt Masters, Inc. v. Landry’s Seafood Rest., Inc.,
240 F.3d 251 (4th Cir. 2001) ........................................... 4, 21
Inwood Labs., Inc. v. Ives Labs., Inc., 456 U.S. 844
(1982) .................................................................................... 18
Keebler Co. v. Rovira Biscuit Corp., 624 F.2d 366
(1st Cir. 1980) ...................................................................... 20
Kellogg Co. v. National Biscuit Co., 305 U.S. 111
(1938) .............................................................................. 20, 21
Matal v. Tam, 137 S. Ct. 1744 (2017)..................................... 3
Mil-Mar Shoe Co. v. Shonac Corp., 75 F.3d 1153
(7th Cir. 1996) ........................................................................ 4
Miller Brewing Co. v. Falstaff Brewing Corp.,
655 F.2d 5 (1st Cir. 1981) ................................................... 20
Miller Brewing Co. v. Jos. Schlitz Brewing Co.,
605 F.2d 990 (7th Cir. 1979) ......................................... 20, 21
1800Mattress.com IP, LLC, In re, 586 F.3d 1359
(Fed. Cir. 2009) ............................................................. 23, 24
Oppedahl & Larson LLP, In re, 373 F.3d 1171
(Fed. Cir. 2004) ............................................................. 17, 24
Pacer Tech., In re, 338 F.3d 1348 (Fed. Cir. 2003)............... 6

V
Cases—Continued:

Page

Park ’N Fly, Inc. v. Dollar Park & Fly, Inc.,
469 U.S. 189 (1985)........................................................ 3, 4, 5
Peter v. NantKwest, Inc., cert. granted, No. 18-801
(Mar. 4, 2019)....................................................................... 12
Reed Elsevier Props. Inc., In re, 482 F.3d 1376
(Fed. Cir. 2007) ............................................................... 8, 23
Retail Servs., Inc. v. Freebies Publ’g, 364 F.3d 535
(4th Cir. 2004) ........................................................................ 4
Royal Crown Co. v. The Coca-Cola Co., 892 F.3d 1358
(Fed. Cir. 2018) ................................................................... 20
Sara Lee Corp. v. Kayser-Roth Corp., 81 F.3d 455
(4th Cir.), cert. denied, 519 U.S. 976 (1996) ............... 3, 4, 5
Sporty’s Farm L.L.C. v. Sportsman’s Mkt., Inc.,
202 F.3d 489 (2d Cir.), cert. denied, 530 U.S. 1262
(2000) ...................................................................................... 8
Steelbuilding.com, In re, 415 F.3d 1293
(Fed. Cir. 2005) ................................................................... 17
Trade-Mark Cases, In re, 100 U.S. 82 (1879) ....................... 3
Traf Fix Devices, Inc. v. Marketing Displays, Inc.,
532 U.S. 23 (2001) ............................................................... 22
Two Pesos, Inc. v. Taco Cabana, Inc., 505 U.S. 763
(1992) .................................................................................. 3, 5
Wal-Mart Stores, Inc. v. Samara Bros., Inc.,
529 U.S. 205 (2000) ....................................................................... 16

Welding Servs., Inc. v. Forman, 509 F.3d 1351
(11th Cir. 2007) .................................................................... 18
Wm. B. Coleman Co., In re, 93 U.S.P.Q.2d 2019
(T.T.A.B. 2010) .................................................................... 18
Statutes and regulations:
Act of July 8, 1870, ch. 230, §§ 77-84, 16 Stat. 210-212......... 3
Act of Feb. 20, 1905, ch. 592, 33 Stat. 724 ............................. 3
Administrative Procedure Act, 5 U.S.C. 701 et seq.............. 6

VI
Statutes and regulations—Continued:

Page

Lanham Act, ch. 540, 60 Stat. 427
(15 U.S.C. 1051 et seq.) ......................................................... 3
15 U.S.C. 1051(a)(1) ................................................. 3, 227a
15 U.S.C. 1052(a)-(e) ............................................... 3, 233a
15 U.S.C. 1052(e) ................................................... 22, 235a
15 U.S.C. 1052(f ) (1982) .................................................... 5
15 U.S.C. 1062(a) ........................................................... 6, 9
15 U.S.C. 1063(a) ............................................................... 6
15 U.S.C. 1064(c) (1982) .................................................... 4
15 U.S.C. 1067 .................................................................... 6
15 U.S.C. 1070 .................................................................... 6
15 U.S.C. 1071(a) ............................................... 6, 25, 236a
15 U.S.C. 1071(a)(4) ................................................. 6, 237a
15 U.S.C. 1071(b) ............................................... 8, 25, 238a
15 U.S.C. 1071(b)(1) ................................................ 6, 238a
15 U.S.C. 1071(b)(3) .......................................... 7, 11, 238a
15 U.S.C. 1127 ...................................................... 2, 3, 241a
Patent Act of 1952, 35 U.S.C. 145 ........................................ 12
Trademark Law Revision Act of 1988,
Pub. L. No. 100-667, Tit. I, 102 Stat. 3935.......................... 4
§ 115, 102 Stat. 3940 (15 U.S.C. 1064(3) (1988)) ............. 4
§ 136, 102 Stat. 3948 .......................................................... 4
28 U.S.C. 1291 .......................................................................... 7
37 C.F.R.:
Section 2.101(b).................................................................. 6
Section 2.111 ...................................................................... 6
Section 2.145(a) .................................................................. 6
Section 2.145(c) .................................................................. 6

VII
Miscellaneous:

Page

4 Louis Altman & Malla Pollack, Callmann on
Unfair Competition, Trademarks and Monopolies
(4th ed. 2019) ......................................................................... 4
J. Thomas McCarthy, McCarthy on Trademarks
and Unfair Competition:
Vol. 1 (3d ed. 1996) ............................................................ 5
Vol. 2 (5th ed. 2019) ..................................................... 4, 18
U.S. Patent & Trademark Office, Trademark Trial
and Appeal Board Manual of Procedure
(June 2018) ...................................................................... 6, 25

In the Supreme Court of the United States
No.
UNITED STATES PATENT AND TRADEMARK OFFICE;
ANDREI IANCU, UNDER SECRETARY OF COMMERCE FOR
INTELLECTUAL PROPERTY AND DIRECTOR, UNITED
STATES PATENT AND TRADEMARK OFFICE, PETITIONERS
v.
BOOKING.COM B.V.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Solicitor General, on behalf of the United States
Patent and Trademark Office and its Director, respectfully petitions for a writ of certiorari to review the judgment of the United States Court of Appeals for the
Fourth Circuit in this case.
OPINIONS BELOW

The opinion of the court of appeals (App., infra,
1a-45a) is reported at 915 F.3d 171. The opinion of the
district court on summary judgment (App., infra, 46a107a) is reported at 278 F. Supp. 3d 891. The opinion of
the district court on petitioners’ motion to amend the
judgment and motion for expenses (App., infra, 108a135a) is not published in the Federal Supplement but is
available at 2017 WL 4853755. The opinions of the
Trademark Trial and Appeal Board (App., infra, 136a(1)

2
181a, 182a-224a) are not published in the United States
Patents Quarterly but are available at 2016 WL 1045671
and 2016 WL 1045674, respectively.
JURISDICTION

The judgment of the court of appeals was entered on
February 4, 2019. A petition for rehearing was denied
on April 5, 2019 (App., infra, 225a-226a). The jurisdiction of this Court is invoked under 28 U.S.C. 1254(1).
STATUTORY PROVISIONS INVOLVED

Section 1127 of Title 15 of the United States Code
defines a “ ‘trademark’ ” in relevant part as “any word,
name, symbol, or device, or any combination thereof ”
that is “used by a person * * * to identify and distinguish his or her goods, including a unique product, from
those manufactured or sold by others and to indicate the
source of the goods, even if that source is unknown.”
15 U.S.C. 1127. Other pertinent statutory provisions
are reproduced in the appendix to this petition. App.,
infra, 227a-247a.
STATEMENT

This case involves respondent’s applications to register trademarks containing the term BOOKING.COM
for online hotel reservation services. The United States
Patent and Trademark Office (USPTO) refused registration. The agency concluded that the term “booking”
is generic for the services as to which respondent
sought registration, and that the addition of the generic
top-level domain “.com” did not create a protectable
mark. App., infra, 136a-181a, 182a-224a. Respondent
sought review of that decision in the United States District Court for the Eastern District of Virginia, which
held that the term BOOKING.COM was non-generic

3
and potentially protectable as a trademark. Id. at 46a107a. The Fourth Circuit affirmed. Id. at 1a-45a.
1. a. A trademark is a “word, name, symbol, or device” used by a person “to identify and distinguish his
or her goods” in commerce and “to indicate the source
of the goods.” 15 U.S.C. 1127. Federal law does not create trademark rights. Matal v. Tam, 137 S. Ct. 1744,
1751 (2017); In re Trade-Mark Cases, 100 U.S. 82, 92
(1879). Rather, trademarks have been protected by the
common law and in equity since the founding, and the
common law and statutes of many States continue to provide such protection today. Tam, 137 S. Ct. at 1751. Federal law, however, has long provided additional advantages. See Act of Feb. 20, 1905, ch. 592, 33 Stat. 724;
Act of July 8, 1870, ch. 230, §§ 77-84, 16 Stat. 210-212.
Since 1946, those advantages have been provided
through the Lanham Act, ch. 540, 60 Stat. 427 (15 U.S.C.
1051 et seq.). As relevant here, the Lanham Act defines
the term “trademark” and authorizes federal registration of trademarks if certain requirements are met.
15 U.S.C. 1051(a)(1), 1052(a)-(e), 1127.
For purposes of determining whether particular
words or phrases can serve as trademarks, this Court
has identified five categories of terms, listed in increasing order of distinctiveness and protectability: “(1) generic; (2) descriptive; (3) suggestive; (4) arbitrary; [and]
(5) fanciful.” Two Pesos, Inc. v. Taco Cabana, Inc.,
505 U.S. 763, 768 (1992) (citing Abercrombie & Fitch Co.
v. Hunting World, Inc., 537 F.2d 4, 9 (2d Cir. 1976)
(Friendly, J.)). “A generic term is one that refers to the
genus of which the particular product is a species.”
Park ’N Fly, Inc. v. Dollar Park & Fly, Inc., 469 U.S.
189, 194 (1985). It is “the common name of a product or
service itself,” and “ ‘identifies the general nature of an
article.’ ” Sara Lee Corp. v. Kayser-Roth Corp., 81 F.3d

4
455, 464 & n.10 (4th Cir.) (citation omitted), cert. denied,
519 U.S. 976 (1996). By declining to recognize generic
names as trademarks, trademark law “protect[s] the
linguistic commons by preventing exclusive use of terms
that represent their common meaning.” App., infra, 2a.
The courts of appeals have recognized as generic such
terms as “Convenient Store” retail stores, “Crab House”
seafood restaurants, “Consumer Electronics Monthly”
magazine, and “Warehouse Shoes” retail stores. See
Hunt Masters, Inc. v. Landry’s Seafood Rest., Inc.,
240 F.3d 251, 254 (4th Cir. 2001); Sara Lee Corp., 81 F.3d
at 464; Mil-Mar Shoe Co. v. Shonac Corp., 75 F.3d 1153,
1161 (7th Cir. 1996); CES Publ’g Corp. v. St. Regis
Publ’ns, Inc., 531 F.2d 11, 12-15 (2d Cir. 1975).1
In contrast to a generic term, a descriptive term “describes the qualities or characteristics of a good or service,” Park ’N Fly, Inc., 469 U.S. at 194, such as its “function, use, characteristic, size, or intended purpose,” Retail Servs., Inc. v. Freebies Publ’g, 364 F.3d 535, 539
(4th Cir. 2004) (citation omitted). See 4 Louis Altman &
Malla Pollack, Callmann on Unfair Competition, Trademarks and Monopolies § 18:14, at 18-160 (4th ed. 2019)
(“A generic term categorizes; it conveys information

1
The Lanham Act originally referred to generic terms as those
that constitute “the common descriptive name of an article or substance.” Park ’N Fly, Inc., 469 U.S. at 193-194 (quoting 15 U.S.C.
1064(c) (1982)). In the Trademark Law Revision Act of 1988
(TLRA), Pub. L. No. 100-667, Tit. I, 102 Stat. 3935 (effective Nov.
16, 1989, see TLRA § 136, 102 Stat. 3948), Congress amended the
statute to replace the phrase “common descriptive name” with the
phrase “generic name,” e.g., TLRA § 115, 102 Stat. 3940 (15 U.S.C.
1064(3) (1988)). See generally 2 J. Thomas McCarthy, McCarthy on
Trademarks and Unfair Competition § 12:21, at 12-106 to 12-107
(5th ed. 2019).

5
with respect to the nature or class of an article. A descriptive term, on the other hand, characterizes; it identifies the characteristics and qualities of the article,
such as its color, odor, functions, dimensions or ingredients.”) (emphases omitted). Examples of descriptive
terms include “After Tan post-tanning lotion, 5 Minute
glue, King Size men’s clothing, and the Yellow Pages
telephone directory.” Sara Lee Corp., 81 F.3d at 464
(citing 1 J. Thomas McCarthy, McCarthy on Trademarks and Unfair Competition § 11.08, at 11-31 to 11-40
(3d ed. 1996)). Unlike generic terms, descriptive terms
may be protected, but only if “the registrant shows that
[the term] has acquired secondary meaning, i.e., it ‘has
become distinctive of the applicant’s goods in commerce.’ ”
Park ’N Fly, Inc., 469 U.S. at 194 (quoting 15 U.S.C.
1052(f ) (1982)). A descriptive term has acquired secondary meaning, and may be registrable, “if in the minds of
the public, the primary significance of a product feature
or term is to identify the source of the product rather
than the product itself.” Sara Lee Corp., 81 F.3d at 464
(citations and internal quotation marks omitted).
Suggestive, arbitrary, and fanciful marks “are deemed
inherently distinctive and are entitled to protection.”
Two Pesos, Inc., 505 U.S. at 768. “Suggestive marks
connote, without describing, some quality, ingredient,
or characteristic of the product.” Sara Lee Corp., 81 F.3d
at 464 (providing examples of Coppertone ® and Orange
Crush®). “Arbitrary marks are comprised of words in
common usage, but, because they do not suggest or describe any quality, ingredient, or characteristic of the
goods they serve, are said to have been arbitrarily assigned.” Ibid. (providing examples of Camel ® cigarettes
and Apple® computers). “Fanciful marks are, in essence,
made-up words.” Ibid. (providing examples of Clorox ®
and Kodak®).

6
b. When an applicant seeks to register a trademark,
a USPTO examining attorney determines whether “the
applicant is entitled to registration.” 15 U.S.C. 1062(a).
An applicant who is dissatisfied with the examining attorney’s decision may appeal to the Trademark Trial
and Appeal Board (TTAB), which renders a final decision on behalf of the USPTO. See 15 U.S.C. 1067, 1070.
If the examining attorney finds that registration is
proper, “[a]ny person who believes that he would be
damaged by the registration” may file an opposition addressed to the TTAB. 15 U.S.C. 1063(a); see 37 C.F.R.
2.101(b); see also 37 C.F.R. 2.111 (permitting third parties to initiate cancellation proceedings). Both the examining attorney and the TTAB apply Federal Circuit
precedents in deciding whether particular marks qualify for registration. See USPTO, Trademark Trial and
Appeal Board Manual of Procedure § 101.03 (June
2018) (TTAB Manual).
Any party who is dissatisfied with the TTAB’s decision may file a direct appeal in the Federal Circuit.
15 U.S.C. 1071(a); see 37 C.F.R. 2.145(a). That court
reviews “the decision from which the appeal is taken on
the record before the [USPTO],” 15 U.S.C. 1071(a)(4),
and reviews the USPTO’s factual findings for “substantial evidence,” In re Pacer Tech., 338 F.3d 1348, 1349
(Fed. Cir. 2003). Cf. Dickinson v. Zurko, 527 U.S. 150,
152, 165 (1999) (holding that courts of appeals must apply the deferential standards of review prescribed by
the Administrative Procedure Act, 5 U.S.C. 701 et seq.,
to the USPTO’s findings of fact under the materially
similar patent scheme).
Alternatively, any party that is dissatisfied with the
TTAB’s decision may file a civil action in federal district
court. 15 U.S.C. 1071(b)(1); see 37 C.F.R. 2.145(c). Unlike
in a direct appeal, the applicant and the USPTO may

7
conduct discovery, and the applicant may introduce evidence that the agency had no prior opportunity to consider. Where new evidence is introduced on an issue,
“the judge resolves registration de novo.” B & B Hardware, Inc. v. Hargis Indus., Inc., 135 S. Ct. 1293, 1301
(2015); see 15 U.S.C. 1071(b)(3). Any appeal from the
district court’s decision in such a proceeding is heard by
the appropriate regional court of appeals. 28 U.S.C. 1291.
2. a. Respondent operates a website on which customers can book hotel accommodations. App., infra,
4a. In 2011 and 2012, respondent filed four federal
trademark-registration applications for marks that included or consisted of the term “BOOKING.COM.”
Ibid. As relevant here, the applications sought registration for use of the marks in connection with “online
hotel reservation services.” Ibid.; see id. at 4a n.2.
The examining attorney refused registration on the
ground that BOOKING.COM is generic as applied to
the relevant services. See App., infra, 5a. The TTAB
affirmed in three substantially similar opinions. Ibid.;
see id. at 136a-181a, 182a-224a (TTAB decisions on two
applications). The TTAB concluded that “relevant customers would understand the term BOOKING.COM to
refer to an online reservation service for transportation
and lodgings.” Id. at 218a; see id. at 176a. In reaching
that conclusion, the TTAB relied on dictionary definitions of the terms “ ‘booking,’ ” and “.com”; the use of the
term “ ‘booking’ ” by “numerous websites” and by respondent to refer to the relevant class of services; and
“third-party domain names and trade names that include
the designation ‘booking.com,’ ” such as “hotelbooking.
com” and “ebooking.com.” Id. at 141a-169a, 187a-211a.2
A domain name is a string of text that is used to look up a particular site or resource on the Internet. A top-level domain is the
2

8
The TTAB observed that its conclusion comported with
prior decisions of the Federal Circuit, which had “held to
be generic marks that were similar” to BOOKING.COM
—such as “HOTELS.COM” and “LAWYERS.COM”—
“on the basis of ” “highly similar” evidence. Id. at 162a163a, 170a, 205a-206a, 213a (citing In re Hotels.com,
L.P., 573 F.3d 1300 (Fed. Cir. 2009) and In re Reed Elsevier Props. Inc., 482 F.3d 1376 (Fed. Cir. 2007)).
b. Respondent sought review in the United States
District Court for the Eastern District of Virginia, see
15 U.S.C. 1071(b), which reversed in relevant part,
App., infra, 46a-107a. The court recognized that “the
term ‘booking’ is generic” for the relevant class of services. Id. at 67a. It also observed that the Federal and
Ninth Circuits had found the combination of similar generic terms and top-level domains like “.com” to be generic. Id. at 69a-72a, 77a-78a.
The district court nonetheless concluded that toplevel domains like “.com” “are generally source identifying and that a mark composed of a generic [secondlevel domain] and a [top-level domain] is a descriptive
mark eligible for protection upon a showing of acquired
distinctiveness.” App., infra, 84a-85a. The court found
that its “general[]” rule applied in this case because respondent’s “Teflon survey”—which respondent had introduced for the first time in the district court—showed
right-most portion of a domain name, such as “.com,” “.net,” “.org,”
or “.gov.” Domain names also include second-level domains
(e.g., “uscourts.gov”) and may include third-level domains (e.g.,
“ca4.uscourts.gov”). See, e.g., Sporty’s Farm L.L.C. v. Sportsman’s
Mkt., Inc., 202 F.3d 489, 492-493 (2d Cir.), cert. denied, 530 U.S.
1262 (2000); Brookfield Comm’ncs, Inc. v. West Coast Entm’t Corp.,
174 F.3d 1036, 1044 (9th Cir. 1999). In the case of “booking.com,”
“.com” is the top-level domain and “booking” is the second-level
domain.

9
that “74.8 percent” of surveyed consumers “identified
BOOKING.COM as a brand name.” Id. at 84a, 88a.
Having concluded that respondent’s proposed marks
were descriptive, the district court held that, as applied
to hotel reservation services, the marks had acquired
secondary meaning. App., infra, 97a-104a. The court
ordered the USPTO to register the marks as to two applications, and it remanded the other two applications
for further agency fact-finding regarding design and
color elements of the proposed marks. Id. at 106a-107a
& n.23. The court subsequently amended its judgment
to direct that the marks it had found distinctive be published for opposition in the USPTO’s Official Gazette, a
necessary precondition for registration. Id. at 110a-116a;
see 15 U.S.C. 1062(a).
3. The court of appeals affirmed. App., infra, 1a-27a.
a. The court of appeals concluded that BOOKING.
COM, taken as a whole, is not generic because the relevant public would primarily understand the term to indicate respondent’s brand. App., infra, 9a-10a; see id.
at 12a-13a. The court relied in significant part on respondent’s Teflon survey, rejecting the USPTO’s argument that such survey evidence is irrelevant to the
question whether BOOKING.COM is generic. Id. at
16a-18a. The court acknowledged that, “[i]f a term is
deemed generic, subsequent consumer recognition of
the term as brand-specific cannot change that determination.” Id. at 11a. The court held, however, that this
rule applies only where a term was “already deemed generic” by “a prior court” or was “previously commonly
used” by the public. Id. at 21a & n.11.
In arguing that BOOKING.COM is generic, the government relied in part on this Court’s holding in Goodyear’s India Rubber Glove Manufacturing Co. v. Goodyear Rubber Co., 128 U.S. 598 (1888), that the addition

10
of a corporate identifier such as “Company” to a generic
term cannot create a protectable trademark. App., infra,
18a. The government contended that the Goodyear
Court’s rationales for that conclusion apply equally to
the addition of the top-level domain “.com” to a generic
term. Id. at 18a-19a. The court of appeals rejected that
argument, stating that “Goodyear was decided almost
sixty years before the Lanham Act and, crucially, did
not apply the primary significance test” that the court
in this case applied. Id. at 19a.
The court of appeals stated that it was “not unsympathetic to the USPTO’s concerns that granting trademark protection over BOOKING.COM may prevent
other companies from using the mark.” App., infra,
24a. But the court found “these concerns * * * assuaged by two considerations.” Ibid. The court first
posited that, because trademark protection applies only
to particular services—here, hotel reservation services
—other businesses likely could continue to use domain
names like “carbooking.com” or “flightbooking.com.”
Ibid. Second, the court observed that a plaintiff in a future infringement suit would be required to show a likelihood of consumer confusion, which might be “more difficult” in the context of “unique” domain names. Id. at
24a-25a.
b. Judge Wynn dissented in relevant part. App.,
infra, 28a-45a (Wynn, J., concurring in part and dissenting in part). He explained that, because “trademark law does not protect generic terms,” a business
can choose a non-generic domain name like Amazon.com,
and exclude competitors from using close variants of
that name; or it can choose a generic domain name that
identifies the goods or services it provides, thereby easily attracting customers on the Internet but forgoing
the benefits of trademark protection. Id. at 28a. Judge

11
Wynn would have held that BOOKING.COM falls into
the latter category. Id. at 28a-29a.
Judge Wynn would have reversed the district court’s
judgment on the ground that the court’s factual findings
were premised on “legal error”—the court’s conclusion
that the combination of “ ‘.com’ ” and a generic term “ ‘is
usually a descriptive mark eligible for protection upon
a showing of secondary meaning.’ ” App., infra, 30a n.2
(Wynn, J., concurring in part and dissenting in part) (citation omitted); see id. at 30a-32a. Judge Wynn stated
that the majority’s “ultimate determination—that the
proposed mark BOOKING.COM is descriptive—conflicts
with the determination that every other court has
reached” in similar cases. Id. at 32a; see generally id.
at 32a-37a.
Judge Wynn further explained that the court of appeals’ decision undermined the rule that, no matter how
much success the user of a generic term “has achieved
in securing public identification, it cannot deprive competing manufacturers of the product of the right to call
an article by its name.” App., infra, 38a-39a (Wynn, J.,
concurring in part and dissenting in part) (quoting
Abercrombie & Fitch Co., 537 F.2d at 9) (emphasis omitted). Finally, Judge Wynn stated that the court’s decision “unjustifiably empowers [respondent] to monopolize language” and “freeze out potential competitors,”
who cannot “use the term ‘booking’ in their own website
domain names” without “fac[ing] the risk of a costly,
protracted, and uncertain infringement lawsuit.” Id. at
41a-42a; see id. at 42a-45a.3
3
The court of appeals unanimously affirmed the district court’s
determination that, under 15 U.S.C. 1071(b)(3), the USPTO was entitled to “all the expenses of the proceeding,” including the salary
expenses of USPTO personnel who defended the action. App., infra,

12
4. The court of appeals denied the government’s petition for rehearing en banc. App., infra, 225a-226a.
REASONS FOR GRANTING THE PETITION

The court of appeals held that an applicant may obtain federal trademark protection for a generic term by
adding “.com” to that term, so long as the relevant public would understand the combination to refer to a specific business. That holding contravenes established
principles of trademark law, and it conflicts with decisions of the Federal and Ninth Circuits, the only other
courts of appeals that have considered the protectability of “generic.com” terms.
More than 130 years ago, this Court held that the
addition of an entity designation like “Company” to an
otherwise-generic term like “wine,” “cotton,” or “grain”
does not create a protectable mark, because “the word
‘Company’ only indicates that parties have formed an
association or partnership to deal in such goods.” Goodyear’s India Rubber Glove Mfg. Co. v. Goodyear Rubber
Co., 128 U.S. 598, 602 (1888); see id. at 603. The same
principle applies to the addition of the top-level domain
“.com,” which denotes only that respondent operates an
online business. It likewise has long been established
25a-27a (majority opinion); id. at 30a n.2 (Wynn, J., concurring in
part and dissenting in part). The court of appeals subsequently deconsolidated respondent’s cross-appeal on expenses from the
USPTO’s appeal, and it granted respondent’s motion to stay the
mandate in the cross-appeal pending this Court’s decision in Peter
v. NantKwest, Inc., cert. granted, No. 18-801 (Mar. 4, 2019), which
presents the question whether the USPTO may recoup the same
types of personnel expenses under the parallel provision of the Patent Act of 1952, 35 U.S.C. 145. Respondent has filed a petition for
a writ of certiorari on the expenses question, which remains pending. Booking.com B.V. v. United States Patent & Trademark Office,
No. 18-1309 (filed Apr. 10, 2019).

13
that, no matter how successful “the user of a generic
term” is “in securing public identification” between the
term and its commercial user, the business “cannot deprive competing manufacturers of the product of the
right to call an article by its name.” Abercrombie &
Fitch Co. v. Hunting World, Inc., 537 F.2d 4, 9 (2d Cir.
1976) (Friendly, J.). The decision below contravenes
that principle by allowing respondent to rely on survey
evidence of brand identification to obtain federal trademark protection for a generic term, thus “freez[ing]
out” its competitors from using domain names that
accurately categorize their services. App., infra, 41a
(Wynn, J., concurring in part and dissenting in part).
The court of appeals’ decision conflicts with rulings
of the Federal and Ninth Circuits, which have held that
“generic.com” names similar to BOOKING.COM are
unprotectable as trademarks. That division of authority
is especially destabilizing because the Lanham Act’s
judicial-review provisions allow dissatisfied parties to
challenge TTAB decisions in either the Federal Circuit
or an appropriate district court, and because districtcourt review generally will be available in the United
States District Court for the Eastern District of Virginia, where the USPTO is located and where the
Fourth Circuit’s decision in this case will be binding
precedent. The decision below also is likely to have serious and immediate anticompetitive effects. See App.,
infra, 41a-45a (Wynn, J., concurring in part and dissenting in part). The petition for a writ of certiorari
should be granted.
A. The Court Of Appeals’ Decision Is Wrong

In a divided decision, the court of appeals held that
the term BOOKING.COM may be registered as a trademark, even though “booking” is a generic term for hotel

14
reservation services and a top-level domain like “.com”
“does not itself have source-identifying significance.”
App., infra, 20a; see id. at 20a n.9. That decision is contrary to this Court’s precedent, which recognizes that
the addition of a corporate designation to a generic term
does not render the combination non-generic. The court
of appeals’ analysis conflates the question whether a
term is generic with the distinct question whether a
party seeking to register a descriptive term has established “secondary meaning,” i.e., an association in the
minds of consumers between the term and the party’s
business.
1. In Goodyear, this Court decided a nineteenthcentury analogue to the question presented here. The
Goodyear Rubber Company sought to restrain Goodyear’s India Rubber Glove Manufacturing Company
from using the name “Goodyear’s Rubber Manufacturing Company” or any equivalent. 128 U.S. at 599. The
Court rejected that claim, holding that the term “ ‘Goodyear Rubber Company’ ” was not “capable of exclusive
appropriation.” Id. at 602. The Court explained that
“ ‘Goodyear Rubber’ ” was the common descriptive (i.e.,
generic, see p. 4 n.1, supra) name for “well-known classes of goods produced by the process known as Goodyear’s invention,” and that “addi[ng] * * * the word
‘Company’ only indicate[d] that parties ha[d] formed an
association or partnership to deal in [the relevant class
of ] goods, either to produce or to sell them.” Goodyear,
128 U.S. at 602. The Court further explained that “parties united to produce or sell wine, or to raise cotton or
grain,” could not, by adopting the names “Wine Company, Cotton Company, or Grain Company, * * * impair the equal right of others engaged in similar business to use similar designations, for the obvious reason
that all persons have a right to deal in such articles, and

15
to publish the fact to the world.” Id. at 602-603. This
Court reaffirmed that ruling nearly two decades later,
citing Goodyear with approval and reiterating that “one
corporation is not entitled to restrain another from using in its corporate title a name to which others have a
common right.” Howe Scale Co. v. Wyckoff, Seamans &
Benedict, 198 U.S. 118, 137 (1905).
The same principle applies here. As the district
court recognized and the court of appeals did not dispute, the term “booking” is generic for the class of hotel
reservation services described in respondent’s trademark applications. See App., infra, 12a-25a, 67a. Thus,
under Goodyear, respondent could not federally register “The Booking Company” or “Booking Inc.” as a
trademark for the relevant class of services. By the
same logic, respondent should not be permitted to federally register BOOKING.COM. Just as “addition of
the word ‘Company’ only indicates that parties have
formed an association or partnership to deal in” the relevant class of goods or services, Goodyear, 128 U.S. at
602, addition of the top-level domain “.com” “communicates no more than the common meaning[] * * * that
the applicant operates a commercial website via the internet,” In re Hotels.com, L.P., 573 F.3d 1300, 1304
(Fed. Cir. 2009). The adoption of a “generic.com” domain name, “without other specification,” therefore
cannot “create any exclusive right to the use of the
name” as a trademark. Goodyear, 128 U.S. at 603.
The Court in Goodyear stated that recognition of a
trademark in the name “Grain Company” or “Wine
Company” would have interfered with competitors’
rights “to deal in such articles, and to publish the fact to
the world.” 128 U.S. at 602-603. Similarly here, treating BOOKING.COM as a protectable trademark would
allow a single entity to monopolize the term “booking”

16
with respect to the relevant online services and would
impede respondent’s competitors from using it in their
own domain names. “[G]ranting trademark rights over
a domain name composed of a generic term and a [toplevel domain] grants the trademark holder rights over
far more intellectual property than the domain name itself.” Advertise.com, Inc. v. AOL Adver., Inc., 616 F.3d
974, 980 (9th Cir. 2010). “In addition to potentially covering all combinations of the generic term with any [toplevel domain] (e.g., ‘.com’; ‘.biz’; ‘.org’), such trademark
protection would potentially reach almost any use of
the generic term in a domain name.” Id. at 980-981.
For instance, respondent might bring infringement
suits against competitors operating domain names such
as “roomsbooking.com,” “hotelbooking.com,” “ebooking.
biz,” or any of “a vast array of simple, easy to remember
domain names and designations that describe the services provided.” Id. at 981. Indeed, respondent informed the USPTO that it “considers the use * * * of
EBOOKING.COM [by one of its competitors] to be a
potential infringement.” C.A. App. 207.4
Both the Federal and Ninth Circuits have viewed
Goodyear as applicable to “generic.com” domain names,
in light of the similarities between the addition of “.com”

4
The court of appeals posited that, for various reasons, respondent might not ultimately succeed in an infringement suit against a
competitor that used a different domain name. App., infra, 24a-25a.
But “competitors seeking to avoid litigation risk and expenses—
even if they might ultimately prevail * * * —will be chilled from
using the term” “booking” in their own domain names. Id. at 44a
(Wynn, J., concurring in part and dissenting in part); see, e.g., WalMart Stores, Inc. v. Samara Bros., Inc., 529 U.S. 205, 214 (2000)
(“Competition is deterred * * * not merely by successful suit but
by the plausible threat of successful suit.”).

17
and the addition of corporate identifiers like “Company” or “Inc.” See, e.g., Advertise.com, 616 F.3d at 982
(noting that “ ‘.com,’ when added to a generic term, ‘indicates a commercial entity’ [and] does not suffice to establish that the composite is distinctive, much as AOL
would not have created a protectable mark by adopting
the designation ‘Advertising Company’ ”); In re Oppedahl
& Larson LLP, 373 F.3d 1171, 1175 (Fed. Cir. 2004) (explaining that, “[a]lthough not a perfect analogy, the
comparison of ” top-level domains like .com “to entity
designations such as ‘Corp.,’ and ‘Inc.’ has merit,” because “[t]he commercial impression created by ‘.com’ is
similar to the impression created by” those terms).
Those courts therefore have held that adding “.com” to
a generic term will create a protectable mark only in the
“rare” case where the combined term carries additional
meaning. See, e.g., Advertise.com, 616 F.3d at 981 (concluding that “ADVERTISING.COM” did not present
the “rare case”); In re Steelbuilding.com, 415 F.3d 1293,
1299 (Fed. Cir. 2005) (stating that the addition of a toplevel domain may create a registrable mark in the “unusual case” in which it “expand[s] the meaning of the
mark”); In re Oppedahl & Larson LLP, 373 F.3d at 1175
(providing hypothetical example of a brick-and-mortar
store called “tennis.net” that sells tennis nets); App.,
infra, 36a & n.4 (Wynn, J., concurring in part and dissenting in part) (providing hypothetical example of
“rom.com” for a “website cataloguing and discussing romantic comedy movies of the 1980s, 1990s, and 2000s”).
The court below, by contrast, offered no sound reason for viewing this Court’s decision in Goodyear as
inapposite. Instead, it largely dismissed that decision,
explaining that “Goodyear was decided almost sixty
years before the Lanham Act and, crucially, did not ap-

18
ply the primary significance test” that the court of appeals thought was appropriate. App., infra, 19a. But
this Court has not overruled Goodyear, and courts,
commentators, and the USPTO continue to recognize
the decision’s basic principle that adding a corporate (or
other entity-type) designation to a generic term does
not create a protectable mark. See, e.g., Welding Servs.,
Inc. v. Forman, 509 F.3d 1351, 1359 n.4 (11th Cir. 2007)
(“The mere inclusion of ‘Inc.’ at the end of the name
does not make generic words protectable.”); In re Wm.
B. Coleman Co., 93 U.S.P.Q.2d 2019, 2025 (T.T.A.B.
2010) (“[T]he term ‘company’ is simply a designation for
a type of entity without source-identifying capability.”);
2 J. Thomas McCarthy, McCarthy on Trademarks and
Unfair Competition § 12:39, at 12-159 (5th ed. 2019)
(“Tacking a company organizational designation such as
‘Company,’ or ‘Inc.’ or ‘Partners’ cannot transform a generic name into a protectable trademark. Such company designations or their abbreviations are themselves
generic and have no trademark significance.”).
The court of appeals likewise was incorrect in suggesting that Goodyear’s methodology has been overtaken by events. “[T]he purpose of the Lanham Act was
to codify and unify the common law of unfair competition and trademark protection,” Inwood Labs., Inc. v.
Ives Labs., Inc., 456 U.S. 844, 861 n.2 (1982) (White, J.,
concurring in the result), not to abrogate this Court’s
longstanding precedents. The fact that the Goodyear
Court did not expressly apply the “primary significance
test,” App., infra, 19a, enhances rather than detracts
from the current salience of that decision. Because a
name like “Booking Company” would merely tell the
public that “parties have formed an association or partnership to deal” in booking services, Goodyear, 128 U.S.
at 602, that name would be generic under Goodyear

19
even if consumers might infer that it refers to a particular business. There is no reason to differentiate, for
trademark-registration purposes, between that name
and the Internet analogue “BOOKING.COM.” 5
2. In addition to disregarding this Court’s decision
in Goodyear, the court of appeals erred in extending the
concept of secondary meaning to generic terms. The
court held that, because respondent had adduced evidence that consumers associate BOOKING.COM with
its specific business, the district court had properly
found the term non-generic.
That approach effectively eliminates the established
distinction between generic and descriptive terms, and
the rule that only the latter can become eligible for
trademark protection if they become associated in the
minds of consumers with a particular brand. As Judge
Friendly explained, “no matter how much money and
effort the user of a generic term has poured into promoting the sale of its merchandise and what success it
has achieved in securing public identification, it cannot
deprive competing manufacturers of the product of the
5
Although no technological barrier precludes multiple firms from
calling themselves “The Grain Company” or “Grain Inc.,” the Internet operates in such a way that each web address corresponds to a
distinct website and thus, in the commercial context, to a distinct
provider of goods or services. That distinction, however, provides
no sound basis for treating Goodyear as inapposite here, and the
court of appeals appropriately declined to rely on such a rationale.
Other sources of law could restrict competitors’ use of the sorts of
names that the Goodyear Court discussed. This Court did not suggest, however, that a term like “Grain Inc.” could be registered as a
trademark if (for example) applicable state law allowed only one
firm to incorporate in the State under that name. To the contrary,
the decision in Goodyear was premised on this Court’s recognition
that “[n]ames which are thus descriptive of a class of goods cannot
be exclusively appropriated by any one.” 128 U.S. at 602.

20
right to call an article by its name.” Abercrombie &
Fitch Co., 537 F.2d at 9; see, e.g., Royal Crown Co. v.
The Coca-Cola Co., 892 F.3d 1358, 1370 (Fed. Cir. 2018);
Miller Brewing Co. v. Falstaff Brewing Corp., 655 F.2d
5, 7-8 & n.2 (1st Cir. 1981); Keebler Co. v. Rovira Biscuit
Corp., 624 F.2d 366, 374-375 (1st Cir. 1980). While descriptive terms can acquire distinctiveness and become
eligible for trademark protection, “if a word is generic
it can never become a trademark.” Miller Brewing Co.
v. Jos. Schlitz Brewing Co., 605 F.2d 990, 995 (7th Cir.
1979) (internal quotation marks omitted). Thus, even if
a business successfully induced consumers to associate
“The Grain Company” or “Grain, Inc.” with its particular grain-selling operations, those terms would remain
generic and ineligible for trademark protection, since
granting the business a legal monopoly on their use
would unfairly restrict the ability of new market entrants to compete. See Goodyear, 128 U.S. at 602-603.
This Court has confirmed that a generic term remains generic even when the public has come to associate it with a single producer. In Kellogg Co. v. National
Biscuit Co., 305 U.S. 111 (1938), the National Biscuit
Company had held a patent on “Shredded Wheat.” Id.
at 117-118. After the patent expired, Kellogg Company
began to sell a similar product—also called “Shredded
Wheat”—and the National Biscuit Company brought
suit alleging unfair competition. Id. at 113-115, 117-118.
The Court held that “ ‘Shredded Wheat’ ” was “the generic term of the article,” so that “the original maker of
the product acquired no exclusive right to use” the
term. Id. at 116. That was so even though, “due to the
long period in which the plaintiff or its predecessor was
the only manufacturer of the product, many people
ha[d] come to associate the product, and as a consequence the name by which the product [wa]s generally

21
known, with the plaintiff ’s factory.” Id. at 118. Because
the term was generic, the Court explained, “[t]here
[wa]s no basis * * * for applying the doctrine of secondary meaning.” Ibid.
In keeping with that principle, courts of appeals have
refused to rely on survey evidence purporting to show
that consumers associate a generic term with a particular producer. See, e.g., Miller Brewing Co., 605 F.2d at
995 (rejecting survey showing that consumers associated the term “ ‘light’ ” beer with Miller Brewing Company, because such evidence “would not advance Miller’s trademark claim”). Indeed, the Fourth Circuit had
previously rejected survey evidence regarding consumers’ understanding of the term “ ‘crab house’ ” because
the case did not “involv[e] a coined word for a commercial product (such as ‘aspirin,’ ‘teflon,’ or ‘thermos’) that
is alleged to have become generic through common usage.” Hunt Masters, Inc. v. Landry’s Seafood Rest.,
Inc., 240 F.3d 251, 255 (2001).
The court below thus erred in treating this case as
requiring a factual inquiry into whether consumers associate BOOKING.COM with a particular brand. The
court did not meaningfully grapple with Kellogg Co., citing that case only for the tautology that “[a] term may
be generic if * * * it was previously determined to be
generic by a court.” App., infra, 10a. The court also did
not explain how a consumer survey could render
BOOKING.COM potentially registrable when no similar survey could justify registration of “Booking Inc.”
See Goodyear, 128 U.S. at 602-603. While the court suggested that it was appropriate to rely on survey evidence because the combined term BOOKING.COM had
not already been held generic and was not “previously
commonly used,” App., infra, 21a; see id. at 21a n.11,

22
the same could be said about any “Generic Inc.” combination when a firm first uses that name. Yet Goodyear
and Kellogg Co. make clear that such terms are not protectable as trademarks, no matter how strongly the public
comes to associate them with a particular business. 6
The court of appeals’ reliance on respondent’s Teflon
survey also is in significant tension with the principle
that “[f ]unctional features * * * cannot be the basis for
trademark protection.” App., infra, 41a (Wynn, J., concurring in part and dissenting in part) (citing America
Online, Inc. v. AT & T Corp., 243 F.3d 812, 822-823
(4th Cir.), cert. dismissed, 534 U.S. 946 (2001)); see also,
e.g., Traf Fix Devices, Inc. v. Marketing Displays, Inc.,
532 U.S. 23, 33 (2001) (“Functionality having been established, whether MDI’s dual-spring design has acquired secondary meaning need not be considered.”);
15 U.S.C. 1052(e). Although the court stated that it did
“not address” the district court’s reliance “on BOOKING.
COM’s functional role as a web address,” App., infra,
21a n.10, respondent’s Teflon survey necessarily reflects that functionality. Under the domain-name addressing system, only one company may hold the rights
to a particular domain name at a given time. To the extent that consumers’ association of BOOKING.COM
with a particular business reflects a functional characteristic of the Internet and the domain-name system, it
cannot support a determination that BOOKING.COM
is protectable as a trademark.

6
In any event, the court of appeals erred in concluding that the
term “booking.com” had not previously been in common usage. As
the TTAB explained, the term was used within other businesses’
longer domain names. See p. 7, supra.

23
B. The Question Presented Warrants Review

The decision below conflicts with rulings of the Federal and Ninth Circuits, the only other courts of appeals
that have considered the question presented here. The
Lanham Act’s scheme for judicial review of TTAB decisions renders that division especially problematic. And
the court of appeals’ decision here threatens to have significant anticompetitive effects for online businesses.
1. The Federal Circuit has long held that the addition of “ ‘.com’ ” to an otherwise generic term generally
does not cause the term to “lose its generic character.”
Hotels.com, 573 F.3d at 1304. For example, the Federal
Circuit affirmed the TTAB’s determination that an online
hotel booking company could not register HOTELS.
COM as a trademark. Id. at 1304-1306; see In re
1800Mattress.com IP, LLC, 586 F.3d 1359, 1363-1364
(Fed. Cir. 2009) (affirming denial of registration of
MATTRESS.COM for online mattress store); In re
Reed Elsevier Props. Inc., 482 F.3d 1376, 1379-1380
(Fed. Cir. 2007) (affirming denial of registration of
LAWYERS.COM insofar as it provided “information
exchange about legal services”). The Federal Circuit
reached that result even though the applicant had submitted survey evidence that “76% of respondents regarded HOTELS.COM as a brand name.” Hotels.com,
573 F.3d at 1305 (citation omitted).
The Ninth Circuit likewise has recognized that the
addition of “.com” generally does not render a generic
term protectable as a trademark. In Advertise.com,
AOL, which owned trademark registrations including
the mark ADVERTISING.COM, alleged that the use of
ADVERTISE.COM infringed its mark. 616 F.3d at 976.
The court reversed the grant of a preliminary injunction

24
to AOL, explaining that ADVERTISING.COM was generic because it merely “convey[s] the genus of the services offered under the mark: internet advertising.” Id.
at 982.7
The court below suggested that its decision “comport[ed]” with those of the Federal and Ninth Circuits,
because those courts have “left open the possibility that
in ‘rare circumstances’ a [top-level domain] may render
a term sufficiently distinctive to be protected as a trademark.” App., infra, 22a. But while the majority characterized the case before it as the “rare” case, id. at 23a,
the present dispute has little in common with the “rare”
cases hypothesized by the other courts of appeals.
Those courts have left open the possibility of trademark
registration where the addition of “.com” or another
top-level domain to a particular generic term goes beyond simply indicating that a particular website is involved, and imparts new meaning in relation to the particular goods or services for which registration is sought.
See Advertise.com, 616 F.3d at 979-980; 1800Mattress.
com IP, 586 F.3d at 1364; Oppedahl & Larson LLP,
373 F.3d at 1175; App., infra, 35a-38a (Wynn, J., concurring in part and dissenting in part). By contrast,
BOOKING.COM—like the HOTELS.COM, MATTRESS.
COM, LAWYERS.COM, and ADVERTISING.COM
marks that the Federal and Ninth Circuits have found
unprotectable—conveys only that respondent offers
7
The court in Advertise.com stated that “[i]t is not inconceivable
but certainly highly unlikely that consumer surveys or other evidence might ultimately demonstrate that AOL’s mark is valid and
protectable.” 616 F.3d at 982; see App., infra, 23a (quoting part of
this language). The court did not explain that statement, which—to
the extent it suggests that consumer recognition may cause a term
to lose its generic character—is incorrect for the reasons already
discussed. See pp. 19-22, supra.

25
online booking services. There is consequently little
doubt that the Federal and Ninth Circuits would have
reached a different result than the Fourth Circuit
reached here.
2. The statutory scheme that governs judicial review
of TTAB trademark-registration decisions renders the
division among the courts of appeals particularly destabilizing. As discussed above, pp. 6-7, supra, parties dissatisfied with such decisions may appeal directly to the
Federal Circuit, 15 U.S.C. 1071(a), and the USPTO
therefore follows Federal Circuit precedent in examining trademark-registration applications, see TTAB Manual § 101.03. But aggrieved parties also may seek review in an appropriate district court. 15 U.S.C. 1071(b).
Because the USPTO is headquartered in Alexandria,
Virginia, venue ordinarily will be appropriate in the
Eastern District of Virginia, subject to appellate review
in the Fourth Circuit, where the decision below will be
binding precedent.
Thus, if the USPTO approves a “generic.com” term
for registration as a trademark in accordance with the
Fourth Circuit’s decision in this case, third parties who
unsuccessfully opposed the registration may appeal directly to the Federal Circuit, invoking that court’s precedents holding such marks to be generic and therefore
unregistrable.8 But if the USPTO refuses registration,
the applicant may seek review in the Eastern District of
Virginia and may obtain registration if it can persuade
a district court that consumers associate the term with
its business. Under the reasoning of the court below,

8
In some cases, unsuccessful opponents of trademark registration might achieve the same result by establishing venue and filing
civil actions in district courts within the Ninth Circuit.

26
the applicant may achieve that goal by presenting survey evidence that consumers understand the proposed
“generic.com” mark to denote a particular business—a
showing made easier by the functional reality that only
one entity can hold the rights to a particular domain
name. This Court’s review is necessary to protect the
USPTO from that whipsaw and to ensure that federal
trademark registration of such terms is governed by
uniform rules.
3. Finally, the decision below threatens to cause serious and immediate anticompetitive harms. It creates
incentives for participants in online commerce to
quickly apply to register “generic.com” domain names
as trademarks with the USPTO, and to file civil actions
within the Fourth Circuit if the USPTO denies their applications. Registration of such domain names as trademarks will discourage competitors from using the generic names of their goods or services in their own domain names. App., infra, 41a-45a (Wynn, J., concurring
in part and dissenting in part); see Hotels.com, 573 F.3d
at 1304, 1306 (affirming the TTAB’s denial of registration for “HOTELS.COM,” and quoting with approval the
TTAB’s reference to the “ ‘competitive need for others
to use as part of their own domain names and trademarks, the term that applicant is attempting to register’ ”) (citation omitted). This Court’s review is warranted to ensure that trademark law fosters rather than
hinders competition in the online marketplace.

27
CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted.

SARAH T. HARRIS
General Counsel
THOMAS W. KRAUSE
Solicitor
CHRISTINA J. HIEBER
Senior Counsel
MOLLY R. SILFEN
Associate Solicitor
United States Patent and
Trademark Office

JULY 2019

NOEL J. FRANCISCO
Solicitor General
JOSEPH H. HUNT
Assistant Attorney General
MALCOLM L. STEWART
Deputy Solicitor General
ERICA L. ROSS
Assistant to the Solicitor
General
MARK R. FREEMAN
DANIEL TENNY
Attorneys

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 17-2458
BOOKING.COM B.V., PLAINTIFF-APPELLEE
v.
THE UNITED STATES PATENT AND TRADEMARK
OFFICE; ANDREI IANCU, IN HIS OFFICIAL CAPACITY
AS UNDER SECRETARY OF COMMERCE FOR
INTELLECTUAL PROPERTY AND DIRECTOR OF THE
UNITED STATES PATENT AND TRADEMARK OFFICE,
DEFENDANTS -APPELLANTS
AMERICAN INTELLECTUAL PROPERTY LAW
ASSOCIATION, AMICUS CURIAE
No. 17-2459
BOOKING.COM B.V., PLAINTIFF-APPELLANT
v.
THE UNITED STATES PATENT AND TRADEMARK
OFFICE; ANDREI IANCU, IN HIS OFFICIAL CAPACITY
AS UNDER SECRETARY OF COMMERCE FOR
INTELLECTUAL PROPERTY AND DIRECTOR OF THE
UNITED STATES PATENT AND TRADEMARK OFFICE,
DEFENDANTS -APPELLEES
AMERICAN INTELLECTUAL PROPERTY LAW
ASSOCIATION, AMICUS CURIAE
Argued: Oct. 31, 2018
Decided: Feb. 4, 2019
Amended: Feb. 27, 2019
(1a)

2a

Appeals from the United States District Court
for the Eastern District of Virginia, at Alexandria.
Leonie M. Brinkema, District Judge.
(1:16-cv-425-LMB-IDD)
Before:

KING, DUNCAN, and WYNN, Circuit Judges.

DUNCAN, Circuit Judge:
The United States Patent and Trademark Office (the
“USPTO”) and Booking.com (“Booking.com”) both appeal the district court’s summary judgment ruling regarding the protectability of the proposed trademark
BOOKING.COM.1 The USPTO appeals on the ground
that the district court erred in concluding that BOOKING.
COM is a protectable mark. Booking.com cross appeals, arguing that it should not be required to pay the
USPTO’s attorneys fees under 15 U.S.C. § 1071(b)(3).
For the reasons that follow we affirm as to both the appeal and the cross-appeal.
I.
Before we recount the facts of this case, we briefly
discuss the legal trademark context in which it arises.
Trademark law protects the goodwill represented by
particular marks and serves the twin objectives of preventing consumer confusion between products and the
sources of those products, on the one hand, and protecting the linguistic commons by preventing exclusive use
of terms that represent their common meaning, on the

Throughout this opinion, we use Booking.com to refer to the
Plaintiff-Appellant and BOOKING.COM to refer to the proposed
mark.
1

3a
other. OBX-Stock, Inc. v. Bicast, Inc., 558 F.3d 334,
339-40 (4th Cir. 2009).
In order to be protectable, marks must be “distinctive.” To determine whether a proposed mark is protectable, courts ascertain the strength of the mark by
placing it into one of four categories of distinctiveness,
in ascending order: (1) generic, (2) descriptive, (3) suggestive, or (4) arbitrary or fanciful. George & Co. v.
Imagination Entm’t Ltd., 575 F.3d 383, 393-94 (4th Cir.
2009). Marks falling into the latter two categories are
deemed inherently distinctive and are entitled to protection because their intrinsic nature serves to identify the
particular source of a product. In contrast, descriptive
terms may be distinctive only upon certain showings,
and generic terms are never distinctive. This dispute
concerns only the first two of these four categories, with
Booking.com arguing the mark is descriptive and the
USPTO arguing it is generic.
A term is generic if it is the “common name of a product” or “the genus of which the particular product is a
species,” such as LITE BEER for light beer, or CONVENIENT STORE for convenience stores. OBX-Stock,
Inc., 558 F.3d at 340. Generic terms do not contain
source-identifying significance—they do not distinguish
the particular product or service from other products or
services on the market. George & Co., 575 F.3d at 394.
Accordingly, generic terms can never obtain trademark
protection, as trademarking a generic term effectively
grants the owner a monopoly over a term in common
coinage.
If protection were allowed, a competitor
could not describe his goods or services as what they are.
CES Publ’g Corp. v. St. Regis Publ’ns, Inc., 531 F.2d 11,
13 (2d Cir. 1975).

4a
In contrast, descriptive terms, which may be protectable, describe a “function, use, characteristic, size, or intended purpose of the product,” such as 5 MINUTE
GLUE or KING SIZE MEN’S CLOTHING. Sara Lee
Corp. v. Kayser-Roth Corp., 81 F.3d 455, 464 (4th Cir.
1996). In order to be protected, a descriptive term
must have acquired secondary meaning. Hunt Masters, Inc. v. Landry’s Seafood Rest., Inc., 240 F.3d 251,
254 (4th Cir. 2001). Secondary meaning indicates that
a term has become sufficiently distinctive to establish a
mental association in the relevant public’s minds between the proposed mark and the source of the product
or service. George & Co., 575 F.3d at 394.
Against this background, we consider the facts before us.
II.
Booking.com operates a website on which customers
can book travel and hotel accommodations. It has used
the name BOOKING.COM since at least 2006. In 2011
and 2012, Booking.com filed four trademark applications for the use of BOOKING.COM as a word mark and
for stylized versions of the mark with the USPTO.
Booking.com sought registration for, inter alia, Class
43 services, which include online hotel reservation services.2

The applications also identified Class 39 services, which include
“travel and tour ticket reservation services” and “online travel and
tourism services.” Booking.com B.V. v. Matal, 278 F. Supp. 3d 891,
896-97 (E.D. Va. 2017). Because the district court found that the
marks were only protectable as to Class 43 services and remanded
with respect to Class 39 services, and Booking.com does not challenge
2

5a
The USPTO examiner rejected Booking.com’s applications, finding that the marks were not protectable because BOOKING.COM was generic as applied to the relevant services. In the alternative, the USPTO concluded that the marks were merely descriptive and that
Booking.com had failed to establish that they had acquired secondary meaning as required for trademark
protection. After the examiner denied Booking.com’s
motion for reconsideration, Booking.com appealed to
the Trademark Trial and Appeal Board (the “TTAB”).
The TTAB affirmed the USPTO’s four refusals of
registration in three separate opinions. These opinions all concluded that BOOKING.COM was a generic
term for the services offered, and therefore ineligible
for trademark protection, because “booking” generically refers to “a reservation or arrangement to buy a
travel ticket or stay in a hotel room” or “the act of
reserving such travel or accommodation”; “.com” indicates a commercial website; and consumers would understand the resulting composite BOOKING.COM to
primarily refer to an online reservation service for
travel, tours, and lodging, which are the services proposed in Booking.com’s applications. Booking.com B.V.
v. Matal, 278 F. Supp. 3d 891, 896 (E.D. Va. 2017) (summarizing the TTAB’s findings). In the alternative, the
TTAB concluded that BOOKING.COM is merely descriptive of Booking.com’s services and that Booking.
com had failed to demonstrate that the mark had acquired secondary meaning, as required for trademark
protection.

this ruling on appeal, we consider only whether BOOKING.COM is
protectable as to Class 43 services.

6a
Booking.com appealed the TTAB’s decisions by filing this civil action under 15 U.S.C. § 1071(b) against the
USPTO and the USPTO’s director in the Eastern District
of Virginia in April 2016. 3 It argued that BOOKING.
COM was a descriptive or suggestive mark eligible for
protection. In support of its argument, Booking.com
submitted new evidence to the district court. This evidence included a “Teflon survey,” 4 indicating that 74.8%
of consumers recognized BOOKING.COM as a brand
rather than a generic service.
The district court held that although “booking”
was a generic term for the services identified,
BOOKING.COM as a whole was nevertheless a descriptive mark. The district court further determined that
Booking.com had met its burden of demonstrating that
the proposed mark had acquired secondary meaning,
and therefore was protectable, as to the hotel reservation services described in Class 43. The court therefore partially granted Booking.com’s motion for summary judgment, ordering the USPTO to register two of
the marks and remanded for further administrative proceedings as to the other two.
The USPTO subsequently filed two motions. Pursuant to Federal Rule of Civil Procedure 59(e), the
USPTO sought to amend the court’s order requiring the

As we discuss further below, Booking.com could have appealed to
the Federal Circuit but declined to do so.
4
Teflon surveys are the “most widely used survey format to resolve a genericness challenge.” 2 McCarthy on Trademarks at
§ 12:16. These surveys explain the distinction between generic
names and trademark or brand names and then ask survey respondents to identify a series of names as common or brand names.
3

7a
USPTO to register the two trademarks, requesting instead that the court remand for further administrative
proceedings. It also filed a motion for expenses pursuant to 15 U.S.C. § 1071(b)(3), which would require
Booking.com to pay $76,873.61 of the USPTO’s expenses
under 15 U.S.C. § 1071(b)(3). These expenses included
the salaries of the PTO’s attorneys and paralegals that
worked on the defense action. The district court denied the USPTO’s motion to amend as to the two marks,
reasoning that they were registerable as trademarks
and that no further administrative proceedings were
necessary. However, the district court granted the
USPTO’s motion for expenses. Both the USPTO and
Booking.com appealed. The USPTO and Booking.com
challenge, respectively, whether BOOKING.COM is
protectable, and whether Booking.com must pay the
USPTO’s attorneys fees.
III.
We turn first to the USPTO’s contention that the district court erred in concluding that BOOKING.COM is
a protectable trademark. According to the USPTO,
BOOKING.COM is a generic, not a descriptive, term
that can never be protected.
We review a district court’s grant of summary judgment based on the conclusion that a mark is sufficiently
distinctive to warrant trademark protection de novo.
Retail Servs. Inc. v. Freebies Publ’g, 364 F.3d 535, 54142 (4th Cir. 2004). The question of whether a proposed
mark is generic is a question of fact that is subject to
deferential review. See Swatch AG v. Beehive Wholesale, LLC, 739 F.3d 150, 155 (4th Cir. 2014) (citing Pizzeria Uno Corp. v. Temple, 747 F.2d 1522, 1533 (4th Cir.
1984)).

8a
Critically to our analysis, the USPTO concedes that
if BOOKING.COM may properly be deemed descriptive, the district court’s finding that it has acquired secondary meaning was warranted. Rather, the USPTO
only challenges the district court’s determination that
BOOKING.COM is not generic. Therefore, the limited
question on appeal is whether the district court erred in
finding that BOOKING.COM is not generic. For the
reasons that follow, we conclude that the district court
did not err in finding that there was no genuine issue of
material fact on the issue of genericness and that, on
these facts, BOOKING.COM is a protectable trademark.
Before undertaking our analysis, two issues pertinent to the genericness inquiry bear further elaboration:
first, who bears the burden of proving genericness, and
second, the framework for determining whether a proposed mark is generic.
A.
We have never directly addressed the issue of which
party bears the burden of proving genericness on appeal
when registration of a mark is denied. 5 However, the
Federal Circuit has long held, and we agree, that in registration proceedings, the USPTO “always bears the
burden” of establishing that a proposed mark is generic.
In re Cordua Rests., Inc., 823 F.3d 594, 600 (Fed. Cir.
In trademark infringement proceedings, we have held that the
burden of proof lies with the party claiming that a previously registered mark is generic because there is a presumption of validity.
See Glover v. Ampak, Inc., 74 F.3d 57, 59 (4th Cir. 1996). Where a
mark is not registered, however, and the alleged infringer asserts
genericness as a defense, the plaintiff bears the burden of proving
that the mark is not generic. See Ale House Mgmt. Inc. v. Raleigh
Ale House, Inc., 205 F.3d 137, 140 (4th Cir. 2000).
5

9a
2016); see In re Merrill Lynch, Pierce, Fenner, and
Smith, Inc., 828 F.2d 1567, 1571 (Fed. Cir. 1987) (explaining that the burden of proving genericness “remains with” the PTO) (emphasis added). This is so because finding a mark to be generic carries significant
consequence, as it forecloses an applicant from any
rights over the mark—once a mark is determined to be
generic, it can never receive trademark protection.
See 2 J. Thomas McCarthy, McCarthy on Trademarks
and Unfair Competition, § 12:12 (5th ed. 2018) (explaining that finding a mark to be generic is a “fateful step”
as it may result in the “loss of rights which could be valuable intellectual property”).
We therefore hold here that the USPTO bears the
burden of proving that BOOKING.COM is generic in
the instant case.
B.
We next discuss the framework for determining
whether a mark is generic. As we have discussed, generic terms are the “common name of a product or service itself.” Sara Lee, 81 F.3d at 464. To determine
whether a term is generic, we follow a three-step test:
(1) identify the class of product or service to which use
of the mark is relevant; (2) identify the relevant consuming public; and (3) determine whether the primary significance of the mark to the relevant public is as an indication of the nature of the class of the product or services to which the mark relates, which suggests that it is
generic, or an indication of the source or brand, which

10a
suggests that it is not generic. 6
74 F.3d 57, 59 (4th Cir. 1996).

Glover v. Ampak, Inc.,

Once a term is deemed generic, it cannot subsequently become non-generic. A term may be generic
if, for example, it was previously determined to be
generic by a court. Kellogg Co. v. Nat’l Biscuit Co.,
305 U.S. 111, 117 (1938) (finding that “shredded wheat”
was generic because a court had already deemed it to be
so). A term may also be deemed generic where evidence suggests that a term was “commonly used prior
to its association with the products [or services] at issue.” Hunt Masters, 240 F.3d at 254-55. In such cases
of common usage, a court may find that a term is generic
even without looking to evidence of consumer recognition. Id. For example, in Hunt Masters, we found that
the term “crab house” was commonly used, as there
The Lanham Act codifies the primary significance test as the test
for determining whether a registered trademark has become generic
in cancellation of registration proceedings. 15 U.S.C. § 1064(3)
(“The primary significance of the registered mark to the relevant
public . . . shall be the test for determining whether the registered mark has become the generic name of goods or services on or
in connection with which it has been used.”); see Glover, 74 F.3d at
59. However, we and the Federal Circuit have also applied the primary significance test to determine genericness in registration proceedings. See In re 1800Mattress.com IP, LLC, 586 F.3d 1359,
1362-63 (Fed. Cir. 2009) (applying a two-step genericness inquiry,
asking in part whether the term sought to be registered is “understood by the relevant public to refer to that genus of goods or services”) (citation omitted); In re Reed Elsevier Props., Inc., 482 F.3d
1376, 1378 (Fed. Cir. 2007) (same); see also America Online, Inc. v.
AT&T Corp., 243 F.3d 812, 822 (4th Cir. 2001) (determining that a
mark was generic because the evidence “d[id] not reveal that the
primary significance of the term” was the source rather than its generic meaning) (emphasis added).
6

11a
were many restaurants called “crab houses” across the
country, id. at 254 n.1, and concluded, therefore, that the
district court did not err in declining to consider consumer survey evidence.
If a term is deemed generic, subsequent consumer
recognition of the term as brand-specific cannot change
that determination. See Retail Servs., Inc., 364 F.3d at
547. Indeed, courts have explained that “no matter
how much money and effort the user of a generic term
has poured into promoting the sale of its merchandise
and what success it has achieved in securing public identification,” that user cannot claim the exclusive right
through trademark protection to call the product or service by its common name. Abercrombie & Fitch Co. v.
Hunting World, Inc., 537 F.2d 4, 9 (2d Cir. 1976).
In this case, neither party disputes the district
court’s finding at the first step: that the mark is used
to identify the class or product to which it belongs—here,
making hotel reservations for others. Nor do they disagree as to step two: that the relevant purchasing public
consists of consumers who use hotel reservation services
offered via the internet or in person. Instead, the dispute
arises at the third step: the public’s understanding of
what the term BOOKING.COM primarily refers to.
To ascertain the public’s understanding of a term,
courts may look to “purchaser testimony, consumer surveys, listings and dictionaries, trade journals, newspapers, and other publications.” Glover, 74 F.3d at 59.
For example, in determining that the term “ale house”
was generic for a facility that serves both food and beer,
we considered newspaper articles and restaurant reviews that referred to such facilities as “ale houses,” as
well as the lack of evidence suggesting that it was not a

12a
generic term for such institutions. Ale House Mgmt.,
Inc. v. Raleigh Ale House, Inc., 205 F.3d 137, 140-41
(4th Cir. 2000).
In assessing whether a term is understood by the relevant public to primarily refer to the service or the
source, we look to the proposed mark as a whole, see
Hunt Masters, 240 F.3d at 254 (“[A] mark must be considered as a whole to determine its validity.”). Even
where a proposed mark is a phrase or a compound term,
such as “crab house” or “ale house,” the relevant inquiry
is the public’s understanding of the entire mark, not its
understanding of the mark’s separate components independently. Estate of P.D. Beckwith, Inc. v. Comm’r of
Patents, 252 U.S. 538, 545-46 (1920).
With this framework for genericness in mind, we
turn to the USPTO’s contention on appeal that the district court erred in finding that BOOKING.COM is a descriptive, rather than a generic, mark.
C.
We hold that the district court, in weighing the evidence before it, did not err in finding that the USPTO
failed to satisfy its burden of proving that the relevant
public understood BOOKING.COM, taken as a whole,
to refer to general online hotel reservation services rather than Booking.com the company. Because the
USPTO concedes that, if the mark is descriptive, it is
protectable, this ends our inquiry. In affirming the
district court’s finding, we reject the USPTO’s contention that adding the top-level domain (a “TLD”) .com to
a generic second-level domain (an “SLD”) like booking
can never yield a non-generic mark. We turn first to

13a
the district court’s finding on genericness before addressing the USPTO’s proposed rule.
i.
Genericness is a question of fact to which the district
court, as the trier of fact, is accorded great deference. 7
See Swatch AG, 739 F.3d at 155. Here, in finding that
the public’s understanding of BOOKING.COM, taken as
a whole, establishes it as a descriptive mark rather than
a generic term, the district court relied on two main
factors: the USPTO’s lack of evidence demonstrating
that the public uses “booking.com” generically, and
Booking.com’s Teflon survey. We conclude that the
district court did not err in finding that the evidence
weighed in favor of finding BOOKING.COM to be
non-generic.
First, the district court found “highly relevant” the
absence of evidence by the USPTO that consumers commonly refer to online hotel reservation services as
“bookings.com.” Booking.com B.V., 278 F. Supp. 3d at
914. Instead, the court determined that the USPTO’s
evidence demonstrated that such services are referred
to as “booking website(s),” or “booking site(s).” Id.

Specifically, we defer to the district court’s factual finding regarding the primary significance of the mark to the public—a finding
for which the court applied the proper legal analysis—and not the
court’s determination as to the trademark significance of the fact
that a domain name like “booking.com” necessarily refers only to a
single source. In fact, we conclude that the court erred in this latter determination, discussed infra; but contrary to the Dissent’s position, such error does not affect the court’s separate factual finding
as to primary significance. See Booking.com B.V., 278 F. Supp. 3d
at 913-18.
7

14a
While the USPTO identified other domain names that
contain “booking.com”—such as “hotelbooking.com” and
“ebooking.com”—to support its argument that the relevant public understands BOOKING.COM to refer to
online hotel booking services, the district court did not
err in finding this evidence less probative of common
usage. It is true that some courts have found the use
of a proposed mark in longer domain names to be evidence in support of finding that term generic. See, e.g.,
Advertise.com, Inc. v. AOL Advertising, Inc., 616 F.3d
974, 980-81 (9th Cir. 2010) (finding that the way in which
ADVERTISING.COM was used in other domain names
was evidence of genericness); In re Hotels.com, L.P.,
573 F.3d 1300, 1304 (Fed. Cir. 2009) (same for HOTELS.
COM); In re Reed Elsevier Props., Inc., 482 F.3d 1376,
1380 (Fed. Cir. 2007) (same for LAWYERS.COM). We
note, however, that although those courts recognized
that the inclusion of the proposed mark in longer domain
names was strong evidence of genericness, they nonetheless remained open to considering consumer surveys
to determine the public’s understanding of the proposed
mark. See, e.g., In re Hotels.com, 573 F.3d at 1304-05
(finding that the TTAB did not err in determining that
the term was generic, citing in part concerns arising
from the methodology of the applicant’s consumer survey). Moreover, using the characters “booking.com” or
“bookings.com” in a longer domain name does not necessarily mean that BOOKING.COM is generic. Unlike
“hotels” or “lawyers,” “booking” is used to describe a
plethora of reservation services, including, for example,
theatrical or musical engagements. See Booking.com
B.V., 278 F. Supp. 3d at 904 (quoting Random House:
Unabridged Dictionary (2d ed. 1993)). Including book-

15a
ing.com in a longer domain name therefore does not necessarily demonstrate that consumers would understand
BOOKING.COM to identify any website that provides
hotel reservation services. In fact, the record evidence
demonstrates the opposite.
The USPTO challenges the court’s weighing of this
evidence, contending that the district court erred in emphasizing that the public does not use “booking.com” to
refer to the relevant services, and instead should have
evaluated whether the public would understand the term
to refer to those services. We agree with the USPTO
that the ultimate inquiry in determining whether a term is
generic is what the public understands the proposed mark
to mean. Glover, 74 F.3d at 59. Nonetheless, courts
have considered usage to be probative of the public’s understanding. Compare In re Dial-A-Mattress, 240 F.3d
1341, 1346 (Fed. Cir. 2001) (finding that a mark was not
generic where there was no evidence that the relevant
public referred to the class of shop-at-home mattress retailers as “1-888-M-A-T-R-E-S-S”), with Frito-Lay N.
Am. Inc. v. Princeton Vanguard, LLC, 124 U.S.P.Q.2d
1184 at *6-10 (TTAB 2017) (finding “pretzel crisp” to be
generic where the record evidence, including newspaper
articles and food blogs, used the term to refer to the genus of snack products rather than a particular brand),
and Ale House Mgmt., 205 F.3d at 140-41 (finding “ale
house” to be generic for facilities that serve food and
beer where newspaper articles and restaurant reviews
referred to such facilities as “ale houses”). It is therefore not error for a court to consider, as the court did

16a
here, evidence of the public’s use of a term in evaluating its primary significance to the public. 8 And in any
event, as we will discuss, the consumer surveys in this
record suggest that the public primarily understands
BOOKING.COM to indicate the company rather than
the service.
Second, the district court also considered Booking.
com’s Teflon survey, which demonstrates that 74.8% of
respondents identified BOOKING.COM as a brand
name, rather than as a general reference to hotel reservation websites. Such consumer surveys are the “preferred method of proving genericness.” Princeton Vanguard, LLC v. FritoLay N. Am., Inc., 786 F.3d 960, 970
(Fed. Cir. 2015) (citation omitted). Indeed, courts have
recognized that “[c]onsumer surveys have become almost
de rigueur in litigation over genericness.” Berner Int’l
Corp. v. Mars Sales Co., 987 F.2d 975, 982-83 (3d Cir.
1993) (internal quotation marks and citation omitted).
Accordingly, where, as here, the district court found
that the survey was methodologically sound, the survey
is strong evidence that the public does not understand
BOOKING.COM to refer to the proposed mark’s generic meaning.
On appeal, the USPTO does not contest the validity
of the survey or its methodology. Instead, it relies on
dicta in Hunt Masters to argue that the district court
erred in considering the survey at all. 240 F.3d at 25455. Its reliance is misplaced; our reasoning in that case
Because the relevant inquiry is what the mark’s primary significance is to the public, we do not consider the district court’s suggestion, relying on Booking.com’s linguistic expert, that “linguistic
understanding” cannot be divorced from use. Booking.com B.V.,
278 F. Supp. 3d at 914 (alteration and citation omitted).
8

17a
does not apply here. In Hunt Masters, we considered
whether the owners of “the Charleston Crab House,”
who sought to enjoin a competitor from using the name
“The Crab House,” had a protected proprietary interest
in the term “crab house.” We declined to find such an
interest because we determined that “crab house” was a
generic term referring to a class of restaurants that
serve crabs. Id. at 254. In so determining, we held
that the district court did not err in declining to consider
the plaintiff ’s consumer survey. We explained that there
are two ways in which terms may be classified as
generic—“(1) where the term began life as a ‘coined
term’ ” that had become generic through common usage,
and “(2) where the term was commonly used prior to its
association with the products at issue”—and that while
consumer surveys are relevant to determining whether
a term is generic in the former scenario, they are not in
the latter. Id. at 254-55. Contrary to the USPTO’s contention, Hunt Masters does not control where, as here,
the district court determined based on the dearth of evidence in the record that the proposed mark was not
commonly used. As such, the proposed mark does not
fall within the category of terms for which survey evidence is irrelevant.
Weighing the evidence before it, the district court
did not err in finding that the USPTO did not satisfy its
burden of showing that BOOKING.COM is generic. It
is axiomatic that determinations regarding the relative
weight of evidence are left for the trier of fact. See In
re Hotels.com, 573 F.3d at 1305-06 (finding that the trier
of fact, the TTAB, could reasonably have given controlling weight to dictionary definitions and similar uses of
“hotels” with a .com suffix over a consumer survey with
questionable methodology). Here, the district court,

18a
acting as the trier of fact in reviewing Booking.com’s
trademark application de novo, did not err in placing
greater weight on the consumer survey over other evidence, like dictionary definitions, in assessing the primary significance to the public. See Mars Sales Co.,
987 F.2d at 982-83 (explaining that direct consumer evidence, e.g., consumer surveys and testimony, “is preferable to indirect forms of evidence” like dictionaries and
trade journals).
We therefore conclude that the district court did not
err in finding that BOOKING.COM is a descriptive, rather than generic, mark.
ii.
The USPTO nevertheless contends that adding the
top-level domain “.com” to a generic second-level domain
like “booking” is necessarily generic, and that the district
court therefore erred in finding that BOOKING.COM
was non-generic. The USPTO advances two theories
as reasons for adopting a per se rule against protecting
terms like BOOKING.COM. For the reasons that follow, we decline to adopt such an approach under either
theory.
First, the USPTO relies on an 1888 Supreme Court
case to argue that, as a matter of law, adding .com to a
generic SLD like booking can never be nongeneric. In
Goodyear’s Rubber Mfg. Co. v. Goodyear Rubber Co.,
128 U.S. 598, 602-03 (1888), the Court held that the addition of commercial indicators such as “Company” to
terms that merely describe classes of goods could not
be trademarked, like “Grain Company” or, as the Dissent provides, “The Grocery Store.” According to the

19a
USPTO, “.com” is analytically indistinct from “company,” as it is a generic identifier for an entity operating
a commercial website, and therefore its addition to a generic term can never be protected. However, Goodyear was decided almost sixty years before the Lanham
Act and, crucially, did not apply the primary significance
test. No circuit has adopted the bright line rule for
which the USPTO advocates—indeed, sister circuits have
found that when “.com” is added to a generic TLD, the
mark may be protectable upon a sufficient showing of
the public’s understanding through consumer surveys
or other evidence. See, e.g., Advertise.com, Inc., 616 F.3d
at 982; In re Hotels.com, 573 F.3d at 1304-05. We similarly decline to do so here.
Second, the USPTO argues that the proposed mark
is per se generic because it is nothing more than the sum
of its component parts. It contends that “booking” is a
generic term for hotel reservation services, that “.com”
is generic for an online company, and that when combined the resulting composite is generic for the online
booking services at issue here because a member of the
relevant public would understand BOOKING.COM to
name an online booking website. Therefore, the USPTO
contends, BOOKING.COM is generic. We disagree that
it is necessarily so.
We begin by discussing the genericness inquiry as it
applies to compound terms. When confronted with a
compound term like PRETZEL CRISPS, courts may
consider as a first step the meaning of each of the term’s
component marks; but as we explained in Hunt Masters,
the ultimate inquiry examines what the public primarily
perceives the term as a whole to refer to. 240 F.3d at
254. For example, in determining whether PRETZEL

20a
CRISPS is generic, a court may first determine based
on dictionary definitions and other competent sources
that PRETZEL is primarily understood to refer to the
genus of pretzels, and that CRISPS would be understood as primarily referring to crackers. FritoLay N.
Am., Inc., 124 U.S.P.Q.2d 1184 at *4, 21. But the court
must also consider evidence—such as use in newspaper
articles or food blogs—to determine whether the term
PRETZEL CRISPS is perceived primarily to refer to a
crispy pretzel or to a particular source. Id. at *22.
Where the proposed mark is a composite that includes .com, we clarify that, contrary to the district
court’s suggestion, .com does not itself have sourceidentifying significance when added to an SLD like
booking.9 See, e.g., In re Hotels.com, 573 F.3d at 1304
(explaining that the generic term “hotels” did not lose
its generic character by placement in the domain name
HOTELS.COM); McCarthy on Trademarks, § 7:17.50
(explaining that a TLD like .com “has no source indicating significance and cannot serve any trademark purpose”). Merely appending .com to an SLD does not
render the resulting domain name non-generic because
the inquiry is whether the public primarily understands
The district court concluded that a TLD like .com generally has
source-identifying significance when added to an SLD like booking,
and that a mark composed of a generic SLD like booking together
with a TLD is usually a descriptive mark eligible for protection upon
a showing of secondary meaning. We decline to adopt a rule that
goes so far. Such a rule would effectively make any domain name
distinctive, which oversteps the focus of our trademark jurisprudence on a mark’s primary significance to the public. However, because we find other evidentiary bases to affirm the district court, as
discussed supra, our rejection of this approach does not alter the
outcome of our inquiry.
9

21a
the term as a whole to refer to the source or the proffered service.10
For the same reason, neither is it the case, as the
USPTO would have it, that assuming booking and .com
are each generic terms according to their respective dictionary definitions, and that together they describe the
service provided, this necessarily ends the genericness
inquiry. Within this inquiry, dictionary definitions,
though “relevant and sometimes persuasive” to the genericness inquiry based on the assumption that such
definitions generally reflect the public’s perception of a
word’s meaning, are not necessarily dispositive or controlling. Retail Servs., Inc., 364 F.3d at 544-45. Instead, where, as here, the court found that the term was
not previously commonly used, it may consider additional evidence like consumer surveys in making its
genericness determination. 11 This is particularly true
where the mark involves a domain name. Unlike general terms such as “crab house,” see Hunt Masters,
240 F.3d at 254-55, looking to the component parts of a
Because we do not adopt the district court’s approach to the addition of TLDs to SLDs, we need not address the USPTO’s contention
that the district court impermissibly relied on BOOKING.COM’s
functional role as a web address to establish non-genericness, where
functional features are precluded from trademark protection.
11
As we have discussed, once a term has been deemed generic, consumer recognition will not save it from being generic. See Retail
Servs., Inc., 364 F.3d at 547. Here, BOOKING.COM was not already deemed generic because it had not been so determined by a
prior court, and the district court expressly found that it was not
commonly used. Accordingly, the USPTO’s reliance on cases where
terms like “You Have Mail” and “Freebies” were found to be commonly used to argue that consumer recognition cannot render
BOOKING.COM non-generic, is misplaced. See America Online,
243 F.3d at 822 and Retail Services, Inc., 364 F.3d at 547.
10

22a
domain name may not unambiguously represent the primary significance of the term as a whole given that the
relevant public may recognize domain names to indicate
specific locations on the internet. See In re Hotels.com,
573 F.3d at 1305 (acknowledging that “consumers may
automatically equate a domain name with a brand name”)
(citation omitted). Thus, even where the domain-nameas-mark technically describes the service provided, it
does not necessarily follow that the public commonly understands the mark to refer to the service broadly
speaking.
We therefore decline to adopt a per se rule and conclude that when “.com” is combined with an SLD, even
a generic SLD, the resulting composite may be nongeneric where evidence demonstrates that the mark’s
primary significance to the public as a whole is the
source, not the product.
This approach comports with that taken by our sister
circuits, who have similarly declined to adopt a per se
rule against protecting domain names, even where they
are formed by combining generic terms with TLDs.
See, e.g., Advertise.com Inc., 616 F.3d at 978-79; In re
Steelbuilding.com, 415 F.3d 1293, 1299 (Fed. Cir. 2005).
These courts have left open the possibility that in “rare
circumstances” a TLD may render a term sufficiently
distinctive to be protected as a trademark. See In re
Steelbuilding.com, 415 F.3d at 1299.
Tellingly, even where courts have found that the individual components of a domain name mark are independently generic, and that when added together the resulting composite merely describes the genus of the service provided, courts still considered other evidence
such as consumer surveys in determining whether the

23a
mark was generic. For instance, in determining whether
ADVERTISING.COM was generic, the Ninth Circuit
explained that even though both “advertising” and
“.com” were generic, and that ADVERTISING.COM
conveyed only the genus of the services offered, it was
possible “that consumer surveys or other evidence might
ultimately demonstrate that [the] mark is valid and protectable.” Advertise.com, Inc., 616 F.3d at 982 (emphasis added); see In re Hotels.com, 573 F.3d at 1304-05
(considering a consumer survey regarding the public’s
understanding of HOTELS.COM even though it determined that “hotels” and “.com” were independently generic and that the combination did not produce new
meaning). While these courts have generally found the
resulting composite of adding “.com” to certain SLDs to
be generic,12 they have nonetheless acknowledged that
on rare occasions such marks may be non-generic.
Here, the district court did not err in determining that
this case presents one such rare occasion where the record evidence supported a finding that the USPTO failed
to meet its burden of proving that the public primarily
understood BOOKING.COM to refer to the genus of

See, e.g., In re Hotels.com, 573 F.3d at 1304 (HOTELS.COM); In
re 1800Mattress.com IP, LLC, 586 F.3d at 1364 (MATTRESS.COM);
In re Reed Elsevier Props., Inc., 482 F.3d at 1378 (LAWYERS.COM).
We note, however, that on appeal from the TTAB, the Federal Circuit applies a more deferential standard of review—reviewing factual findings for substantial evidence—than that applied by the district court, which reviews the TTAB’s decision de novo. See Shammas v. Focarino, 784 F.3d 219, 225 (4th Cir. 2015). Given this deferential standard of review, the Federal Circuit may affirm a genericness holding where the district court, reviewing the extant evidence and any new evidence de novo, may have reached a different
conclusion.
12

24a
online hotel reservation services, rather than the company or brand itself.
We are not unsympathetic to the USPTO’s concerns
that granting trademark protection over BOOKING.COM
may prevent other companies from using the mark.
See OBX-Stock, Inc., 558 F.3d at 339-40 (noting trademark law’s twin concerns). However, these concerns
are assuaged by two considerations. First, because
trademarks only protect the relevant service—here, the
district court granted protection as to hotel reservation
services but not travel agency services—protection over
BOOKING.COM would not necessarily preclude another company from using, for example, carbooking.com
or flightbooking.com. 13 Second, the purported overbreadth of the mark can be addressed in proceedings regarding the scope of the trademark’s protection. To
enforce a mark, a plaintiff must prove in a trademark
infringement suit that there is a “likelihood of confusion”
—that is, whether “the defendant’s actual practice is
likely to produce confusion in the minds of consumers
about the origin of the goods or services in question.”
George & Co., 575 F.3d at 393 (citation omitted); Pizzeria Uno, 747 F.2d at 1527. Infringement plaintiffs often
must show “actual confusion.” George & Co., 575 F.3d
at 393. Given that domain names are unique by nature
and that the public may understand a domain name as

As the district court noted, WORKOUT.COM, ENTERTAINMENT.
COM, and WEATHER.COM are registered marks that have
not precluded domain names such as MIRACLEWORKOUT.
COM,
WWW.GOLIVE-ENTERTAINMENT.COM,
and
CAMPERSWEATHER.COM. Booking.com B.V., 278 F. Supp. 3d
at 911 & n.6 (taking judicial notice of such marks in the public
record).
13

25a
indicating a single site, it may be more difficult for domain name plaintiffs to demonstrate a likelihood of confusion.
In sum, adding “.com” to an SLD can result in a nongeneric, descriptive mark upon a showing of primary
significance to the relevant public. This is one such
case. Based on the record before it, the district court
properly found that the USPTO did not meet its burden
of proving that “booking.com” is generic. We therefore affirm the court’s finding that BOOKING.COM is
descriptive. Because the USPTO does not challenge
the district court’s finding that BOOKING.COM has acquired secondary meaning where the mark is deemed
descriptive, we affirm the district court’s partial grant
of summary judgment finding that BOOKING.COM is
protectable as a trademark.
IV.
We turn now to Booking.com’s contention that it
should not be required to pay the USPTO’s attorneys
fees under 15 U.S.C. § 1071(b)(3). Under the Lanham
Act, a dissatisfied trademark applicant may seek review
of an adverse ruling on his trademark application either
by appealing the USPTO’s ruling to the Federal Circuit,
15 U.S.C. § 1071(a)(1), or by commencing a de novo action in a federal district court, id. § 1071(b)(1). If the
applicant chooses to appeal to the Federal Circuit, the
appeal is taken “on the record” before the USPTO, id.
§ 1071(a)(4), and the court defers to the USPTO’s factual
findings unless they are unsupported by substantial evidence. Shammas v. Focarino, 784 F.3d 219, 225 (4th Cir.
2015). In contrast, if he chooses to appeal in a district
court, the parties may conduct discovery and submit evidence beyond the record before the USPTO, which the

26a
district court reviews de novo as the trier of fact. Id.
Crucially, if the applicant decides to challenge the
USPTO’s ruling in the district court, the applicant must
pay “all the expenses of the proceeding . . . whether
the final decision is in favor of such party or not.”
15 U.S.C. § 1071(b)(3) (emphasis added).
Pursuant to this statute, the district court granted
the USPTO’s motion requiring Booking.com to pay
$76,873.61 of its expenses, $51,472.53 of which constituted the prorated salaries of its attorneys and paralegals who worked on the matter. In reaching this decision, the district court relied on our precedent in Shammas, which held that “all the expenses of the proceeding” under § 1071(b)(3) includes attorneys fees. Id.
at 224.
In so holding in Shammas, we first concluded that
the “American Rule”—the bedrock principle that each
litigant pays his own attorneys fees unless Congress has
specifically and explicitly provided otherwise—was inapplicable to the provision because the rule applies “only
where the award of attorneys fees turns on whether a
party seeking fees has prevailed to at least some degree.” 784 F.3d at 223. Accordingly, we interpreted
the phrase “all the expenses of the proceeding” for “its
ordinary meaning without regard to the American
Rule,” and concluded that it included attorneys fees.
Id. at 224.
Whether the American Rule applies to § 1071(b)(3),
however, has since been called into question. Relying
on our decision in Shammas, the Federal Circuit previously held that a nearly identical provision of the Patent
Act, 35 U.S.C. § 145, included attorneys fees. Nantkwest,
Inc. v. Matal, 860 F.3d 1352, 1355 (Fed. Cir. 2017).

27a
Subsequently, however, the Federal Circuit reversed its
decision en banc, squarely rejecting our reasoning in
Shammas; it now holds that attorneys fees are not covered under that provision. Nantwest, Inc. v. Iancu,
898 F.3d 1177, 1185 (Fed. Cir. 2018) (en banc). Moreover, the year after we decided Shammas, the Supreme
Court applied the American Rule to a bankruptcy statute that did not mention a prevailing party. See Baker
Botts L.L.P. v. ASARCO LLC, 135 S. Ct. 2158, 2165
(2015).
These subsequent developments suggest that the
American Rule’s requirement that Congress “clearly
and directly” express an intent to deviate from that rule
may apply to § 1071(b)(3)—a statute that, if read to include attorneys fees, anomalously requires an appealing
party to pay the prorated salaries of government attorneys.
Nonetheless, Shammas remains the law in this circuit, and as long as we continue to be bound by that precedent we must affirm the district court’s grant of attorneys fees.
V.
For the foregoing reasons, we affirm the district
court’s partial grant of summary judgment to Booking.
com as to the protectability of its trademark applications, and we affirm the district court’s grant of the
USPTO’s motion for expenses.
AFFIRMED

28a
WYNN, Circuit Judge, concurring in part and dissenting
in part:
This case addresses a problem that Booking.com
chose to bring upon itself. Because trademark law
does not protect generic terms, an online business, like
Booking.com, has two options in choosing its domain
name. On the one hand, it can choose to operate under
a generic domain1 that describes the nature of the services it offers, and thereby attract the wealth of customers who simply search the web for that service. However, in electing that benefit, the entity accepts a tradeoff. It must forego the ability to exclude competitors
from using close variants of its domain name. On the
other hand, the entity can choose to operate under a
non-generic domain name—and thereby potentially limit,
at least before it has built consumer awareness of its
branding, the universe of potential customers who will
find its business. Trademark law affords an entity that
selects this latter option a special benefit. It can bar
competitors from trading on any goodwill and recognition it generates in its domain name.
Booking.com chose the former approach—to operate
under a generic domain name and forego the ability to

A domain name, the string of text used to look up the internet
protocol address for a particular internet site, is made up of a Top
Level Domain and a Secondary Level Domain. The Top Level Domain is the final portion of the web address—such as “.com,” “.gov,”
or “.edu”—that signifies the category of website: i.e. commercial,
government, or educational. The Secondary Level Domain is the
preceding part of the web address. Well-known Secondary Level
Domains include “facebook,” “amazon” and “google.” Thus, in the
domain name http://www.booking.com, “.com” is the Top Level Domain, whereas “booking” is the Secondary Level Domain.
1

29a
exclude competitors from using close variants of its domain name. But in the face of recognizing that “booking” is a generic term, the district court creatively decided that combining the generic term “booking” with
the generic top-level domain “.com” rendered it nongeneric. In doing so, the district court’s judgment—
which the majority opinion concedes was grounded in legal error, but nonetheless declines to set aside—allows
Booking.com to have its cake and eat it too. Booking.
com gets to operate under a domain that merely describes the nature of its business and exclude its competitors from doing the same.
Booking.com maintains that such a result is warranted to prevent “unscrupulous competitors [from]
prey[ing] on its millions of loyal consumers,” Appellee’s
Br. at 38. But to the extent Booking.com fears that its
competitors are using the terms “booking” and “.com”
in ways that might confuse its customers, “this is the
peril of attempting to build a brand around a generic
term.”
Advertise.com, Inc. v. AOL Advert., Inc.,
616 F.3d 974, 980 n.6 (9th Cir. 2010). Accordingly, although I agree with much of the analysis in the majority
opinion, 2 I part ways with my colleagues’ decision to
I agree with much of the analysis in the majority opinion. The
majority opinion is correct that in determining whether a proposed
trademark is a generic term not subject to protection, courts must
“look to the proposed mark as a whole.” Ante at 12, 20 (emphasis
retained). Accordingly, I join my colleagues and our sister circuits
in declining “to adopt a per se rule against protecting domain names,
even where they are formed by combining generic terms with [Top
Level Domains].” Ante at 23. Also like my colleagues, I believe
that on only “rare occasion[s]” should the combination of a generic
Secondary Level Domain and a Top Level Domain result in a protectable trademark. Ante at 24 (emphasis added). And like my
2

30a
nevertheless affirm the district court’s judgment that
BOOKING.COM is a protectable trademark.
That decision rests upon my colleagues’ determination that the district court’s factual findings pertaining
to genericness should be “accorded great deference,”
Ante at 13, regarding whether a proposed mark is
generic—i.e., whether a proposed mark is nothing more
than the “common name of a product or service itself,”
Sara Lee Corp. v. Kayser-Roth Corp., 81 F.3d 455, 464
(4th Cir. 1996)—which is a question of fact generally
subject to clear error review, see Swatch AG v. Beehive
Wholesale, LLC, 793 F.3d 150, 155 (4th Cir. 2015). But
“we owe no deference to the district court’s findings if
they are derived as a result of the court’s misapplication
of the law.” Sara Lee, 81 F.3d at 464 (citation omitted);
Pizzeria Uno Corp. v. Temple, 747 F.2d 1522, 1526
(4th Cir. 1984) (“[T]he clearly erroneous rule [will not]
protect findings which have been made on the basis of
the application of incorrect legal standards or made in
disregard of applicable legal standards, such as burden
of proof ” (citations omitted)). When a finding derives

colleagues, I conclude the district court committed legal error in
holding that “a [Top Level Domain] like .com generally has sourceidentifying significance when added to a[] [Secondary Level Domain] like booking, and that a mark composed of a generic [Secondary Level Domain] like booking together with a [Top Level Domain]
is usually a descriptive mark eligible for protection upon a showing
of secondary meaning.” Ante at 21 n.9. I also join my colleagues
in the portion of the majority opinion affirming the district court’s
granting of attorneys’ fees to the U.S. Patent & Trademark Office
(“PTO”). Ante at 27. In particular, I agree that Shammas v. Focarino, 784 F.3d 219 (4th Cir. 2015), remains the controlling precedent in this circuit.

31a
from a district court’s “application of an improper standard to the facts, it may be corrected as a matter of law.”
United States v. Singer Mfg. Co., 374 U.S. 174, 194 n.9
(1963). In such cases, the clearly erroneous standard
is no longer applicable. See United States v. RodriguezMorales, 929 F.2d 780, 783 (1st Cir. 1991) (“Of course, if
the lower court applies the wrong legal standard, no deference attaches, and we must proceed to correct the
error.”).
Here, the district court rendered the legal “conclu[sion]” that “when combined with a[] [Secondary Level
Domain], a [Top Level Domain] generally has source
identifying significance and the combination of a generic
[Secondary Level Domain] and a [Top Level Domain] is
generally a descriptive mark that is protectable upon a
showing of acquired distinctiveness.”
Booking.com
B.V. v. Matal, 278 F. Supp. 3d 891, 909 (E.D. Va. 2017).
Put differently, the district court concluded that, as a
matter of law, “the combination of a generic [Secondary
Level Domain] and a [Top Level Domain]” is presumptively descriptive and protectable upon a showing of acquired distinctiveness. Id.
Notably, in adopting this presumption, the district
court expressly rejected the approach taken by the Federal Circuit in cases, like the instant case, involving a
proposed trademark that combines a generic Secondary
Level Domain with a Top Level Domain. See id. at 90810. The majority opinion rejects that legal presumption but nevertheless defers to the district court’s factual finding that BOOKING.COM is descriptive, and
therefore protectable, on the theory that that finding
was not tainted by the district court’s legal error. See
Ante at 21 n.9. But a close examination of the district

32a
court’s opinion reveals that the district court’s legal error did play a role in the court’s ultimate determination
that BOOKING.COM is descriptive.
In particular, because the district court presumed
that “the combination of a generic [Secondary Level Domain] and a [Top Level Domain]” is descriptive, Booking.
com, 278 F. Supp. 3d at 909, it subjected the registrant
to a less onerous evidentiary burden for establishing descriptiveness than the law demands. This is evident for
two reasons.
First, the district court’s ultimate determination—
that the proposed mark BOOKING.COM is descriptive
—conflicts with the determination that every other court
has reached in cases, like the instant case, involving the
registration or enforcement of a proposed mark composed of a generic Secondary Level Domain and a Top
Level Domain.3 For instance, the Federal Circuit found
The district court found—and I agree—that “by itself, the word
‘booking’ is generic for the classes of hotel and travel reservation services recited in plaintiff ’s applications.” Booking.com, 278 F. Supp.
3d at 905. Likewise, courts and commentators have long stated
that a Top Level Domain is not protectable. For instance, the PTO
has long stated that Top Level Domains “generally serve no sourceidentifying function.” TMEP § 1209.03(m) (5th ed. 2007). This position has been consistently held in federal courts. See Advertise.
com, 616 F.3d at 978 (finding that a Top Level Domain merely reflects an online commercial organization). Additionally, the leading
treatise on trademark law has stated that a Top Level Domain has
no ability to distinguish one source from another. 2 J. Thomas
McCarthy, McCarthy on Trademarks and Unfair Competition,
§ 7:17.50 (5th ed. 2018) (“The ‘.com’ portion of the domain name has
no trademark significance and is essentially the generic locator for
all names in that top level domain.”). In this way, a Top Level Domain is similar to other common web address components, such as
“http://www.” and “.html.” Id. Because all websites must contain
3

33a
that the generic term “hotels” “did not lose its generic
character by placement in the domain name HOTELS.
COM.” In re Hotels.com, 573 F.3d 1300, 1304 (Fed. Cir.
2009). Instead, consumers would “immediately understand that HOTELS.COM identifies a website” that provides “information about hotels or making reservations
at hotels.” Id. The Federal Circuit also affirmed the
finding of the Trademark Trial and Appeal Board (the
“Trademark Board”) that many other websites that
used the word “hotels” in their domain names, such as
“all-hotels.com” and “web-hotels.com,” demonstrated “a
competitive need for others to use [the term] as part of
their own domain names.” Id.
Likewise, in In re Reed Elsevier Properties, the Federal Circuit found it to be “abundantly clear” that the
proposed mark in question, “LAWYERS.COM,” was generic because “the relevant public would readily understand the term to identify a commercial web site providing access to and information about lawyers.” 482 F.3d
1376, 1379-80 (Fed. Cir. 2007) (internal quotation marks
omitted).
Similarly, in In re 1800Mattress.com IP, LLC, the
Federal Circuit affirmed the Trademark Board’s decision that the proposed mark MATTRESS.COM was generic because customers would naturally recognize the
some form of Top Level Domain, such as “.com” or “.gov.,” there is
no unique source-identifying information. Similarly, in trademark
infringement analyses, Top Level Domains have long been considered irrelevant to the strength of one’s mark, as they only demonstrate, inter alia, a website’s commercial, governmental, or organizational nature. See Brookfield Commc’ns, Inc. v. W. Coast Entm’t
Corp., 174 F.3d 1036, 1055 (9th Cir. 1999) (refusing to consider the
“.com” portion of the web address when comparing marks in a case
of potential infringement).

34a
mark as referring to a commercial website providing retail services featuring mattresses. 586 F.3d 1359, 1364
(Fed. Cir. 2009). Notably, the Federal Circuit rejected
the applicant’s argument—which Booking.com also advances in this case and on which the district court relied,
see Booking.com, 278 F. Supp. 3d at 914—that the term
could not be generic because consumers did not refer to
the stores as “mattresses.com[s],” id. (quoting In re
1800Mattress.com IP, LLC, 586 F.3d at 1362). Instead,
the court agreed with the Trademark Board that the relevant public would understand MATTRESS.COM to be
“no more than the sum of its constituent parts”—an
online provider of mattresses. Id. at 1363.
Like the Federal Circuit, the Ninth Circuit has found
that a generic Secondary Level Domain combined with
a Top Level Domain does not generally amount to a protectable mark. In Advertise.com, the court considered
whether AOL’s claimed mark ADVERTISING.COM
was protectable. 616 F.3d at 977. The district court
below enjoined Advertise.com, a putative competitor of
AOL’s Advertising.com, from using its trade name or
any other name confusingly similar to ADVERTISING.
COM, concluding that AOL would likely succeed on its
claim that the standard text mark ADVERTISING.
COM was descriptive. Id. The Ninth Circuit held
that the district court abused its discretion in entering
the injunction because—like in the instant case—the
district court applied an incorrect legal standard in
determining whether a mark composed of a generic
Secondary Level Domain and Top Level Domain is enforceable. Id. at 982. Engaging in its own analysis
under the appropriate legal standard, the court held
that AOL was unlikely to succeed on the merits because

35a
“ADVERTISING.COM still conveys only the generic
nature of the services offered.” Id. at 981-82.
Lower courts have followed Hotels.com, Reed-Elsevier
Properties, 1800Mattress.com, and Advertising.com and
refused to award trademark significance to proposed
marks, like BOOKING.COM, combining a generic Secondary Level Domain with a Top Level Domain. See,
e.g., Borescopes R U.S. v. 1800Endoscope.com, LLC,
728 F. Supp. 2d 938, 952 (M.D. Tenn. 2010) (finding
that the use of the term “borescopes” in companies’ domain names “generically describes the class of product
each sells”); Image Online Design, Inc. v. Core Ass’n,
120 F. Supp. 2d 870, 878 (C.D. Cal. 2000) (noting that “a
[Top Level Domain] and other non-distinctive modifiers
of a URL like ‘http://www’ have no trademark significance”); In Re Eddie Zs Blinds & Drapery, Inc.,
74 U.S.P.Q.2d 1037 at *6 (T.T.A.B. 2005) (determining
that BLINDSANDDRAPERY.COM was not one of the
“exceptional circumstances” that should forestall a finding of genericness); In Re Martin Container, Inc.,
65 U.S.P.Q.2d 1058 at *5 (T.T.A.B. 2002), appeal dismissed, 56 Fed. App’x. 491 (Fed. Cir. 2003) (finding
CONTAINER.COM generic because the combination of
“container” and a Top Level Domain “does not result in
a compound term that has somehow acquired” the ability to function as an indication of source).
A second indication that the district court’s incorrect
legal framework tainted its ultimate determination that
BOOKING.COM is protectable is that BOOKING.COM
is not like the types of marks courts have recognized as
among the “rare” occasions when adding a generic Secondary Level Domain to a Top Level Domain does not
create a generic mark. Because Top Level Domains

36a
generally convey only that a business is web-based, it is
“only in rare circumstances” that the combination of a
generic Secondary Level Domain, on its own incapable
of source identification, and “.com” will produce a composite mark that “expand[s] the meaning of the mark.”
See, e.g., Advertise.com, 616 F.3d at 979 (quoting In re
Steelbuilding.com, 415 F.3d 1293, 1299 (Fed. Cir. 2005)).
As an example of the “rare circumstance” in which a
Top Level Domain could provide additional non-functional
information, the Federal Circuit considered the possibility
of a brick-and-mortar company that sold tennis equipment
and operated under the name “tennis.net.” In re Oppedahl & Larson, LLP, 373 F.3d 1171, 1175 (Fed. Cir.
2004). The court noted the “witty double entendre related to tennis nets” created by the combination of “tennis” and “.net” rendered such a usage distinguishable from
a standard proposed mark combining a generic Secondary
Level Domain with a Top Level Domain. Id.
Following Oppedahl’s reasoning, if we were presented with a situation in which the “.com” was used in
a way that played upon or expanded the meaning of its
ordinary use as a Top Level Domain, registration might
be appropriate. For instance, a website cataloguing
and discussing romantic comedy movies of the 1980s,
1990s, and 2000s called “rom.com” might expand upon
the ordinary meaning of the Top Level Domain, as it
would both describe the commercial nature of the website, as well as convey the subject matter of the website. 4

“Rom com” is a common abbreviation for the “romantic comedy”
genre of movies, whose plots revolve around the humorous developments and lighthearted tensions that occur in a romantic couple’s
bourgeoning relationship, while typically culminating in a happy
4

37a
The tennis.net and rom.com examples are readily
distinguishable from the instant case. The district court
did not find—nor has Booking.com ever argued—that
the combination of “booking”—a generic term—and
“.com” amounts to a “witty double entendre” that expands the ordinary meanings of the proposed mark’s
component parts. Rather, BOOKING.COM is a runof-the-mill combination of a generic term with a Top
Level Domain that creates a composite mark concerning
the subject or business encompassed by the generic
term—precisely the type of mark that the courts in
Hotels.com, Reed Elsevier Properties, 1800Mattress.
com, and Advertise.com found did not amount to the
“rare circumstance” that warranted affording the domain name trademark protection.
BOOKING.COM’s mark differs substantially from
the types of proposed marks fitting into the “rare circumstances” in which a generic Secondary Level Domain and a Top Level Domain are protectable. This
provides further evidence that the district court’s incorrect legal test tainted its ultimate factual determination.
Because the district court erroneously believed that
marks combining a generic Secondary Level Domain
and Top Level Domain are presumptively protectable, it
never examined—as it should have—whether BOOKING.
COM amounted to one of the “rare circumstances” when
such marks are protectable.
ending. See https://www.merriam-webster.com/dictionary/rom-com.
Although rom.com differs from tennis.net in that the Secondary
Level Domain arguably is not a generic term, as “rom” is a shorthand reference for romantic, the domain name rom (dot) com is, as
a composite term, both a generic descriptor and a “witty” play on
that descriptor.

38a
The district court’s incorrect legal test—the application of which my colleagues leave in place—upsets the
careful balance the law has struck between assisting
consumers to identify the source of goods and preserving the linguistic commons. Presumptively allowing protection of domain names composed of a generic Secondary Level Domain and Top Level Domain conflicts with
the law’s longstanding refusal to permit registration of
generic terms as trademarks.
Fundamentally, the proscription against allowing
generic terms to be trademarked stems from considerations regarding the monopolization of language. To
permit generic terms to be trademarked “would grant
the owner of the mark a monopoly, since a competitor
could not describe his goods as what they are.” CES
Publ’g Corp. v. St. Regis Publ’ns, Inc., 531 F.2d 11, 13
(2d Cir. 1975). This Court has long sought to foreclose
such a result, holding that no single competitor has the
right to “corner the market” on ordinary words and
phrases, thereby enclosing the “public linguistic commons.” Am. Online, Inc. v. AT&T Corp., 243 F.3d 812,
821 (4th Cir. 2001); see, e.g., Ashley Furniture Indus. v.
Sangiacomo N.A., 187 F.3d 363, 369 (4th Cir. 1999) (noting that the trade name “Pet Store” for a shop that sold
pets would be generic).
Importantly, the law forbids trademarking generic
terms, even when a putative mark holder engages in successful efforts to establish consumer recognition of an
otherwise generic term. “[N]o matter how much money
and effort the user of a generic term has poured into
promoting the sale of its merchandise and what success
it has achieved in securing public identification, it
cannot deprive competing manufacturers of the product

39a
of the right to call an article by its name.” Abercrombie
& Fitch Co. v. Hunting World, Inc., 537 F.2d 4, 9 (2d
Cir. 1976) (emphasis added). Therefore, even advertising, repeated use, and consumer association will not
warrant affording trademark protection to a generic
term. See Am. Online, 243 F.3d at 821 (“[T]he repeated use of ordinary words . . . cannot give [a single company] a proprietary right over those words, even
if an association develops between the words and [that
company].”); see also Surgicenters of Am., Inc. v. Med.
Dental Surgeries, Co., 601 F.2d 1011, 1017 (9th Cir.
1979) (finding that even if a generic term becomes identified with a first user, trademark protection will not be
available in the generic term).
The policy considerations underlying trademark law’s
refusal to protect generic terms apply regardless of
whether the putative mark holder is a traditional brickand-mortar business or located in cyberspace. As the
PTO argues, a grocery business called The Grocery Store
would—and should—never receive trademark protection
because the name is generic—regardless of whether consumers associated the name with a particular entity.
However, under the district court’s erroneous approach
—the consequences of which the majority leaves in place
—if enough consumers recognized an online grocery business called “grocerystore.com,” that business would be
entitled to trademark protection. There is no basis in
law or policy for drawing such a distinction. Just as
competing brick-and-mortar grocery stores need to make
use of the term “grocery” to inform customers of the nature of their businesses, so too do competing internet
grocery providers need to make use of the term “grocery” in their domain names.

40a
The district court’s treatment of marks combining
generic Secondary Level Domains and Top Level Domains as presumptively protectable also conflicts with
precedent foreclosing protection of marks that combine
a generic term with a generic commercial designation
(e.g., “Company,” “Corp.,” or “Inc.”). More than a hundred years ago, the Supreme Court held that the addition of commercial designations like these does not transform otherwise generic terms into protectable marks.
See Goodyear’s India Rubber Glove Mfg. Co. v. Goodyear
Rubber Co., 128 U.S. 598, 602-03 (1888).
Under Goodyear’s, a brick-and-mortar reservation
service operating under the term The Booking Company
would not be able to receive a trademark in that name,
regardless of the degree of brand recognition it generated or the number of consumers who identified it as a
brand. See Am. Online, 243 F.3d at 821; Abercrombie,
537 F.2d at 9. Yet, under the district court’s approach,
the term BOOKING.COM is presumptively protectable.
Compare Advertise.com, 616 F.3d at 982 (“That ‘.com,’
when added to a generic term, ‘indicates a commercial
entity’ does not suffice to establish that the composite is
distinctive, much as AOL would not have created a protectable mark by adopting the designation ‘Advertising
Company.’ ”).
The district court concluded that “Goodyear’s reasoning regarding corporate designators does not apply
with equal force to domain names” because “adding a
[Top Level Domain] such as ‘.com’ to a generic [Secondary Level Domain] does more than indicate that a company offers services via the internet; it indicates a
unique domain name that can only be owned by one entity.” Booking.com, 278 F. Supp. 3d at 910. But as

41a
the Federal Circuit has explained, “[a]lthough not a perfect analogy, the comparison of [Top Level Domains]
(i.e., ‘.com,’ ‘.org,’ etc.) to entity designations such as
‘Corp.’ and ‘Inc.’ has merit.” Oppedahl, 373 F.3d at
1175. “The commercial impression created by ‘.com’ is
similar to the impression created by ‘Corp.’ and ‘Co.’,
that is, the association of a commercial entity with the
mark.” Id.
Additionally, the difference between an entity designation such as “Corp.” and a Top Level Domain recognized by the district court is attributable to the functional nature of the internet. Although most Top Level
Domains do suggest a relationship with the internet, a
domain name “serves the purely technological function
of locating a Web site in cyberspace.” McCarthy on
Trademarks, § 7:17.50. Functional features, however,
cannot be the basis for trademark protection: “[E]ven
if a functional feature has achieved consumer recognition (secondary meaning) of that feature as an indication
of origin, the feature cannot serve as a legally protectable symbol.” Am. Online, Inc., 243 F.3d at 822-23.
Yet that is precisely what the district court’s legal test—
the application of which my colleagues in the majority
leave in place—does.
It is particularly important that we ensure that the
district court’s ultimate finding that BOOKING.COM is
descriptive, and therefore protectable, was not tainted
by its erroneous legal test because, as the PTO argues,
trademark registration will provide Booking.com with a
weapon to freeze out potential competitors. As explained above, trademark law’s proscription on the registration of generic terms prevents firms from monopolizing

42a
language and allows competitors to “describe [their] goods
as what they are.” CES Publ’g, 531 F.2d at 13.
I believe that this Court’s affirmance of the district
court’s judgment—even as it rejects the district court’s
legal analysis—unjustifiably empowers Booking.com to
monopolize language, thereby enclosing the linguistic
commons and adversely affecting competitors in precisely the manner that trademark law seeks to forestall.
Put simply, the majority opinion’s judgment will directly
disadvantage Booking.com’s competitors by taking away
their ability to use the term “booking” in their own website domain names. Indeed, any competitors that attempt to use the term “booking” will face the risk of a
costly, protracted, and uncertain infringement lawsuit.
Booking.com and the majority opinion assert that the
potential harm to competitors—and therefore consumers
—is minimal because: (1) the doctrine of descriptive
fair use will prevent Booking.com from monopolizing the
term; (2) the protection of BOOKING.COM extends
only to hotel reservations, not to other reservation services; and (3) domain names are unique. I find none of
these assertions persuasive.
Descriptive fair use is an affirmative defense that allows a competitor to use words contained in a trademark
in their ordinary sense to describe the competitor’s own
goods or services to consumers. See KP Permanent
Make-Up, Inc. v. Lasting Impression I, Inc., 543 U.S.
111, 121-22 (2004). According to Booking.com, affording BOOKING.COM trademark protection will not adversely affect competition by depriving putative competitors from describing the nature of their business because such protection “will have no effect on competitors’ right to make descriptive fair use of the word

43a
‘Booking.com.’ ” Appellee’s Br. at 38. The district court
agreed, noting that even if Booking.com were to successfully assert a prima facie case of trademark infringement by showing a likelihood of confusion between
BOOKING.COM and a competitor’s domain, the competitor could make use of the descriptive fair use doctrine to avoid liability.
For several reasons, I fear that the doctrine of descriptive fair use will provide Booking.com’s competitors cold comfort. I am not convinced that the descriptive fair use defense will provide significant protection
to competitors using the term “booking” in their own domain names. As the Ninth Circuit has explained, “granting trademark rights over a domain name composed of a
generic term and a [Top Level Domain] grants the trademark holder rights over far more intellectual property
than the domain name itself.” Advertise.com, 616 F.3d
at 980. Such trademark protection “would potentially
reach almost any use of the generic term in a domain
name.” Id. at 981 (noting that any one of the thirty-two
other domain names containing some form of the word
“advertise” would be placed at risk of a lawsuit). Thus,
notwithstanding the doctrine of descriptive fair use, a
firm that obtains a trademark in a domain name that describes the service the firm provides, like Booking.com,
may have the power “to foreclose competitors from using
a vast array of simple, easy to remember domain names
and designations that describe [such] services.” Id.
Additionally, descriptive fair use is an affirmative defense, not an immunity from suit. Any online reservation business that chooses to include “booking” in its domain name will face the risk of defending an expensive

44a
infringement lawsuit. As a result, commercial competitors seeking to avoid litigation risk and expenses—even
if they might ultimately prevail on descriptive fair use
grounds—will be chilled from using the term.
My colleagues in the majority also emphasize that
the district court awarded Booking.com protection for
the mark only for Class 43 hotel services, not Class
39 travel agency services, meaning that “protection over
BOOKING.COM would not necessarily preclude another
company from using, for example, carbooking.com or
flightbooking.com.” Ante at 24 (emphasis added). But
even assuming my colleagues’ optimism that Booking.com
could not preclude competitors from using domain names
containing the word “booking” is well-founded—a decidedly uncertain question, see Advertise.com, 616 F.3d at
980-81—I see no reason why Booking.com should be entitled to monopolize the generic term “booking” in the
online hotel reservation industry by precluding competitors from using domain names like hotelbooking.com
or ehotelbooking.com, 5 which likewise describe such
competitors’ services “as what they are.” CES Publ’g,
531 F.2d at 13. Put simply, there is no reason why monopolization of language should be allowed in the internet domain name context for any class of services when
trademark law has consistently maintained that generic
terms such as “booking” should be available in the public
linguistic commons for all competitors to use.

Several hotel booking websites have domain names combining, in
various ways, “booking” with “.com,” including “bookingcenter.com,”
“ebookers.com,” “bookingwhiz.com,” “hotelbooking.com,” “bookit.com,”
and “bookingbuddy.com.” J.A. 337-39.
5

45a
Finally, my colleagues in the majority seek to assuage concerns that granting trademark protection over
BOOKING.COM will prevent other companies from using variants of the mark by emphasizing that, to enforce
the mark, Booking.com will have to prove that there is a
“likelihood of confusion” with the allegedly infringing
mark. Ante at 25. According to the majority, “[g]iven
that domain names are unique by nature and that the
public may understand a domain name as indicating a
single site, it may be more difficult for domain name
plaintiffs to demonstrate a likelihood of confusion.” Id.
Even accepting my colleagues’ assumption that Booking.
com will have difficulty proving likelihood of confusion—
again, an uncertain question—affording protection to
BOOKING.COM would still likely chill competition in
the online booking space. Put simply, putative competitors may—and likely will—choose not to operate under
domain names that include the word “booking”—even if
that term best describes the service they offer—because
they do not want to incur the expense and risk of defending an infringement action.
In sum, the district court’s opinion reveals that its
incorrect understanding of the governing legal framework
likely tainted its finding that BOOKING.COM is distinctive, and therefore protectable. Because the district
court’s erroneous legal test factored into its ultimate factual determination as to descriptiveness, I cannot concur
in my colleagues’ decision to affirm the district court’s
judgment. Accordingly, with great respect for my good
colleagues in the majority, I dissent.

46a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
ALEXANDRIA DIVISION

No. 1:16-cv-425 (LMB/IDD)
BOOKING.COM B.V., PLAINTIFF
v.
JOSEPH MATAL, PERFORMING THE FUNCTIONS AND
DUTIES OF THE UNDERSECRETARY OF COMMERCE FOR
INTELLECTUAL PROPERTY AND DIRECTOR OF THE
UNITED STATES PATENT AND TRADEMARK OFFICE,
AND THE UNITED STATES PATENT AND TRADEMARK
OFFICE, DEFENDANTS
[Filed: Aug. 9, 2017]
MEMORANDUM OPINION

Plaintiff Booking.com B.V. (“Booking.com” or “plaintiff ”) filed this civil action challenging the denial by the
Trademark Trial and Appeal Board (“TTAB”) of the
United States Patent and Trademark Office (“USPTO”)
of four trademark applications involving the mark
“BOOKING.COM” for services in Classes 39 and 43.
One of the applications was for the word mark and three
were for stylized versions of the mark. For each of the
applications, the TTAB found plaintiff ’s marks ineligible
for registration as trademarks because it concluded that
BOOKING.COM is generic for the services identified in

47a
the applications or, alternatively, that it is merely descriptive and lacks acquired distinctiveness.
Before the Court are plaintiff and defendants’ crossmotions for summary judgment. For the reasons that
follow, plaintiff ’s Motion for Summary Judgment [Dkt.
No. 63] will be granted in part and denied in part; defendants’ Motion for Summary Judgment [Dkt. No. 60]
will be granted in part and denied in part; and the
USPTO will be ordered to register the mark BOOKING.
COM as to the Class 43 services identified in plaintiff ’s
applications but not as to the Class 39 services.
I.

BACKGROUND

On December 1, 2011, plaintiff filed a federal trademark application, Serial No. 85485097 (“ ’097 Application”), based on use, for the mark:

A3166. The services identified in the application (as
amended) were:
Class 39: Travel agency services, namely, making
reservations for transportation; travel and tour
ticket reservation services; travel agency services,
namely making reservations for transportation for
tourists; provision of travel information; providing
consultation related to making reservations for
transportation, and travel and tour ticket reservation; all of the foregoing services rendered in-person
and via the internet.

48a
Class 43: Making hotel reservations for others in
person and via the internet; providing personalized
information about hotels and temporary accommodations for travel in-person and via the Internet;
providing on-line reviews of hotels; consultation services related to making hotel reservations for others,
provision of personalized information about hotels
and temporary accommodations for travel, and online reviews of hotels.
Moskin Decl. [Dkt. No. 65-5] ¶ 2.
On June 5, 2012, plaintiff filed Application Serial No.
7911498 (“ ’998 Application”), for recognition in the
United States of its International Registration (hereinafter referred to by the name of the authorizing treaty,
“the Madrid Protocol”) for the mark:

A4. The services identified in the application (as
amended) were:
Class 39: Arranging of tours and arranging of tours
online; reservation and sale of travel tickets and
online reservation and sale of travel tickets; information, advice and consultancy regarding the arranging of tours and the reservation and sale of
travel tickets; provision of information relating to
travel and travel destinations; travel and tour agency
services, namely, travel and tour ticket reservation
services; travel agency services; tourist agency services; providing online travel and tourism services,
namely, providing online travel and tour ticket reservation services, online travel agency services, online

49a
tourist agency services and providing online information relating to travel and travel destinations.
Class 43: Making hotel reservations for others; holiday accommodation reservation services and resort
reservation services, namely providing online hotel
and resort hotel room reservation services; providing
information about hotels, holiday accommodations
and resort accommodations, whether or not based on
the valuation of customers; providing information,
advice and consultancy relating to making hotel reservations and temporary accommodation reservations; providing online information, advice and consultancy relating to making hotel reservations and
temporary accommodation reservations.
Moskin Decl. [Dkt. No. 65-5] ¶ 3.
On November 7, 2012, plaintiff filed two federal
trademark applications, Serial No. 79122365 (“ ’365 Application”) and Serial No. 79122366 (“ ’366 Application”),
under the Madrid Protocol for the following marks:

50a
A2153, A1138. The services identified in the two applications (as amended) were limited to a subset of services
in Class 43:
Hotel reservation services for others; holiday accommodation reservation services and resort reservation
services, namely, providing hotel room reservation
services and resort hotel reservation services and
providing online hotel and resort hotel room reservation services; providing information about hotels, hotel accommodations and resort accommodations,
whether or not based on the valuation of customers;
information, advice and consultancy relating to the
aforesaid services; aforesaid services also provided
electronically.
Moskin Decl. [Dkt. No. 65-5] ¶ 4.
During review by the USPTO, all four applications
followed the same procedural history. The examiner
initially rejected each application on the ground that
BOOKING.COM is merely descriptive of plaintiff ’s services and therefore unregisterable. A1074, A2089, A3765.
After plaintiff objected that the mark BOOKING.COM
had acquired distinctiveness, the examiner issued a new
refusal, this time on the basis that the word mark is generic as applied to the relevant services and, in the alternative, that the mark is merely descriptive and that
plaintiff had failed to establish acquired distinctiveness.
A1074, A2089-90, A3766. For each application, plaintiff sought reconsideration of the new refusal and in each
instance reconsideration was denied. A1075, A2090,
A3766.
Plaintiff filed a Notice of Appeal for each application
and requested consolidated briefing before the TTAB,

51a
which was granted. A3766. The evidence submitted
to the TTAB included dictionary definitions of the words
“booking” and “.com;” print-outs of plaintiff ’s webpages;
examples from news articles and travel websites of
terms such as “online booking services” and “booking
sites,” used to refer to hotel reservation and travel
agency services; examples of eight third-party domain
names that include “booking.com;” a 2012 JD Power &
Associates press release and survey results, indicating
that Booking.com ranked highest in overall customer
satisfaction; and a declaration from plaintiff ’s director
listing awards won by plaintiff and figures regarding
plaintiff ’s sales success, advertising campaigns, followers on social media, and unsolicited news articles. See
Def. Mem. at 6; A1089-92.
Following the hearing, the TTAB affirmed the four
refusals of registration in three separate opinions. See
A1073-111 (denying the appeal for the ’998 Application),
A2088-126 (denying the appeals for the ’365 and ’366 Applications), A3764-801 (denying the appeal for the ’097
Application). Although there are minor differences
among the three opinions, all share the same central
conclusions that “booking” refers to “a reservation or
arrangement to buy a travel ticket or stay in a hotel
room” or “the act of reserving such travel or accommodation;” that “.com” indicates a commercial website,
which does not negate the generic character of the term
“booking;” and that the combined term BOOKING.
COM would be understood by consumers “primarily to
refer to an online reservation service for travel, tours,
and lodging,” which is consistent with the services proposed in the applications, making the mark generic for
the services offered. See, e.g., A1092, A1096, A1107.
In the alternative, the TTAB concluded that BOOKING.

52a
COM is descriptive of plaintiff ’s services and that plaintiff “failed to demonstrate that the term has acquired
distinctiveness.” See, e.g., A1111.
On April 15, 2016, plaintiff filed this civil action under
15 U.S.C. § 1071(b) against Michelle Lee, who was then
the USPTO Director (“the USPTO Director”), 1 and the
USPTO (collectively “defendants”), challenging the
USPTO’s denial of registration of the four applications.
The parties have filed the administrative record from
the USPTO proceedings and both sides have produced
new evidence on the questions of genericness and descriptiveness. Although the body of evidence before
this Court is similar to what was before the TTAB, of
significance, plaintiff has now submitted a “Teflon survey,” which, as will be discussed below, is the most
widely used survey format for measuring consumer
opinion in a genericness challenge, and defendants have
provided a report by a rebuttal expert. By way of relief, plaintiff asks the Court to reverse the decisions of
the TTAB and order the USPTO Director to publish
each application in the Principal Register. Compl.,
[Dkt. No. 1] at 17.
II.

DISCUSSION

A. Standards of Review
A trademark applicant “dissatisfied with the decision” of the USPTO has two remedies under the Lanham
Act: either “appeal to the United States Court of Appeals for the Federal Circuit,” see 15 U.S.C. § 1071(a),
or file a civil action against the USPTO Director in
federal district court, see 15 U.S.C. § 1071(b). Under
The USPTO Director position has since been vacated and is currently being filled in an acting capacity by Joseph Matal.
1

53a
§ 1071(a), an appeal to the Federal Circuit is taken “on
the record” before the USPTO, id. § 1071(a)(4), and the
USPTO’s factual findings will be upheld if they are supported by “substantial evidence,” see, e.g., Recot, Inc. v.
Becton, 214 F.3d 1322, 1327 (Fed. Cir. 2000). In contrast, in a civil action under § 1071(b), “the district court
reviews the record de novo and acts as the finder of
fact.” Swatch AG v. Beehive Wholesale, LLC, 739 F.3d
150, 155 (4th Cir. 2014) (citing Durox Co. v. Duron Paint
Mfg. Co., 320 F.2d 882, 883-84 (4th Cir. 1963)).2 Placement of a mark on the generic-descriptive-suggestiveDefendants try to distinguish Swatch AG, arguing that it does
not apply to cases where “a party submits new evidence on only some
discrete questions of fact but not others.” Def. Opp. at 4-5. This
reading of the case law is indefensible. Swatch AG explicitly held,
“where new evidence is submitted, de novo review of the entire record is required because the district court ‘cannot meaningfully defer
to the [USPTO’s] factual findings if the [USPTO] considered a different set of facts.’ ” 739 F.3d at 155 (citing Kappos v. Hyatt,
132 S. Ct. 1690, 1700 (2012)) (alterations added). Indeed, the “dual
capacity” standard of review endorsed by defendants—where the
district court acts as appellate reviewer of facts found by the USPTO
and fact-finder on issues for which there is new evidence—was held
to be “erroneous” by the Fourth Circuit. Id. at 156. Were there
any room for ambiguity about the applicability of de novo review, it
was dispelled by the Fourth Circuit’s subsequent decision in Shammas v. Focarino, 784 F.3d 219 (4th Cir. 2015), which explained that
§ 1071(b) authorizes “[d]e novo civil actions” in which “[t]he district
court reviews all the evidence de novo and acts as the trier of fact.”
Id. at 225 (emphasis added) (citing Swatch, 739 F.3d at 155), cert.
denied sub nom. Shammas v. Hirshfeld, 136 S. Ct. 1376 (2016).
Moreover, even if defendants were correct that substantial evidence
review applies when no new evidence has been submitted on a particular question of fact, Def. Opp. at 4 (citing Dome Pat., LP v. Rea,
59 F. Supp. 3d 52, 78-79 (D.D.C. 2014)), there is no basis to apply
that standard here; rather, both parties acknowledge that genericness and descriptiveness determinations are questions of fact, Pl.
2

54a
fanciful continuum is a question of fact. In re Dial-AMattress Operating Corp., 240 F.3d 1341, 1344 (Fed. Cir.
2001).
Upon the motion of a party, the district court must
admit the USPTO record and give it the “same effect as
if originally taken and produced in the suit.” § 1071(b)(3).
“[T]he district court may, in its discretion, ‘consider the
proceedings before and findings of the [USPTO] in deciding what weight to afford an applicant’s newly-admitted
evidence.’ ” Kappos v. Hyatt, 132 S. Ct. 1690, 1700 (2012)
(quoting Hyatt v. Kappos, 625 F.3d 1320, 1335 (Fed. Cir.
2010)). The district court also “has authority independent of the [USPTO] to grant or cancel registrations.”
Swatch AG, 739 F.3d at 155 (citing § 1071(b)(1)).
Summary judgment is appropriate where the record
demonstrates that “there is no genuine dispute as to any
material fact and that the moving party is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
Although the Court must view the record “in the light
most favorable to the non-moving party,” Dulaney v.
Packaging Corp. of Am., 673 F.3d 323, 324 (4th Cir.
2012), “[t]he mere existence of a scintilla of evidence in
support of the [nonmovant’s] position will be insufficient” to overcome a motion for summary judgment.
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 252
(1986); see also Am. Arms Int’l v. Herbert, 563 F.3d 78,
82 (4th Cir. 2009). Rather, a genuine issue of material
fact exists only “if the evidence is such that a reasonable
jury could return a verdict for the nonmoving party.”
Anderson, 477 U.S. at 248. Summary judgment does
Mem. at 10; Def. Mem. at 10, and the new evidence before the Court
bears on both of those questions.

55a
not become disfavored simply because there is an “important, difficult or complicated question of law.”
Lewis v. Coleman, 257 F. Supp. 38, 40 (S.D. W. Va.
1966); Bradacs v. Haley, 58 F. Supp. 3d 514, 521 (D.S.C.
2014).
The parties have “expressly agree[d] that if the
Court determines after reviewing the briefs and evidence on summary judgment that any material issue of
fact exists, the Court is authorized to resolve any such
factual dispute.” [Dkt. No. 26] ¶ 4(B). Accordingly,
the Court will make factual determinations as well as
weighting decisions that are not normally appropriate
on a motion for summary judgment.
B. Analysis
Although plaintiff filed four trademark applications,
neither plaintiff nor defendants contend that the stylized elements described in those applications affect the
protectability of the mark. Instead, the parties focus
on the word mark BOOKING.COM and on where along
the generic-descriptive-suggestive-fanciful continuum
the mark is situated. Def. Mem. at 1-2; Pl. Mem. at
10-12. Therefore, rather than addressing each application individually, the Court will disregard the stylized
elements and focus on the appropriate categorization of
the word mark BOOKING.COM; however, because a
multi-class application is regarded as a series of separate applications, the Court must independently assess
the protectability of the mark for the two classes of services plaintiff claims in its applications, Classes 39 and
43. See 3 J. Thomas McCarthy, McCarthy on Trademarks and Unfair Competition § 19:56.50 (4th ed.) (hereinafter McCarthy on Trademarks).

56a
1.

The Framework of the Lanham Act

The Lanham Act provides nationwide protection of
trademarks. A trademark is “any word, name, symbol,
or device, or any combination thereof ” used “to identify
and distinguish . . . goods [or services], including a
unique product [or service], from those manufactured or
sold by others and to indicate the source of the goods [or
services], even if that source is unknown.” 15 U.S.C.
§ 1127. The Act has two purposes. The first is to prevent consumer confusion regarding the source of goods
and services and to reduce consumers’ information costs
by “quickly and easily assur[ing] a potential customer
that this item—the item with this mark—is made by the
same producer as other similarly marked items [or services] that he or she liked (or disliked) in the past.”
Qualitex Co. v. Jacobson Prod. Co., 514 U.S. 159, 163-64
(1995) (emphasis in original). Second, the Act incentivizes brand investment by assuring the “producer that it
(and not an imitating competitor) will reap the financial,
reputation-related rewards associated with a desirable
product [or service],” id. at 164, thereby “secur[ing] to
the owner of the mark the goodwill of his business,”
Park ’N Fly, Inc. v. Dollar Park & Fly, Inc., 469 U.S.
189, 198 (1985). By allowing the producer to reap the
benefits of consumer goodwill, trademark law “encourages the production of quality products [and services]
and simultaneously discourages those who hope to sell
inferior products [or services] by capitalizing on a consumer’s inability quickly to evaluate the quality of an
item [or service] offered for sale.” Qualitex, 514 U.S.
at 164 (internal quotation marks omitted). Thus, the
Lanham Act reflects Congress’s conclusion that “[n]ational protection of trademarks is desirable . . . because [it] foster[s] competition and the maintenance of

57a
quality by securing to the producer the benefits of good
reputation.” Park ’N Fly, 469 U.S. at 198.
In keeping with these twin purposes, the Lanham
Act identifies four categories of marks. “Arrayed in an
ascending order which roughly reflects their eligibility
[for] trademark status and the degree of protection accorded, these classes are (1) generic, (2) descriptive,
(3) suggestive, and (4) arbitrary or fanciful.” Abercrombie & Fitch Co. v. Hunting World, Inc., 537 F.2d 4, 9
(2d Cir. 1976). “A generic mark refers to the genus or
class of which a particular product [or service] is a member and can never be protected.” Ashley Furniture Indus., Inc. v. SanGiacomo N.A., 187 F.3d 363, 369 (4th Cir.
1999). Examples include Light Beer for ale-type beverages and Thermos for vacuum-insulated bottles.
Sara Lee Corp. v. Kayser-Roth Corp., 81 F.3d 455, 464
(4th Cir. 1996). A descriptive mark “describes a function, use, characteristic, size, or intended purpose” of
the product or service, such as 5 Minute glue and the
Yellow Pages telephone directory. Id. “Marks that
are merely descriptive are accorded protection only if
they have acquired a secondary meaning [also called ‘acquired distinctiveness’], that is, if in the minds of the
public, the primary significance of a product [or service]
feature or term is to identify the source of the product
[or service] rather than the product [or service] itself.”
Id. (internal citations omitted). Although eligible for
protection in some instances, descriptive marks are considered weak marks. Shakespeare Co. v. Silstar Corp.
of Am., 110 F.3d 234, 239-40 (4th Cir. 1997). Suggestive marks, such as Coppertone for sunscreen and Orange Crush for orange flavored soda, “connote, without
describing, some quality, ingredient, or characteristic of
the product [or service].” Sara Lee Corp., 81 F.3d at

58a
464. Marks that are “comprised of words in common
usage” but “do not suggest or describe any quality, ingredient, or characteristic of the goods [or services]
they serve, are said to have been arbitrarily assigned.”
Id. Examples of arbitrary marks include Tea Rose
brand flour and Apple for computers. Id. Lastly, fanciful marks are “in essence, made-up words expressly
coined for serving as a trademark,” such as Clorox for a
bleach product and Kodak for photography-related
products. Id. Because the “intrinsic nature” of suggestive, arbitrary, and fanciful marks “serves to identify
a particular source of a product [or service],” these categories “are deemed inherently distinctive and are entitled to protection.” Two Pesos, Inc. v. Taco Cabana,
Inc., 505 U.S. 763, 768 (1992).
2.

Genericness

Because a generic mark, which is statutorily defined
as “the common descriptive name of an article or substance,” Federal Trade Commission Improvements Act
of 1980, Pub. L. No. 96-252, § 18, 94 Stat. 374, 391, by
definition neither signifies the source of goods or services nor distinguishes the particular product or service
from other products or services on the market, it cannot
be protected as a trademark nor registered as one. Retail Servs., Inc. v. Freebies Publ’g, 364 F.3d 535, 538
(4th Cir. 2004) (citing Park ’N Fly, 469 U.S. at 194). To
permit otherwise “would grant the owner of the [generic] mark a monopoly since a competitor could not describe his goods [or services] as what they are.” CES
Publ’g Corp. v. St. Regis Publ’ns, Inc., 531 F.2d 11, 13
(2d Cir. 1975); see also Renaissance Greeting Cards, Inc.
v. Dollar Tree Stores, Inc., 405 F. Supp. 2d 680, 688
(E.D. Va. 2005), aff ’d, 227 F. App’x 239 (4th Cir. 2007)

59a
(“[T]he goals of trademark protection . . . must be
balanced by the concern that trademark protection not
become a means of monopolizing language or stifling
productive competition.”).
To the contrary, such
marks must remain in the public domain where they are
free for all to use. See Am. Online, Inc. v. AT & T
Corp., 243 F.3d 812, 821 (4th Cir. 2001) (explaining that
trademark law “protects for public use those commonly
used words and phrases that the public has adopted,
denying to any one competitor a right to corner those
words and phrases by expropriating them from the public ‘linguistic commons’ ”); 2 McCarthy on Trademarks
§ 12:2.
“The rub . . . is in trying to distinguish generic
marks from [protectable marks].” Ashley Furniture
Indus., 187 F.3d at 369. According to the test adopted
by the Supreme Court in Kellogg Co. v. Nat’l Biscuit
Co., a plaintiff seeking to establish a valid trademark as
compared to a generic mark “must show that the primary significance of the term in the minds of the consuming public is not the product but the producer.”
305 U.S. 111, 118 (1938). A mark is not generic simply
because it plays some role in denoting to the public what
the product or service is; rather, a mark may serve a
“dual function—that of identifying a product [or service]
while at the same time indicating its source.” S. Rep.
No. 98-627, at 5 (1984). Hence, Kellogg focuses on
whether “the primary significance of the mark [is] indication of the nature or class of the product or service,
rather than an indication of source.” Glover v. Ampak,
Inc., 74 F.3d 57, 59 (4th Cir. 1996) (emphasis in original);
see also Retail Servs., 364 F.3d at 544 (explaining that a
generic mark “neither signifies the source of goods nor

60a
distinguishes the particular product from other products on the market”).
Determining whether a mark is generic involves
three steps: “(1) identify[ing] the class of product or
service to which use of the mark is relevant; (2) identify[ing] the relevant purchasing public of the class of
product or service; and (3) [determining whether] the
primary significance of the mark to the relevant public
is to identify the class of product or service to which the
mark relates.” Glover, 74 F.3d at 59. Evidence of public understanding of the primary significance of a mark
can come from “purchaser testimony, consumer surveys, listings and dictionaries, trade journals, newspapers, and other publications.” Id. The burden of proof
rests with the party seeking to establish genericness, in
this case the defendants, who must prove that the mark
is generic by clear and convincing evidence. In re Cordua Restaurants, Inc., 823 F.3d 594, 600 (Fed. Cir.
2016).
a.

Classes of Services

The first step in analyzing the proposed BOOKING.
COM mark is to determine the classes of services (sometimes referred to as “genera of services”) at issue in
each application. Glover, 74 F.3d at 59. The defendants recognize that the services identified in each registration vary, but summarize the classes of services as
“online travel agency services, namely the arrangement
of transportation and tours,” for Class 39 and “online
hotel and lodging services” for Class 43. Def. Mem. at
17-18. Plaintiff does not appear to understand that this
is a class specific analysis and argues that the USPTO’s
“inability to adopt a single genus . . . requires reversal.” See Pl. Reply at 16-17 & n.5. This argument

61a
is inconsistent with the longstanding principle that a single application to register multiple classes, i.e., a combined application, is treated “as though it were a group
of individual applications” requiring “separate analyses
for each class of goods [or services].”
Federated
Foods, Inc. v. Fort Howard Paper Co., 544 F.2d 1098,
1102 (C.C.P.A. 1976).
Plaintiff further criticizes the defendants’ “new proposed genera” for “ignor[ing] most of plaintiff ’s actual
services,” including “the information and search (or research) services . . . and business oriented services
. . . used by hotels and other travel services seeking
to advertise and list their accommodations for rental.”
Pl. Opp. at 28. This critique is baseless for several reasons. As an initial matter, plaintiff overlooks that it too
has taken a reductivist view of the class of service by
defining the relevant class of services or genus as
“travel agency services.” Pl. Mem. at 13. Further,
plaintiff ’s suggestion that the class of services should include specific services, such as business consulting,
stems from plaintiff ’s argument that a granular approach that emphasizes services that would not be described with the word “booking” can save its mark from
genericness. See Pl. Opp. at 28 n.18 (“[T]here is no
reason a broad specification of services or goods cannot
be held distinctive for some of the services and not so for
others.”). Defendants, on the other hand, maintain
that “registration is properly refused if genericness is
found as to any service specified in the application.”
Def. Reply at 9. On this issue, defendants have the better of the argument. Registration must be refused if a
mark “is the generic name of any of the goods or services
for which registration is sought.” See Cordua Restau-

62a
rants, 823 F.3d at 605 (quoting 2 McCarthy on Trademarks § 12:57). Therefore, even though plaintiff provides business consulting services, its mark will fail if it
is generic as to plaintiff ’s hotel reservation services.
Similarly, even if, as plaintiff argues, the appropriate
genus is “travel agency services,” to the extent that this
encompasses hotel reservation services, plaintiff ’s mark
is not entitled to protection if it is generic for hotel reservation services. See Otokoyama Co. v. Wine of Japan Imp., Inc., 175 F.3d 266, 271 (2d Cir. 1999) (“Generic
words for sub-classifications or varieties of a good are
. . . ineligible for trademark protection.”).
In addition, as defendants acknowledge, “[p]laintiff
is the master of its application, including the identification of services covered by it” and “[i]t was from the
identification of services provided by plaintiff that the
TTAB derived its recitation of the services.” Def. Opp.
at 10; see also A1076 (describing the genus of services
as an “accurate[] summar[y]” of the recitation provided
by the plaintiff ); A3768 (same). Because “the question
of registrability of an applicant’s mark must be decided
on the basis of the identification of goods [and services]
set forth in the application regardless of what the record
may reveal as to the particular nature of an applicant’s
goods,” Octocom Sys., Inc. v. Houston Computer Servs.,
Inc., 918 F.2d 937, 942 (Fed. Cir. 1990), the identification
of services in plaintiff ’s applications “controls this analysis,” In re Dayan, 61 F. App’x 695, 696 (Fed. Cir. 2003).
Although plaintiff ’s applications reference a multitude
of services, because “registration is properly refused if
the word is the generic name of any of the goods or services for which registration is sought,” 2 McCarthy on
Trademarks § 12:57, the Court need not analyze each
service. Instead, it will focus on the broadest services

63a
described in plaintiff ’s applications: “travel and tour
ticket reservation services” for Class 39 and “[m]aking
hotel reservations for others” for Class 43. Moskin
Decl. [Dkt. No. 65-5] ¶¶ 2-4.
b.

Relevant Purchasing Public

To define the relevant purchasing public, a court
must look to the class of goods and services for which
the trademark application was submitted. Cf. Glover,
74 F.3d at 59; Retail Servs., Inc. v. Freebies Publ’g,
247 F. Supp. 2d 822, 826 (E.D. Va. 2003), aff ’d Retail
Servs., 364 F.3d at 535. Here, the applications sought
registration for travel, tour, and hotel reservation services, including those offered online, making consumers
who use travel, tour, and hotel reservation services offered via the internet or in person the relevant purchasing public.
c.

Primary Public Understanding

The next consideration is whether “the primary significance of the term in the minds of the consuming public
is not the product but the producer.” Kellogg, 305 U.S.
at 118. The public’s primary understanding of a mark
“is derived from it as a whole, not from its elements separated and considered in detail;” therefore, “it should be
considered in its entirety.” Estate of P.D. Beckwith,
Inc. v. Comm’r of Patents, 252 U.S. 538, 545-46 (1920).
Although “a mark must be considered as a whole,” this
“does not preclude courts from considering the meaning
of individual words in determining the meaning of the
entire mark.” Hunt Masters, Inc. v. Landry’s Seafood
Rest., Inc., 240 F.3d 251, 254 (4th Cir. 2001). Accord-

64a
ingly, this Court will consider the two elements “booking” and “.com” separately before considering them in
combination.
i.

“Booking”

Defendants’ argument that BOOKING.COM is generic rests primarily on its view of the meaning of “booking,” for which its primary sources are various dictionary definitions. “Although not controlling, ‘dictionary
definitions are relevant and sometimes persuasive’ on
the issue of genericness ‘based upon the assumption that
dictionary definitions usually reflect the public’s perception of a word’s meaning and its contemporary usage.’ ”
Retail Servs., 364 F.3d at 544-45 (citing 2 McCarthy on
Trademarks at § 12:13). The definitions in the record,
which are nearly identical to those relied on by the
TTAB, include:
1. An engagement, as for a performance. 2. A reservation, as for accommodations at a hotel. American
Heritage College Dictionary (3d ed. 1997).
1. a contract, engagement or scheduled performance of a professional entertainer. 2. a reservation. 3. the act of a person who books. Random
House Unabridged Dictionary (2d ed. 1993).
1: the act of one that books 2: an engagement or
scheduled performance . . . 3: RESERVATION;
esp one for transportation, entertainment, or lodging
4: ORDER. Webster’s Third New International
Dictionary (1993).
1: the act of one that books 2: an engagement
or scheduled performance 3:
RESERVATION.
Merriam-Webster’s Collegiate Dictionary (11th ed.
2008).

65a
Plaintiff points out that the primary definition of “booking” in the definitions produced by the defendants refers
to a performance, as in a theatrical engagement, and
that the word has numerous other meanings. Pl. Mem.
at 21. Although this observation is correct, it does not
advance plaintiff ’s cause as “a word may have more than
one generic use.” Abercrombie & Fitch, 537 F.2d at 11.
Defendants also cite evidence that plaintiff and its
competitors routinely use the word “booking” in reference to their services. For example, plaintiff ’s website
uses “booking” as a noun, to describe a reservation, see
A345 (“Sign in to manage your bookings.”); id. (“Latest
booking 10 minutes ago.”), and as a verb, meaning to
make a reservation, see A349 (“Our goal is to provide
business and leisure travelers with the most accessible
and cost effective way of discovering and booking the
broadest section of accommodations in every corner of
the world.”), as do its confirmation notices, which refer
to the reservation as a “booking” in the subject line, see
Def. Ex. A, PTO-00011. Similarly, plaintiff ’s competitors use “booking” as both a noun and a verb in describing their services. For example, Hotwire, which provides services for making hotel, car, and flight reservations, advertises “easier booking,” id. at PTO-00322,
Hotels.com claims to be the preferred choice “when it
comes to booking the perfect hotel,” id. at PTO-000298,
and Travelocity and Expedia offer services for “hotel
booking,” id. at PTO-00326; PTO-00313, “vacation package booking,” PTO-00315, and “booking a rental car,”
PTO-00327. “Booking” is also a common component of
descriptors for hotel reservation and travel agency services. A 2016 New York Times article regarding the
impact of online reservation services on hotel loyalty
programs referred to “Hotels.com, Hotwire.com, Trivago.

66a
com, and Travelocity.com” as “booking sites.” Id. at
PTO-00261-64; see also id. at PTO-00286-92. And,
Skift, an information platform for the travel sector,
headlined an article discussing flight reservation services with reference to “booking sites.” Id. at PTO00250-54. Finally, defendants identify fifteen thirdparty websites that include “booking.com” or “bookings.
com” as components of their domain names. See id. at
PTO-00148-65; A764-68, A772-81, A1085-86.
Plaintiff contends that this evidence is not enough to
show that the word “booking” is “ever used as a generic
term for travel agency services” and “has no relation
whatsoever to plaintiff ’s business consulting services.”
Pl. Mem. at 21. This argument parallels plaintiff ’s argument regarding the proper genus of services, which
effectively contends that the term “booking” is too narrow to describe the broad “travel agency services” offered by plaintiff while simultaneously too general to
capture plaintiff ’s consulting services. But, this “heads
I win, tails you lose” approach has no legal support.
See Nat’l Nonwovens, Inc. v. Consumer Prod. Enters.,
397 F. Supp. 2d 245, 252 (D. Mass. 2005) (rebuffing
plaintiff ’s “subtle rhetorical move that attempts to abstract [the genus] to a higher level of generality”). As explained above, it is well-established that “[a] registration
is properly refused if the word is the generic name of any
of the goods or services for which registration is sought.”
Cordua Rests., 823 F.3d at 605 (citing 2 McCarthy on
Trademarks § 12:57). This makes good sense. Otherwise, applicants could elude a finding of genericness by
simply tailoring their recitation of the goods and services at issue to be broader or narrower than the linguistic scope of their generic or descriptive mark. Permitting such gamesmanship would defeat one of the central

67a
purposes of the Lanham Act, which “is carefully crafted
to prevent commercial monopolization of language that
otherwise belongs in the public domain.” S.F. Arts &
Athletics, Inc. v. U.S. Olympic Comm., 483 U.S. 522, 573
(1987) (Brennan, J., dissenting).
The evidence presented by the defendants establishes that, by itself, the word “booking” is generic for
the classes of hotel and travel reservation services recited in plaintiff ’s applications. The dictionary definitions include as a meaning of “booking” a reservation or
the act of making a reservation. Even more tellingly,
plaintiff and its competitors use the term in this manner.
This definition is also consistent with public usage, as
indicated by the news sources quoted in the record. In
this respect, the word “booking,” standing alone, is the
common descriptive name for both the act of making a
reservation and the reservation itself. This conclusion
is equally true for hotel reservations and the wider set
of reservations offered by a travel agency service, because hotel, flight, and tour reservations are all referred
to as “bookings,” just as the act of making these types
of reservations is often called “booking.” Based on this
evidence, the Court finds that the term “booking” is generic for these types of services.
ii.

Top-Level Domains

The finding that “booking” is a generic term does
not end the analysis because the mark at issue is
BOOKING.COM. Therefore the Court must consider
whether the term resulting from combining “booking”
with “.com” remains generic. According to dictionary
definitions, “.com” refers to a “commercial organization
(in Internet addresses),” American Heritage College

68a
Dictionary (3d ed. 1997), or “[p]art of the internet address of many companies and organizations,” Dictionary.
com, http://www.dictionary.com/browse/-com (last accessed Apr. 7, 2017). In addition, some dictionaries
state that “the phrase dot-com is used to refer generically to almost anything connected to business on the Internet.” Id. Plaintiff argues that “.com” should be
read as a top-level domain (TLD), in the same family as
“.net,” “.org,” and “.edu.” Pl. Mem. at 22. A TLD can
be contrasted with a second-level domain (SLD), which
is the next level of organization in the domain name hierarchy. For example, in “booking.com,” “booking” is
the SLD and “.com” is the TLD. According to plaintiff,
the combination of “booking” and “.com” signals a domain name,3 which is a unique identifier capable of indicating the source of a product or service. Id. at 21, 23.
The defendants, on the other hand, argue that “.com” is
merely a term that denotes services offered via the Internet, and point to Federal Circuit cases holding that a
TLD has no source identifying significance.
Although Federal Circuit case law on trademark is
not controlling in this jurisdiction, it is persuasive authority. Because the parties acknowledge that there is
no Fourth Circuit precedent regarding the source identifying significance of a TLD, Def. Mem. at 19 n.13, the
reasoning of the Federal Circuit, which has addressed
the role of TLDs in at least five cases, is a helpful starting point; however, it is important to appreciate that all
of these opinions arose in § 1071(a) proceedings, in
A domain name is “any alphanumeric designation which is registered with or assigned by any domain name registrar, domain name
registry, or other domain name registration authority as part of an
electronic address on the Internet.” 15 U.S.C. § 1127.
3

69a
which the Federal Circuit reviewed the TTAB’s decisions regarding genericness and descriptiveness for
substantial evidence, which is a more deferential standard than the de novo review applicable in this civil action
brought under § 1071(b).
The Federal Circuit first addressed the legal effect
of combining a SLD consisting of a generic word (henceforth “generic SLD”) and a TLD in In re Oppedahl &
Larson LLP, 373 F.3d 1171 (Fed. Cir. 2004). There,
the USPTO found that PATENTS.COM was generic for
software that allowed consumers to track the status of
U.S. trademark and patent applications. This holding
relied on the conclusion that “patents” was generic and
the Trademark Manual of Examining Procedure’s instruction that “[b]ecause TLDs generally serve no sourceindicating function, their addition to an otherwise unregistrable mark typically cannot render it registrable.”
Id. at 1174-75 (citing 1209.03(m) Domain Names [R-2]).
Before the Federal Circuit, the applicant argued that
domain name marks were inherently distinctive and
therefore all such marks were entitled to registration.
Id. at 1176. The Federal Circuit rejected this argument and affirmed the USPTO, reasoning that “[t]elephone numbers and street addresses are also unique,
but they do not by themselves convey to the public the
source of specific goods or services.” Id. at 1176-77.
Nevertheless, the Federal Circuit cautioned that “a
bright-line rule that the addition of a TLD to an otherwise descriptive term will never under any circumstances affect the registratibility [sic] of a mark” would “be a
legal error,” concluding that the USPTO’s policy was
not a bright-line rule. Id. at 1175.

70a
The Federal Circuit’s next TLD case, In re Steelbuilding, 415 F.3d 1293 (2005), is the only case in
which the Federal Circuit reversed the TTAB’s
finding that a domain name was generic, although it ultimately sustained the USPTO’s denial of registration.
In that case, the applicant sought registration of
STEELBUILDING.COM for “computerized on-line retail services in the field of pre-engineered metal buildings and roofing systems.” Id. at 1296. On appeal,
the Federal Circuit determined that the evidence did
not support the TTAB’s genericness finding because
“[t]he applicant’s web site permits a customer to first
design, then determine an appropriate price, for its own
unique design,” and that the TTAB “misunderst[ood]
the proper genus.” Id. at 1298. With respect to the
TLD, the court concluded that “[i]n [that] unusual case,
the addition of the TLD indicator expanded the meaning
of the mark to include goods and services beyond the
mere sale of steel buildings” by “expand[ing] the mark
to include internet services that include ‘building’ or designing steel structures on the web site and then calculating an appropriate price before ordering the unique
structure.” Id. at 1299. Although it rejected the genericness finding, the Federal Circuit affirmed the
TTAB’s alternative conclusion that the mark was descriptive for the online services specified in the application and that the applicant had failed to meet its burden
of proving acquired distinctiveness. Id. at 1299-300.
In a separate opinion that diverged from Oppedahl &
Larson’s conclusion that TLDs generally serve no
source identifying function, Judge Linn argued that
“[i]n the Internet world, domain-name recognition is a
form of source identification” and argued that the case
should be remanded to the TTAB for a reassessment of

71a
the evidence. Id. at 1301 (Linn, J., concurring-in-part
and dissenting-in-part).
The Federal Circuit’s next case 4 involved the mark
HOTELS.COM, which the examiner concluded was descriptive for the class of services—“providing information for others about temporary lodging; travel agency services, namely, making reservations and bookings
for temporary lodging for others by means of telephone
and global computer network”—and had not acquired
secondary meaning. In re Hotels.com, L.P., 573 F.3d
1300, 1301 (Fed. Cir. 2009). The TTAB subsequently
affirmed the rejection but on the alternative basis that
HOTELS.COM is a generic term for hotel information
and reservation services and that the addition of “.com”
to “hotels” did not convert the generic term “hotels” into
a protectable mark. Id. In reaching this conclusion,
the TTAB relied on dictionary definitions of “hotel,”
computer printouts of the applicant’s website featuring
links to hotels, and the inclusion of the characters
“hotel.com” in other domain names. Id. at 1301. The
applicant presented rebuttal evidence, including sixtyfour declarations from customers, vendors, and competitors, who each stated that “the term HOTELS.COM is
not the common, generic name of any product, service,
or field of study,” as well as a Teflon survey drawn from
277 respondents in which 76% regarded HOTELS.COM
as a brand name, both of which the TTAB declined to
credit. Id. at 1304-05. On appeal, the Federal Circuit
The Federal Circuit briefly addressed domain name marks in
2007, but there the argument was not about the source identifying
significance of TLDs but rather whether the USPTO properly determined the genus of services. In re Reed Elsevier Props. Inc.,
482 F.3d 1376 (Fed. Cir. 2007).
4

72a
concluded that “on the entirety of the evidence before
the TTAB, and with cognizance of the standard and burden of proof borne by the USPTO, the TTAB could reasonably have given controlling weight to the large number of similar usages of ‘hotels’ with a dot-com suffix, as
well as the common meaning and dictionary definition of
‘hotels’ and the standard usage of ‘.com’ to show a commercial internet domain” and held that “Board’s finding
that HOTELS.COM is generic was supported by substantial evidence.” Id. at 1305-06.
The USPTO also denied registration to MATTRESS.
COM for services identified as “online retail store service in the field of mattresses, beds, and bedding” on the
basis of genericness. In re 1800Mattress.com IP, LLC,
586 F.3d 1359, 1361 (Fed. Cir. 2009). The Federal Circuit
affirmed, rejecting the applicant’s argument that because
consumers did not refer to such stores as “mattresses.
com’s” the term could not be generic and instead holding
that “substantial evidence . . . support[ed] the Board’s
conclusion that ‘[c]onsumers would see MATTRESS.
COM and would immediately recognize it as a term that
denotes a commercial website rendering retail services
featuring mattresses.’ ” Id. at 1362, 1364. In addition, the court found that “[b]ecause websites operate
under the term ‘mattress.com’ to provide mattresses,
and they provide them online, the [TTAB] properly concluded that the relevant public understands the mark
MATTRESS.COM to be no more than the sum of its constituent parts, viz., an online provider of mattresses.”
Id. at 1363.
Although the Court recognizes the persuasive force
of Federal Circuit cases, a number of factors caution

73a
against crediting these precedents here. From a chronological perspective, the Federal Circuit’s first TLD
case, Oppehahl & Larson, which held that “TLDs generally serve no source-indicating function,” was decided
in 2004 when the internet was in its infancy and norms
regarding domain names were just taking root. See
373 F.3d at 1176. Subsequent opinions have undermined Oppehahl & Larson’s reasoning by recognizing
that a TLD indicates a domain name and “domain-name
recognition is a form of source identification.” Steelbuilding, 415 F.3d at 1301 (Linn, J., concurring-in-part
and dissenting-in-part). There also appears to be a
tension between the Federal Circuit’s statement that a
per se rule that TLDs cannot be source identifying
would be “legal error,” Oppedahl & Larson, 373 F.3d at
1177, and the outcomes of these cases, which show that
the USPTO’s guidance on TLDs functions as a per se
rule, see Oppedahl & Larson, 373 F.3d at 1177;
Hotels.com, 573 F.3d at 1306; 1800Mattress.com,
586 F.3d at 1363. As discussed above, Steelbuilding
is a notable exception, but as Professor McCarthy
explains, this case “muddied the waters” and appears
to be based on an “erroneous” characterization of
STEELBUILDING.COM. 1 McCarthy on Trademarks
§ 7:17.50.
Beyond the tension within the cases, the Federal
Circuit’s TLD precedents also demonstrate the difficulty of distinguishing between generic and descriptive
marks, an indeterminacy evidenced both by the anomalous holding in Steelbuilding and the multiple cases in
which examining attorneys denied registration based on
descriptiveness only to be affirmed by TTAB decisions
concluding that the mark was actually generic, Oppedahl & Larson, 373 F.3d at 1173; Hotels.com, 573 F.3d

74a
at 1301. As discussed below, because “categorizing
trademarks is necessarily an imperfect science,” Fortune Dynamic, Inc. v. Victoria’s Secret Stores Brand
Mgmt., Inc., 618 F.3d 1025, 1033 (9th Cir. 2010), it would
be imprudent to adopt a sweeping presumption denying
trademark protection to a whole category of domain
name marks in the absence of robust evidence that public ownership of this language is necessary for consumers and competitors to describe a class of products or
services—evidence that does not appear in the Federal
Circuit cases. Most importantly, in each of these TLD
cases the Federal Circuit reviewed TTAB decisions under the deferential substantial evidence standard, a
point that was repeatedly emphasized in the cases.
See, e.g., Hotels.com, 573 F.3d at 1301. By contrast,
under § 1071(b) this Court is required to conduct a de
novo review. For all these reasons, this Court declines
to rely on the Federal Circuit’s precedents regarding
TLDs and will treat this question as an issue of first impression. And, for the reasons developed below, the
Court concludes that, when combined with an SLD, a
TLD generally has source identifying significance and
the combination of a generic SLD and a TLD is generally a descriptive mark that is protectable upon a showing of acquired distinctiveness.
To illustrate this conclusion, it is helpful to consider
the Federal Circuit’s reasoning in a case involving telephone numbers as marks. In 2001, before the Federal
Circuit first confronted the issue of TLDs, it held that
the mark 1-888-M-A-T-R-E-S-S was protectable as a descriptive mark. In re Dial-A-Mattress, 240 F.3d 1341,
1346 (Fed. Cir. 2001). In that case, the applicant applied to register 1-888-M-A-T-R-E-S-S as a service
mark for “telephone shop-at-home retail services in the

75a
field of mattresses.” Id. at 1343. The examining attorney rejected the mark as generic for the relevant services or, in the alternative, as a descriptive mark with
insufficient evidence of acquired distinctiveness. Id. at
1344. The TTAB affirmed both rationales. Id. On
appeal to the Federal Circuit, Dial-A-Mattress conceded
that the area code in the mark was devoid of source identifying significance by itself and that the word “mattress,” no matter how creatively spelled, was generic for
retail services in the field of mattresses; however, it argued that, considered in its entirety, the mark was not
generic. Id. at 1345. The Federal Circuit agreed,
holding that although area codes have no source identifying significance by themselves and the term “mattress” was generic, the combination of an area code and
a generic term (1-888-MATRESS) was source identifying. Id. at 1346. Specifically, it was descriptive, as it
indicated that “a service relating to mattresses [was]
available by calling the telephone number.” Id. Yet,
even though the telephone mnemonic was source identifying, the Federal Circuit explained that the applicant
still needed to establish “acquired secondary meaning”
(also termed “acquired distinctiveness”) in order to register the descriptive mark. Id. at 1347.5

Defendants attempt to distinguish Dial-a-Mattress by arguing
that unlike “888,” “.com” has a recognized generic meaning and that
1-888-MATRESS was a mnemonic while BOOKING.COM is not.
Def. Mem. at 10. Neither of these distinctions is persuasive because
the Dial-a-Mattress court recognized that “888” was an area code,
just as the Federal Circuit later recognized that “.com” is a TLD
and, even though a domain name is not a mnemonic, it can function
like a mnemonic by describing the associated goods or services.
5

76a
The reasoning in Dial-a-Mattress maps seamlessly
onto TLDs. Although a TLD, like an area code, has no
source identifying significance by itself, in combination
with a SLD, it indicates a domain name, which, like a
telephone number, is unique. Moreover, like the mnemonic phone number 1-888-M-A-T-R-E-S-S, the combination of a TLD and a generic SLD creates a descriptive
mark by indicating that services relating to the generic
SLD are available by accessing the domain name. Finally, whether such a mark is entitled to trademark protection depends on whether the applicant can demonstrate that it has acquired distinctiveness. In short,
TLDs generally do have source identifying value when
used in conjunction with an SLD and a mark comprised
of a generic SLD and a TLD is generally a descriptive
mark entitled to trademark protection if the mark
holder can establish acquired distinctiveness.
Defendants resist this conclusion. Beyond invoking the Federal Circuit cases, defendants’ argument
that a TLD does not have identifying significance relies
principally on the Supreme Court’s 1888 decision in
Goodyear’s Rubber Mfg. Co. v. Goodyear Rubber Co.,
128 U.S. 598, 602 (1888), which held that adding terms
such as “Corp.,” “Inc.,” and “Co.” to a generic term does
not add any trademark significance to an otherwise
unregistrable mark. Def. Mem. at 13, 21. By analogy, defendants argue that “[a]dding ‘.com’ to a generic
term does not create a composite that is capable of identifying source, just as Plaintiff would not have created a
protectable mark by adopting the designation ‘Booking
Company.’ ” Id. at 13. This analogy is unhelpful because Goodyear’s reasoning regarding corporate designators does not apply with equal force to domain names.
As the Supreme Court explained in Goodyear, the use of

77a
a corporate designation had no source identifying value
because it “only indicates that the parties have formed
an association or partnership to deal in [particular]
goods, either to produce or to sell them.” 128 U.S. at
602. By contrast, adding a TLD such as “.com” to a generic SLD does more than indicate that a company offers services via the internet; it indicates a unique domain name that can only be owned by one entity. In
this respect, unlike a corporate designation, a TLD that
functions as part of a domain name does have source
identifying significance.
Defendants further argue that the public understands that a mark comprised of a generic SLD combined with a TLD is generic for that class of goods or
services; however, they provide no evidence to support
this position other than citations to the aforementioned
Federal Circuit decisions. Def. Mem. at 13. As will
be discussed below, defendants’ evidence shows that the
public understands that such a mark represents a
unique domain name indicating to consumers that the
proprietor of the domain name provides goods or services relating to the generic term. Blair Rep. at 14 (arguing there is a “tendency for [some survey] respondents to think that any DOT-COM name is a brand”).
Next, citing Advertise.com, Inc. v. AOL Adver., Inc.,
616 F.3d 974. 980 (9th Cir. 2010), defendants raise the
policy argument that recognizing the source identifying
significance of TLDs would create “a per se rule—in
contravention of the Lanham Act—that the combination
of ‘.com’ with any generic term renders it protectable.”
Def. Mem. at 2, 17. In Advertise.com, the Ninth Circuit addressed AOL’s motion for a preliminary injunction against the registrant of ADVERTISE.COM on the

78a
basis that the mark was confusingly similar to AOL’s
mark ADVERTISING.COM, ultimately holding that
the combination of a generic SLD and a TLD was not
eligible for protection. The Court understands defendants to be invoking Advertise.com’s conclusion to argue
that, if trademark law recognizes TLDs as source identifying, the addition of a TLD to a generic SLD would
always result in a protectable mark. This argument
overreaches. Acknowledging that combining a TLD
with a generic SLD can produce a source identifying domain name is not tantamount to finding that all domain
name marks are protectable. Rather, a generic SLD
combined with a TLD creates a descriptive mark that is
eligible for protection only upon a showing of acquired
distinctiveness. Importantly, acquired distinctiveness
is a much higher bar than uniqueness and requires an
evidentiary showing that “in the minds of the public, the
primary significance of a . . . term is to identify the
source of the product rather than the product itself.”
Inwood Labs., Inc. v. Ives Labs., 456 U.S. 844, 851 n.11
(1982). In the trademark context, “source” does not refer to the location where a good or service may be found,
e.g., at the website associated with a domain name, but
to the “producer.” Kellogg, 305 U.S. at 118. Therefore, domain name marks composed of a generic SLD
and TLD, will be eligible for protection only when the
applicant can show that “the primary significance” of
the mark in the minds of the relevant consumers is the
producer. Id. Such a showing is only possible where
the owner of the mark has developed strong brand recognition.
The second policy concern raised by defendants is
that granting trademark protections to domain names

79a
with a generic SLD would prevent competitors from using the generic term in their domain names, hampering
their ability to communicate the nature of their services.
Def. Opp. at 25. This argument again echoes the Ninth
Circuit’s analysis in Advertise.com, which reasoned that
granting protection to such a mark would “grant[]
the trademark holder rights over far more intellectual
property than the domain name itself,” permitting
mark holders to monopolize a wide swath of domain
names, including those comprised of the generic SLD
at issue and any other TLD (e.g., “advertise.net”;
“advertise.biz”; “advertise.org”) as well other domain
names that contain the generic word (e.g., “localadvertise.
com”; “advertiseonline.com”). See 616 F.3d at 980-81.
This argument, although initially alarming, does not
withstand scrutiny.
The most obvious refutation of the monopolization concern is that domain names with a descriptive SLD, such
as “steelbuilding,” are already eligible for protection upon
a showing of secondary meaning. Steelbuilding.com,
415 F.3d at 1299; Oppedahl & Larson, 373 F.3d at 1173.
Moreover, although the USPTO has registered marks
with what it determined are descriptive SLDs, such
as WORKOUT.COM, ENTERTAINMENT.COM, and
WEATHER.COM, this has not stopped competitors
from using the words “workout,” “entertainment,” or
“weather” in their domain names. To the contrary,
such related domain names abound and many, such
as MIRACLEWORKOUT.COM, WWW.GOLIVEENTERTAINMENT.COM, and CAMPERSWEATHER.

80a
COM, have actually been afforded trademark protection
by being registered on the Principal Register.6
In addition, the descriptive nature of domain name
marks with a generic SLD will significantly limit the
protection they receive, thereby safeguarding competition and public use. It is axiomatic that “descriptive
terms qualify for registration as trademarks only after
taking on secondary meaning . . . with the registrant getting an exclusive right not in the original, descriptive sense, but only in the secondary one associated
with the markholder’s goods.” KP Permanent MakeUp, 543 U.S. at 122. Beyond the circumscribed protection afforded to descriptive marks, competitors are also
protected by the likelihood of confusion standard. As
the Supreme Court emphasized in KP Permanent MakeUp, the party charging infringement bears the burden
of proving that a competitor’s use of a mark is likely to
confuse consumers. Id. at 118. This is a heavy burden for a plaintiff because likelihood of confusion rests on
nine factors, which include the source identifying strength
of the plaintiff ’s mark, the degree of similarity between
the marks, and the defendant’s intent.7 See, e.g., H. Jay

The Court may take judicial notice of information in the public
record, Sec’y of State for Defence v. Trimble Navigation Ltd.,
484 F.3d 700, 705 (4th Cir. 2007), such as registrations in the Principal Register.
7
The Fourth Circuit’s likelihood of confusion doctrine instructs
courts to examine the following factors: “(1) the strength or distinctiveness of the plaintiff ’s mark as actually used in the marketplace;
(2) the similarity of the two marks to consumers; (3) the similarity of
the goods or services that the marks identify; (4) the similarity of the
facilities used by the markholders; (5) the similarity of advertising
used by the markholders; (6) the defendant’s intent; (7) actual con6

81a
Spiegel & Assocs., P.C. v. Spiegel, 652 F. Supp. 2d 639,
650 (E.D. Va. 2009), aff ’d, 400 F. App’x 757 (4th Cir. 2010)
(finding, on a motion for summary judgment, that the
record was inconclusive as to whether SPIEGELLAW.
COM was confusingly similar to SPIEGELAW.COM).
Likelihood of confusion is particularly difficult to prove
for descriptive marks because they are considered
“weak” marks, see Shakespeare Co., 110 F.3d at 239-40,
and “when the common element between two marks is a
word which is ‘weak,’ the likelihood of confusion between
the marks is reduced.” Pizzeria Uno Corp. v. Temple,
566 F. Supp. 385, 396 (D.S.C. 1983), aff ’d, 747 F.2d 1522
(4th Cir. 1984). Moreover, even if the party charging
infringement succeeds in establishing likelihood of confusion, the accused party can defend itself by demonstrating fair use.8 See KP Permanent Make-Up, 543 U.S.
at 121 (“some possibility of consumer confusion must be
compatible with fair use”). As the Supreme Court has
explained, “[i]f any confusion results” from descriptive
fair use “that is a risk the plaintiff accepted when it decided to identify its product with a mark that uses a well

fusion; (8) the quality of the defendant’s product; and (9) the sophistication of the consuming public.” George & Co. LLC v. Imagination Entm’t Ltd., 575 F.3d 383, 393 (4th Cir. 2009).
8
Fair use is “use, otherwise than as a mark, . . . of a term or
device which is descriptive of and used fairly and in good faith only
to describe the goods or services of such party, or their geographic
origin. . . . ” 15 U.S.C. § 1115(b)(4). Descriptive or classic fair
use “applies when the [dilution] defendant is using a trademark in
its primary, descriptive sense to describe the defendant’s goods or
services,” whereas “nominative fair use comes into play when
the defendant uses the famous mark to identify or compare the
trademark owner’s product.” Rosetta Stone Ltd. v. Google, Inc.,
676 F.3d 144, 169 (4th Cir. 2012) (quotation marks omitted).

82a
known descriptive phrase.” Id. (internal citation omitted). This principle is equally true in the context of domain names and will preclude holders of marks comprised of a generic SLD and a TLD from preventing
competitors from using the generic term in other domain names.9
Defendants’ third policy concern, which again proves
more imagined than real, is that granting trademark
protection to domain names with generic SLDs would
deprive competitors of the right to describe their goods
and services as what they are. Def. Mem. at 11-12.
As defendants elaborate, “Imagine being forbidden to
describe a Chevrolet as a ‘car’ or an ‘automobile’ because
Ford or Chrysler or Volvo had trademarked these generic words.” Id. at 12 (citing Retail Servs., 364 F.3d
at 538). Defendants appear to suggest that plaintiff ’s
competitors need to be able to describe themselves as
“booking.coms.” Although concerns about monopoly
are one of the animating forces behind the prohibition
on registering generic marks, because each domain
name is unique the Court is unpersuaded that the threat
of monopoly applies with equal force to domain names. 10

At oral argument, plaintiff conceded that other domain names involving the word “booking” are protected under the fair use doctrine.
10
In rejecting plaintiff ’s applications, the TTAB observed that
“[a]s domain name registrations are not perpetual, [the plaintiff ]
may be supplanted as the registrant of that Internet address or may
voluntarily transfer its domain name registration to another.”
A1103. A practical problem might arise if the plaintiff let the domain name registration lapse or transferred it but wanted to continue using the mark; however, because a trademark right would
only enhance plaintiff ’s incentive to maintain its registration the
Court need not concern itself with this remote possibility. In addi9

83a
Further, the monopoly argument appears to assume
that certain terms must be left in the public commons
because they have descriptive value and are needed by
consumers and competitors alike; however, no evidence
in this record supports the view that domain names are
used as descriptive terms for classes of services. To
the contrary, the record is replete with evidence that
consumers are predisposed to think that a domain name
refers to a particular entity. Blair Rep. at 14; In re
Hotels.com, 87 U.S.P.Q.2d 1100, 1109 (T.T.A.B. Mar. 24,
2008) (according to the TTAB, “consumers may automatically equate a domain name with a brand name”).
By this same logic, plaintiff ’s competitors, such as Expedia and Travelocity, have no incentive to describe
themselves as “booking.coms” because this risks diverting customers to the website of their competitor. In
short, there is no evidence in this record indicating that
permitting registration of a domain names with a generic SLD would result in the monopolization of descriptive terms that must be left free for public use.
Recognizing that the policy concerns regarding generic terms are a poor fit for marks comprised of a generic SLD and a TLD, the next question is whether the
dual purposes of the Lanham Act—protecting consumers and incentivizing brand development—militate for
or against protection. Generally, the consumer protection rationale favors trademark protection because
brands minimize the information costs of purchasing decisions. Qualitex, 514 U.S. at 164. Although trade-

tion, this concern applies equally to personal names and alphanumeric telephone numbers, both of which are eligible for trademark
protection. See 1 McCarthy on Trademarks §§ 7:13, 7:17.50, 13:1.

84a
mark rights are disfavored when they would cause consumer confusion or impede competition, Am. Online,
243 F.3d at 821, because domain names are inherently
unique and the scope of protection afforded to a domain
name with a generic SLD will be narrow, the risk of consumer confusion or anticompetitive monopolies is remote. Rather, the evidence in this record shows that
consumers are primed to perceive a domain name as a
brand which militates for, not against, trademark protection for domain names. In addition, because online
goods and services are a significant and ever-growing
part of the economy, granting trademarks to producers
who primarily offer goods and services online and brand
themselves based on their domain name favors the interest of consumers by limiting the prospect of deception and confusion. Incidentally, this also protects the
good will generated by producers, often at great effort
and expense, and thereby incentivizes brand development.11 In sum, the rationales animating the Lanham
Act are aligned with the conclusions that TLDs are generally source identifying and that a mark composed of a
generic SLD and a TLD is a descriptive mark eligible
At first glance, it may not be immediately apparent why plaintiff,
which uses a unique domain name as its mark, needs trademark protection; however, in the absence of protection, competitors could capitalize on plaintiff ’s goodwill by expropriating its brand identifiers
by, for example, adopting a similar domain name and using the stylized elements of plaintiff ’s mark or advertising with a hyperlink labeled “Booking.com” that opened a different domain name. Without trademark protection, plaintiff might have some recourse in
unfair competition and related torts, but outcomes in this area of law
are difficult to predict and leave much to judicial discretion, see
1 McCarthy on Trademarks § 1.11, increasing plaintiff ’s business
risk and leaving consumers more vulnerable to misinformation regarding plaintiff ’s brand.
11

85a
for protection upon a showing of acquired distinctiveness.
iii.

Evidence of Public Understanding Regarding
Genericness

The Court now considers evidence of the public’s understanding of BOOKING.COM, which may include
“purchaser testimony, customer surveys, dictionary listings, newspapers, and other publications.” Retail Servs.,
247 F. Supp. 2d at 826. The most striking feature of
the evidence in this record is the absence of evidence
that consumers or producers use the term “booking.
com” to describe the genera of services at issue, that is,
hotel and travel reservation services. Pl. Mem. at 12.
Defendants point to no purchaser testimony, consumer
surveys, newspaper articles, websites, or other publications demonstrating that either the consuming public or
plaintiff ’s competitors refer to travel and hotel reservation services offered online as “booking.coms.” See
Dial-a-Mattress, 240 F.3d at 1346. Instead, they rely
heavily on a statement from the Federal Circuit that use
“is irrelevant” and “the correct inquiry is whether the
relevant public would understand, when hearing the
term ‘mattress.com,’ that it refers to online mattress
stores.” Def. Mem. at 13 (citing 1800Mattress.com,
586 F.3d at 1364 (emphasis added)); see also Def. Opp.
at 7, 18; Def. Reply at 13. In reaching this conclusion,
the Federal Circuit cited H. Marvin Ginn v. Int’l Ass’n
of Fire Chiefs, Inc.’s genericness test, which asks
whether the “relevant public primarily use or understand the term sought to be protected to refer to the genus of goods or services in question.” 782 F.2d 987, 98990 (Fed. Cir. 1986) (emphasis added). But 1800Mattress.
com is not controlling authority, and the Fourth Circuit

86a
has not adopted H. Marvin Ginn’s test for genericness.
In addition, even under this test, whether a mark is used
to refer to a genus is certainly relevant; it simply is not
dispositive. Importantly, in this de novo proceeding,
the evidence before the Court indicates that “[l]inguistic
understanding is not some further mental condition”;
rather, in the words of Ludwig Wittgenstein, “meaning
is use.” Leslie Rep., Pl. Ex. 2 [Dkt. No. 64-2] ¶ 78 (citing Philosophical Investigations § 43 (1953)).12 Accordingly, the absence of evidence indicating that the consuming public uses the term BOOKING.COM to refer
to a class of services, is highly relevant.
What evidence defendants have produced shows that
the types of services offered by plaintiff are routinely
referred to as “booking website(s),” “booking site(s),”
etc. Def. Mem. at 21. According to defendants, “these
same meanings are immediately conveyed by the term
‘booking.com,’ ” id. at 22; however, they offer no support
for the argument that any composite term that communicates the same meaning as a generic term is itself
generic. Id. Further, because domain names are unique,
the Court is unpersuaded that BOOKING.COM has the
same meaning as “a booking website” or “booking web-

Defendants contend that the report of plaintiff ’s linguistics expert, Dr. Sarah-Jane Leslie, must be excluded because her research
on generics in the field of linguistics has no bearing on generics in
the domain of trademark and is therefore inadmissible under Rule
702. Def. Mem. at 27. Although Dr. Leslie’s opinion is not relevant
as legal expertise, her robust knowledge of linguistics is certainly
relevant to the ultimate inquiry, which, as explained by Judge
Learned Hand, “is merely one of fact: what do buyers understand
by the word for whose use the parties are contending?” Bayer Co.
v. United Drug Co., 272 F. 505, 509 (S.D.N.Y. 1921).
12

87a
sites,” both of which could refer to any number of websites. Cf. Dial-a-Mattress, 240 F.3d at 1346 (“[A] phone
number is not literally a genus or a class name.”).
Defendants also point to fifteen third-party websites
that include “booking.com” or “bookings.com.” Def.
Mem. at 23; PTO-0148-65 (identifying examples such as
“dreamvacationbooking.com”; “vacationhomebooking.com”;
and “bhutanbookings.com”). This evidence is unpersuasive because including the characters “b-o-o-k-i-n-g-.
-c-o-m” in a longer domain name is not the equivalent of
describing one’s service as a “booking.com.” Indeed, a
brief review of these websites indicates that they do not
describe themselves as such.13 Moreover, accepting the
defendants’ logic would result in privileging trademark
protection for long SLDs over short ones simply because
a shorter domain name’s set of characters is likely to be
included in longer domain names. This is not the
USPTO’s practice, as evidenced by its registration of
marks like WORKOUT.COM, ENTERTAINMENT.
COM, and WEATHER.COM notwithstanding the multitude of other domain names that uses these strings of
characters. Therefore, the Court finds that defendants’ list of domain names does not constitute evidence
that BOOKING.COM is used to refer to a genus of services.14
Defendants only included printouts of the websites’ home pages
in their exhibits. To understand the context of this evidence, the
Court visited the websites and reviewed each page to see how the
proprietors of the sites described their services. None of the sites
describes their services as a “booking.com,” rather they describe
themselves using proper nouns, such as “Vacation Home Booking.”
14
In support of their argument, defendants cite Reed Elsevier,
482 F.3d at 1380, in which the Federal Circuit found that eight third13

88a
Conversely, plaintiffs have adduced persuasive evidence that the consuming public understands BOOKING.
COM to be a specific brand, not a generic name for
online booking services. In particular, plaintiff produced a Teflon survey which revealed that 74.8 percent
of respondents identified BOOKING.COM as a brand
name. Poret Rep. at 29. Teflon surveys, which are
the “most widely used survey format to resolve a genericness challenge,” 2 McCarthy on Trademarks at § 12:16,
provide survey respondents with a primer on the distinction between the generic or common names and
trademark or brand names, and then present respondents with a series of names, which they are asked to
identify as common or brand names. Plaintiff ’s survey
was conducted by Hal Poret, a statistician with experience administering over 200 consumer surveys regarding trademarks. The survey was administered online
to 400 respondents from March to April 2016. Poret
Rep., Pl. Ex. 1 [Dkt. No. 64-1] at 8, 18, 25.
The survey began by explaining the distinction
between “brand names” and “common names” and
provided consumers with examples of three brand
names (TOYOTA, CHASE, and STAPLES.COM)
and three common names (AUTOMOBILE, BANK,
and OFFICESUPPLIES.COM). Id. at 9. The survey then tested consumer’s understanding of the distinction between common and brand names by asking
them to identify whether KELLOGG and CEREAL
party websites containing “lawyer.com” in their domain names supported the finding that LAWYERS.COM was generic. Def. Mem.
at 23. Based on the reasoning set forth above, most notably the deferential standard of review applicable in the Federal Circuit, the
Court finds Reed Elsevier unpersuasive.

89a
were common or brand names. Id. at 10. Respondents who correctly answered that KELLOGG is a brand
name and CEREAL is a common name continued with
the survey while those who did not were excluded. Id.
at 11. Following that initial screening, respondents
were shown a series of terms, one at a time, and for each
term were asked to answer the following question:
• “Do you think this is a
o

Brand name

o

Common name

o

Don’t know”

. . .

Id. The list of terms and product descriptions shown
to respondents were
• The term at issue:
o

“BOOKING.COM (Hotel and other lodging
reservation services)”

• Three brand names:
o

“ETRADE.COM (Stock and investor broker services)”

o

“PEPSI (Cola and other soft drinks)”

o

“SHUTTERFLY (Photo-sharing and photo
gift services)”

• Three common names
o

“SPORTING GOODS (Products used in
sports and other physical activity)”

o

“WASHINGMACHINE.COM (Review and
sales of washing machines)”

90a
o

“SUPERMARKET (Retail sale of food and
other groceries)”

Id. at 11-13. There were four separate rotations in
which these terms were presented to the respondents,
in each of which the terms were ordered differently and
with BOOKING.COM placed in a different position on
the rotation “so as not to bias the responses to the term
BOOKING.COM.” Id. at 13-14. There were also two
versions of the survey language, one in which the phase
“brand name” always preceded the phrase “common
name” (i.e., “This survey is about brand names and common names.”) and one in which this order was reversed.
Id. at 9, 15. The following table displays the proportion
of respondents who identified each trademark as a
brand name versus a common name, compared to
BOOKING.COM:
BOOKING.
COM

PEPSI

ETRADE.
COM

SHUTTERFLY

Brand
name

74.8%

99.3%

96.8%

96.8%

Common
name

23.8%

0.8%

3.0%

3.0%

Don’t
know

1.5%

0.0%

0.3%

0.3%

Id. at 28. The following table displays the proportion
of respondents who identified each generic term as a
brand name versus a common name, compared to
BOOKING.COM:

91a
BOOKING.
COM

SUPERMARKET

SPORTING
GOODS

WASHINGMACHINE.
COM

Brand
name

74.8%

0.0%

0.5%

33.0%

Common
name

23.8%

100.0%

99.5%

60.8%

Don’t
know

1.5%

0.0%

0.0%

6.3%

Id. Poret concluded that in his opinion “these results
strongly establish that BOOKING.COM is not perceived by consumers to be a generic or common name.”
Id. at 29; see also E. I. DuPont de Nemours & Co. v.
Yoshida Int’l, Inc., 393 F. Supp. 502, 527 (E.D.N.Y. 1975)
(finding that survey results indicating that 68% of consumers viewed Teflon as a brand name rebutted the
claim that the mark was generic).
Defendants argue that plaintiff ’s Teflon survey
should be excluded pursuant to Hunt Masters, 240 F.3d
at 255, where the Fourth Circuit held that in a genericness inquiry consumer surveys are not relevant “where
a term was commonly used prior to its association with
the products at issue” whereas surveys are relevant
where the term at issue “began life as a ‘coined term.’ ”
Def. Opp. at 12. Although “booking” is not a coined
term, BOOKING.COM arguably is. More importantly,
defendants have presented no evidence that BOOKING.
COM is in the category of marks for which Hunt Masters forecloses reliance on consumer surveys, namely
that it “was commonly used prior to its association with

92a
the products at issue.” Id. Moreover, the Court finds
that because domain names marks are relatively new to
trademark law, public understanding is highly relevant
to understanding how these marks are perceived. As a
result, this case is not on all fours with Hunt Masters
and plaintiff ’s Teflon survey, which sheds light on how
the composite mark BOOKING.COM is understood by
consumers, is highly relevant.15
Defendants next attack the methodological soundness of plaintiff ’s survey as a basis for excluding the report. Def. Opp. at 13. Defendants rely primarily on a
comment by Poret, posted in a blog by a colleague in
2009, in which he remarked that because consumers often assume that domain names have source identifying
significance, surveys testing TLD marks should be composed exclusively or primarily of TLD marks. Def. Ex.
A at PTO-00366. During his deposition, Poret explained that he has since revised his views. Recognizing that consumers conventionally encounter an array of
marks, including TLD and non-TLD marks, Poret is
now of the opinion that it is unnatural to test brand
recognition with only TLD marks. Poret Tr., Pl. Ex.
A [Dkt. No. 72-1] at 18:8-19:21. Defendants make
much of this change of opinion but point to no case law,
scholarly authority, or principled justifications for conducting Teflon surveys comprised exclusively or even
Hunt Master’s holding has been criticized by the leading trademark treatise, which argues that by categorizing marks as coined or
non-coined before determining the relevance of survey evidence,
“[t]he Fourth Circuit assumed that which was to be decided. . . .
It is an audacious thing for a court to state that consumer perception
is irrelevant when the issue is whether a designation is perceived by
the consuming public as a generic name or not.” 2 McCarthy on
Trademarks § 12:17.50.
15

93a
primarily of TLD marks.
Opp. at 14-15.

Def. Mem. at 26-27; Def.

Defendants also point to three alleged methodological flaws in Poret’s survey identified by their expert, Dr.
Edward Blair. Blair Rep., Def. Ex. B [Dkt. No. 61-3].
First, Dr. Blair contends that the survey population is
under-inclusive because it was restricted to consumers
who search for or make hotel or travel reservations
online but plaintiff ’s trademark applications also reference services offered in person. Id. at 11-13. Poret’s
supplemental expert response explains that the survey
focused on consumers who used online reservation services because the USPTO determined that BOOKING.
COM was generic for a website service, thus “measuring
consumer perception of BOOKING.COM in the online
context squarely tested the context in which the chance
of consumers understanding a mark ending in ‘.COM’ to
be generic was greatest.” Poret Supp. Rep., Def. Ex.
D [Dkt. No. 61-5] at 3.
Second, although Dr. Blair concedes that the survey
explained and tested the distinction between dot-com
brand names and common names, he contends that this
educational component was insufficient because it did
not focus specifically on dot-com names and respondents
were not tested on their ability to distinguish between
dot-com brand names and dot-com common names.
Blair Rep. at 5-6, 14. Observing that 33% of respondents incorrectly identified WASHINGMACHINE.COM,
one of the test terms, as a brand name, Dr. Blair contends that the educational portion of the survey was ineffective and respondents were predisposed to think
that any dot-com name was a brand name. Id. Without conceding that this is a flaw in the survey design,

94a
Poret explains that one can control for this predisposition by removing the respondents who answered that
WASHINGMACHINE.COM is a brand name. Poret
Supp. Rep. at 4. Even with that adjustment, of the remaining respondents, 65 percent identified BOOKING.
COM as a brand name. Id. at 5.
Dr. Blair’s third critique is that the responses varied
based on the order in which the marks were presented,
which he posits is an indication that respondents did not
understand the distinction between dot-com brand
names and common names and were answering based on
context rather than actual knowledge. Blair Rep. at
19. Poret acknowledges that the results exhibit order
effects but explains that all Teflon surveys have order
effects, irrespective of whether they test dot-com or
other marks. Poret Supp. Rep. at 8. “[T]he very reason that [Teflon] surveys include various orderings of
the terms,” he elaborates, “is because it is well known
and expected that responses to terms often vary in this
manner” and “providing various orderings is designed to
control for this phenomenon.” Id. (emphasis in original).
The Court is persuaded by Poret’s responses and
finds that Dr. Blair’s critiques do not undermine the veracity of the survey results. “[N]o survey is perfect.”
Selchow & Righter Co. v. Decipher, Inc., 598 F. Supp.
1489, 1502 (E.D. Va. 1984). Poret’s decision to limit the
survey to online consumers was reasonable, the method
used to instruct them on the distinction between generic
and brand names was sufficient, and the ordering effects
are, as Poret explains, both expected and appropriately
controlled for by the survey design. In short, plaintiff ’s
Teflon survey is reliable. It also provides the only actual evidence of consumers’ understanding of BOOKING.

95a
COM, because defendants “had an equal opportunity to
conduct [their] own survey but chose not to” do so. Selchow & Righter, 598 F. Supp. at 1503.
Numerous courts agree that “direct consumer evidence, e.g., consumer surveys and testimony is preferable to indirect forms of evidence” such as dictionaries,
trade journals, and other publications. See, e.g., Berner
Int’l Corp. v. Mars Sales Co., 987 F.2d 975, 982 (3d Cir.
1993). Even the Federal Circuit, the source of authority upon which the USPTO principally relies, has held
that “consumer surveys may be a preferred method of
proving genericness.” BellSouth Corp. v. DataNational
Corp., 60 F.3d 1565, 1570 (Fed. Cir. 1995). Therefore,
the Court declines defendants’ invitation to rely on theoretical and indirect sources of consumer understanding, such as dictionary definitions, over plaintiff ’s Teflon
survey.
In sum, defendants have not met their burden of
proving by clear evidence that BOOKING.COM is generic. To the contrary, the Court finds that the relevant consuming public primarily understands that
BOOKING.COM does not refer to a genus, rather it is
descriptive of services involving “booking” available at
that domain name. Dial-a-Mattress, 240 F.3d at 1346
(finding that 1-8-8-8-M-A-T-R-E-S-S “immediately conveys the impression that a service relating to mattresses
is available by calling the telephone number”). And,
because “booking” is a broad enough term to refer to
both hotel and travel reservation services, the Court
finds that BOOKING.COM is descriptive of both the
Class 39 and Class 43 services described in plaintiff ’s
applications.

96a
3. Acquired Distinctiveness
As with any descriptive mark, BOOKING.COM is eligible for protection only upon a showing of secondary
meaning or acquired distinctiveness. See Steelbuilding.
com, 415 F.3d at 1299. To make this showing, the burden shifts to the applicant to demonstrate that “in the
minds of the public, the primary significance of a product
feature or term is to identify the source of the product
rather than the product itself.” Inwood Labs., 456 U.S.
at 851 n.11. “Saying that a trademark has acquired
secondary meaning is shorthand for saying that a descriptive mark has become sufficiently distinctive to establish a mental association in buyers’ minds between
the alleged mark and a single source of the product.”
Retail Servs., 364 F.3d at 539 (citation and internal quotation marks omitted); see also Sara Lee, 81 F.3d at 464
(noting that “secondary meaning” exists when, “in the
minds of the public, the primary significance of a product feature or term is to identify the source of the product rather than the product itself ” (internal quotation
marks omitted)); Perini Corp. v. Perini Constr., Inc.,
915 F.2d 121, 125 (4th Cir. 1990) (“Secondary meaning
is the consuming public’s understanding that the mark,
when used in context, refers, not to what the descriptive
word ordinarily describes, but to the particular business
that the mark is meant to identify.”).
Proof of secondary meaning requires a “rigorous evidentiary” showing and courts consider six factors:
“(1) advertising expenditures; (2) consumer studies linking the mark to a source; (3) sales success; (4) unsolicited media coverage of the product; (5) attempts to plagiarize the mark; and (6) the length and exclusivity of
the mark’s use.” Perini, 915 F.2d at 125. Secondary

97a
meaning exists if a “substantial portion” of the relevant
consuming public associates the term with the particular
business, id., and the applicant bears the burden of proof,
U.S. Search, LLC v. U.S. Search.com, Inc., 300 F.3d 517,
525-26 (4th Cir. 2002).
As explained above, applications containing multiple
classes are treated as separate applications, 3 McCarthy
on Trademarks § 19:56.50; therefore, the Court’s analysis of the evidence of secondary meaning must assess
Class 39 and 43 independently. But, in the interest of
efficiency, the Court will begin by summarizing the evidence in the record.
a. Evidence of Acquired Distinctiveness
With respect to advertising, plaintiff has submitted evidence of the number of visual impressions of BOOKING.
COM by consumers. Although the secondary meaning
test refers to “advertising expenditures,” Perini, 915 F.2d
at 125, the Court is satisfied that the number of visual
impressions is equally, if not more, probative of secondary meaning because it more closely approximates the
number of consumers who have been exposed to a brand.
Plaintiff aired BOOKING.COM branded television commercials that received 1.3 billion visual impressions
from U.S. customers in 2015 and 1.1 billion impressions
in 2016. Pl. Ex. A, Dunlap Decl. ¶ 9a. Its internet advertisements during these years received 212 million
and 1.34 billion visual impressions from U.S. customers,
respectively. Id. ¶ 9c. And its 2015 movie theater advertisements received approximately 40 million visual
impressions from U.S. customers. Id. ¶ 9b. This is
compelling evidence of plaintiff ’s advertising efforts and
is considerably more wide-reaching than the evidence
used to satisfy the first factor in other Fourth Circuit

98a
cases. See Resorts of Pinehurst, Inc. v. Pinehurst
Nat’l Corp., 148 F.3d 417, 421-22 (4th Cir. 1998) (finding
that the markholder had made “considerable advertising efforts and expenditure of money toward developing
a reputation and goodwill” for its mark through a “nationwide marketing campaign” that involved “placing
advertisements in numerous national golf publications
such as Golf and Golf Digest magazines” and aggressively “seeking out major professional golf tournaments”).16
As to the second factor, plaintiff cites two surveys.
The first is a 2012 JD Power & Associates survey recognizing plaintiff as having the highest customer satisfaction rate of any travel site in the United States. Pl. Mem.
¶ 27; Pl. Opp. at 14. Defendants argue that the survey
is entitled to little weight because it does not reveal anything about what consumers understand BOOKING.
COM to mean. Def. Opp. at 26. Plaintiff contends that
the survey is an admissible form of evidence, Pl. Opp. at
14, but admissibility is not the problem. Surveys such
as the JD Power & Associates survey are designed to
gauge the relative popularity of a product not the source
identifying effect of the mark. As a result, defendants
In response, defendants argue that there “are no advertising materials that show how [p]laintiff has sought to replace, in the minds of
consumers, the general descriptiveness of the term with an impression of a single-source identification.” Id. This argument is wholly
without merit. First, there is no legal basis for requiring a plaintiff
to produce the content of its advertising materials to prove that the
public recognizes its mark as a brand. Second, this argument simply
begs the question, because notwithstanding the “general descriptiveness of [a] term,” whether consumers associate “the term with
an impression of a single-source identification” is the essence of the
secondary meaning inquiry.
16

99a
are correct in arguing that the JD Power & Associates
survey is not probative of secondary meaning and is entitled to minimal weight. Chase Fed. Sav. & Loan
Ass’n v. Chase Manhattan Fin. Servs. Inc., 681 F. Supp.
771, 780-81 (S.D. Fla. 1987) (explaining that survey evidence is entitled to “slight weight” when it “derive[s]
from questions that were not asked in a specific, limited
and probative context, . . . and did not probe the
primary significance of the term” (internal quotation
marks omitted)).
Plaintiff also relies on the Teflon survey conducted
by Poret, which indicated that 74.8 percent of consumers
of online travel services recognize BOOKING.COM as a
brand. Pl. Mem. ¶ 4; id. at 29. Although primarily
used to determine whether a mark is generic, Teflon
surveys are also a generally accepted way of measuring
secondary meaning. See, e.g., Firefly Digital, Inc. v.
Google, Inc., No. CIV.A. 6:10-0133, 2011 WL 6160222, at
*5 (W.D. La. July 7, 2011); Schwan’s IP, LLC v. Kraft
Pizza Co., 379 F. Supp. 2d 1016, 1024 (D. Minn. 2005),
aff ’d, 460 F.3d 971 (8th Cir. 2006); March Madness Athletic Ass’n L.L.C. v. Netfire, Inc., 310 F. Supp. 2d 786,
809 (N.D. Tex. 2003), aff ’d, 120 F. App’x 540, 2005 WL
147264 (5th Cir. Jan. 24, 2005); see also Innovation Ventures, LLC v. NVE, Inc., 90 F. Supp. 3d 703, 720
(E.D. Mich. 2015) (finding a Teflon survey probative of
the strength of a protectable mark). In this Circuit,
“survey evidence is generally thought to be the most direct and persuasive way of establishing secondary
meaning.” U.S. Search, LLC, 300 F.3d at 526 n.13.
And Professor McCarthy has identified survey evidence
as one of a handful of types of direct evidence of consumer understanding—along with consumer testimony—
as compared to the other secondary meaning factors,

100a
which offer circumstantial evidence of brand recognition. 2 McCarthy on Trademarks § 15:30. Because
plaintiff ’s Teflon survey is the only evidence in the record that speaks directly to how consumers understand
plaintiff ’s mark, it weighs heavily in the secondary
meaning analysis and the survey’s finding that approximately three out of four consumers recognize BOOKING.
COM as a brand indicates strong brand awareness.
See IDV N. Am., Inc. v. S & M Brands, Inc., 26 F. Supp.
2d 815, 823 (E.D. Va. 1998) (holding that BAILEYS liqueurs had secondary meaning, based in part upon a
“51% consumer awareness rating”).
The third factor, record of sales success, is also wellestablished. Plaintiff ’s public filings reflect that its U.S.
customers conduct billions of dollars’ worth of transactions each year, Pl. Mem. ¶ 13, 17 and, as of 2013, plaintiff ’s total transaction value, both in the United States
and abroad, was over $8 billion, see Prakke Decl., A2522,
which is substantially higher than the sales success in
other cases where courts in this Circuit have found secondary meaning. See, e.g., Worsham Sprinkler Co. v.
Wes Worsham Fire Prot., LLC, 419 F. Supp. 2d 861,
869-72 (E.D. Va. 2006) (citing annual revenues averaging $18-20 million); IDV N. Am., Inc., 26 F. Supp. 2d at
823 (finding that BAILEYS liqueurs’ $1 billion in sales
over the course of a decade supported a finding of secondary meaning). In addition, plaintiff ’s mobile app,
BOOKING.COM annual sales revenues and gross transaction
value for the last three years were filed under seal because this information is “competitively valuable and commercially sensitive, and
its disclosure is likely to cause harm to the competitive position of
Booking.com.” [Dkt. No. 67] at 2. The Court is satisfied, based on
its review of the sealed filings, that Booking.com has presented compelling evidence of sales success.
17

101a
which can be used to search for hotels and make reservations, was downloaded approximately 1 million times
in 2014, 1.9 million times in 2015, and 2.5 million times
in 2016, Pl. Ex. A, Dunlap Decl. ¶ 7, which offers additional, circumstantial evidence of sales success and consumer brand recognition.
The fourth factor is unsolicited media coverage. In
2015 and 2016 the number of news articles published in
the United States referencing BOOKING.COM was
over 600 and 650, respectively. Pl. Ex. A, Dunlap Decl.
¶ 10. This compares very favorably to other cases
where courts have found that media coverage demonstrated that a brand had achieved public prominence.
Washington Speakers Bureau, Inc. v. Leading Authorities, Inc., 33 F. Supp. 2d 488, 496-97 (E.D. Va. 1999),
aff ’d, 217 F.3d 843 (4th Cir. 2000) (relying on evidence
that a “news database search offered by [the markholder]
disclosed hundreds of articles specifically referring to
[the service] and its activities”).
Plaintiff identifies no evidence of the fifth factor, attempts to plagiarize the mark. Pl. Mem. at 29. But, a
party need not prove all six factors and the Fourth Circuit has concluded that secondary meaning can exist
even when “no attempts to plagiarize the mark were
shown.” Perini, 915 F.2d at 126.
With respect to the sixth factor, length and exclusivity of use, plaintiff, which has been offering “online hotel
reservation service” since 1996, operated from “1996 to
June 2006 using the mark BOOKINGS. In June 2006,
[plaintiff ] modified its mark to BOOKING.COM and has
been providing services under that mark since then.”
Prakke Decl. A2522. Eleven years of uninterrupted use,
in conjunction with the other factors, weighs in favor of

102a
secondary meaning. See Teaching Co. P’ship v. Unapix
Entm’t, Inc., 87 F. Supp. 2d 567, 579-80 (E.D. Va. 2000)
(finding that secondary meaning existed in a mark that
had been used without interruption for eight years).
In addition, there is no evidence in the record that
“any other party offering travel agency services refers
to itself as a ‘Booking.com.’ ” Pl. Ex. C, Moskin Decl.
¶ 12. As previously discussed in the genericness evaluation, defendants point to fifteen third-party websites
that include “booking.com” or “bookings.com,” Def.
Mem. at 23, and one might argue that this is evidence
that plaintiff has not enjoyed exclusive use. This argument fails because the mere existence of a registered domain name or even a website does not equate to its use
as a “mark.” “[A] domain name does not become a
trademark or service mark unless it is also used to identify and distinguish the source of goods or services.”
1 McCarthy on Trademarks § 7:17.50. Out of the millions of domain names, only a fraction play the role of a
mark. Id. Indeed, the websites associated with the
domain names cited by the defendants identify their services not by reference to their domain name but by
phrases such as “Dream Vacation Booking” and “Vacation Home Booking.” Further, as explained above,
these websites are not actually referring to themselves
as “booking.coms,” therefore they are not using the
term either descriptively or as a mark.
Finally, plaintiff has adduced evidence of its substantial social media following. As of 2016, over 5 million
consumers had “liked” BOOKING.COM on Facebook

103a
and over 100,000 “followed” BOOKING.COM on Twitter. Pl. Ex. A, Dunlap Decl. ¶ 12c. 18 Although this evidence does not directly relate to any of the Perini factors, those factors are non-exhaustive, Shammas v. Rea,
978 F. Supp. 2d 599, 612 (E.D. Va. 2013), and, just as
unsolicited media coverage offers circumstantial evidence of consumer awareness of a brand, the size of a
producer’s social media following is indicative of the
number of consumers who are familiar with a brand, interested in receiving additional information about it, and
presumably tend to feel goodwill toward the producer.
In the face of this evidence, defendants argue that
“although [p]laintiff has provided documents related to
its commercial success, they do not demonstrate actual
market recognition of ‘booking.com’ as a source indicator.” Def. Mem. at 30. This argument ignores the direct evidence of consumer understanding established by
plaintiff ’s Teflon survey and appears to challenge the
very nature of the secondary meaning test, which
acknowledges that five of the six factors—advertising
expenditures, sales success, media coverage, attempts
to plagiarize, and exclusivity of use—are all circumstantial evidence. 2 McCarthy on Trademarks § 15:30.
Professor McCarthy acknowledges direct evidence “is
not a requirement and secondary meaning can be, and
most often is, proven by circumstantial evidence.” Id.
In addition, it defies logic to suggest that billions of consumer impressions through advertising, billions of dollars in sales, and over 1,000 newspaper articles have no
This number likely includes a number of non-U.S. consumers,
but even if only a fraction of these consumers were in the United
States, this data point would still indicate widespread awareness
among U.S. consumers.
18

104a
bearing on whether consumers understand BOOKING.
COM to be a source of reservation services. 19
b.

Class Specific Analysis

Having summarized the evidence of secondary
meaning, the next step is to consider what this evidence
means for the two classes of marks set forth in plaintiff ’s
applications. Unfortunately, the evidence does not
clearly differentiate between Class 39—travel agency
services—and Class 43—hotel reservation services.
Plaintiff ’s evidence often speaks simply of BOOKING.
COM, and, where it does differentiate, it refers only to
plaintiff ’s hotel reservation services. For example, the
Dunlap Declaration, which is the source of plaintiff ’s evidence regarding advertising, sales success, and unsolicited media coverage, describes plaintiff as “the worldwide leader in online accommodation reservation services” and reports that plaintiff enables customers to
make reservations at over “1,027,450 hotels and accommodation providers throughout the world.” Pl. Ex. A,
Dunlap Decl. ¶¶ 3, 5. Other than referencing Booking.
com’s receipt of the “World’s Leading Online Travel
Agency Website” award in 2014 and 2015, Dunlap’s declaration makes no reference to travel agency services.
Defendants also argue that “[u]se of a company name does not
demonstrate consumer recognition as a brand.” Def. Mem. at 30.
Defendants identifies no legal basis for drawing a distinction between a company name and a brand, nor is the Court aware of any.
See Sara Lee, 81 F.3d at 464 (recognizing that EXXON, POLAROID, and APPLE, all the names of major companies, are also
brands). Such a distinction might make sense in certain contexts.
For example, consumer recognition of the company name Procter &
Gamble would not necessarily be probative of consumer recognition
of its brands, such as DAWN for dish soap. But, here, the company
name and the brand name BOOKING.COM are one and the same.
19

105a
In addition, the Prakke Declaration, which establishes
the length and exclusivity of use, also portrays Booking.
com as an “online hotel reservation service,” explaining
that since 1996 plaintiff has been “providing hotels and
consumers alike with an online hotel reservation service
through which hotels all over the world can advertise
their rooms for reservation and through which consumers all over the world can make reservations.” A2522.
Likewise, plaintiff ’s Teflon survey characterized Booking.
com as providing “[h]otel and other lodging reservation
services.” Pl. Ex. 1, [Dkt. No. 64-1] at B-000055. In
light of the total absence of evidence that either the consuming public, or even Booking.com’s officers, associate
BOOKING.COM with travel agency services, plaintiff
has failed to carry its burden of establishing secondary
meaning as to Class 39. 20
Conversely, the record demonstrates strong evidence
of secondary meaning for Class 43 on five of the six secondary meaning factors: Plaintiff has established the existence of an extensive nationwide advertising campaign; a strong public perception that BOOKING.COM
is a brand identifier, as evidenced by the Teflon survey;
robust consumer sales; voluminous unsolicited media
coverage; and a decade of exclusive use. This evidence
is more than sufficient to demonstrate that “in the minds
of the public, the primary significance of ” BOOKING.
COM “is to identify the source of the product rather
than the product itself,” Sara Lee, 81 F.3d at 464, and
Plaintiff briefly argues that the mark BOOKING.COM is suggestive. Pl. Mem. at 28; Pl. Opp. at 11-2. A suggestive mark is
one that is “partially descriptive and partially fanciful.” Perini,
915 F.2d at 124. Plaintiff does not make a serious attempt to substantiate this claim, therefore the Court has not addressed it.
20

106a
that plaintiff ’s mark is entitled to protection for the services identified in Class 43, as a descriptive mark. 21
III.

CONCLUSION

The question of whether a TLD has source identifying significance is a question of first impression in this
Circuit. After carefully reviewing the Federal Circuit’s precedent on this issue, the purposes of the Lanham Act, and the competition-protecting features built
into the structure of trademark law, the Court has concluded both that a TLD generally has source identifying
significance and that a mark composed of a generic SLD
and a TLD is usually a descriptive mark eligible for protection upon a showing of secondary meaning. Applying these holdings to the facts of this case, the Court
holds that BOOKING.COM is a descriptive mark and
that plaintiff has carried its burden of demonstrating
the mark’s secondary meaning as to the hotel reservation services described in Class 43 but not as to the
travel agency services recited in Class 39.
For these reasons, in an order to be issued with this
Memorandum Opinion, plaintiff ’s Motion for Summary
Judgment will be granted in part and denied in part, defendants’ Motion for Summary Judgment will be
granted in part and denied in part, the USPTO will be
ordered to register BOOKING.COM as to the Class

Documents in the record indicate that plaintiff has trademark
registrations in the United Kingdom and New Zealand that are only
for Class 43, although there is no evidence as to whether plaintiff
sought protection for Class 39. A1557-60. In the European Union,
Booking has registered its mark in Classes 35, 39, and 43. A1548-53.
21

107a
43 services in the ’998 Application and ’097 Application, 22
and the Court will remand applications ’365 and ’366 to
the USPTO for further administrative proceedings consistent with the findings and conclusions of this Memorandum Opinion to determine whether the design and
color elements in those two applications, in combination
with the protectable word mark, are eligible for protection as to the Class 43 services. 23
Entered this 9th day of Aug., 2017.
Alexandria, Virginia
/s/ LMB
LEONIE M. BRINKEMA
United States District Judge

The ’998 Application sought registration for BOOKING.COM in
standard characters, as to the Class 43 services, therefore the Court’s
analysis of the wordmark is sufficient to conclude that it is entitled
to protection. A1-6. The ’097 Application involved design elements, specifically “a stylized depiction of the earth behind a briefcase,” and the examiner and the TTAB both found that the stylized
elements of the mark were registrable if plaintiff disclaimed the
word mark. A3765-66, A3801. Inferring that this requirement
demonstrates that the USPTO concluded that the stylized elements
of the mark were eligible for protection, the USPTO will also be ordered to grant the ’097 Application as to the Class 43 services.
23
Both the ’365 Application and ’366 Application include design elements. The ’365 application includes a specific font, with “Booking” in dark blue and “.com” in light blue, A2088-89, and the ’366
application includes the same font enclosed in a dark blue colored
box with the word “Booking” in white and “.com” in light blue, id.
The TTAB concluded that these design and color elements were
“not, in themselves, distinctive and that they therefore do not justify
registration of the mark.” A2122 (emphasis added).
22

108a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division

No. 1:16-cv-425 (LMB/IDD)
BOOKING.COM B.V., PLAINTIFF
v.
JOSEPH MATAL, PERFORMING THE FUNCTION AND
DUTIES OF THE UNDER SECRETARY OF COMMERCE
FOR INTELLECTUAL PROPERTY AND DIRECTOR OF THE
UNITED STATES PATENT AND TRADEMARK OFFICE,
ET AL., DEFENDANTS
[Filed: Oct. 26, 2017]
MEMORANDUM OPINION

This case involves plaintiff Booking.com B.V.’s
(“Booking” or “plaintiff ” ) appeals of the United States
Patent and Trademark Office’s (“USPTO” or “defendants”) refusal to register four marks consisting of or
containing the term BOOKING.COM, 1 which were affirmed by the Trademark Trial and Appeal Board
(“TTAB”) in three separate opinions. See Mem. Op. at
4-5 [Dkt. No. 87]. The parties submitted the issues on

The four trademark applications at issue were Serial No.
85485097 (the “ ’097 Application”); Serial No. 79114998 (the “ ’998 Application”); Serial No. 79122365 (the “ ’365 Application”); and Serial
No. 79122366 (the “ ’366 Application”).
1

109a
cross motions for summary judgment, which were partially granted in plaintiff ’s favor by an order directing
the USPTO to register plaintiff ’s marks in the ’998 and
’097 Applications, and remanding the ’365 and ’366 Applications for further administrative proceedings consistent with the Memorandum Opinion [Dkt. No. 88].
That decision is at issue in defendants’ Motion to Amend
Judgment [Dkt. No. 94] and defendants’ Motion for Expenses Pursuant to 15 U.S.C. § 1071(b)(3) [Dkt. No. 98]
which are before the Court. The motions have been
fully briefed. Finding that oral argument will not assist the decisional process, the motions will be resolved
on the materials submitted.
I.
A.

DISCUSSION

Defendants’ Motion to Amend Judgment

1)

Standard of Review

Motions to alter or amend final judgments under
Fed. R. Civ. P. 59(e) are discretionary and “need not be
granted unless the district court finds that there has
been an intervening change of controlling law, that new
evidence has become available, or that there is a need to
correct a clear error or prevent manifest injustice.”
Robinson v. Wix Filtration Corp., 599 F.3d 403, 411
(4th Cir. 2010). Reconsideration “is an extraordinary
remedy that should be applied sparingly.” Mayfield v.
Nat’l Ass’n for Stock Car Auto Racing, Inc., 674 F.3d
369, 378 (4th Cir. 2012). “[M]ere disagreement does
not support a Rule 59(e) motion.” United States ex rel.
Becker v. Westinghouse Savannah River Co., 305 F.3d
284, 290 (4th Cir. 2002) (quoting Hutchinson v. Staton,
994 F.2d 1076, 1082 (4th Cir. 1993)).

110a
2)

Analysis

The USPTO seeks a modification to the Order issued
on August 9, 2017 [Dkt. No. 88], which required the
USPTO to “register plaintiff ’s marks in the ’998 Application and ’097 Application as to the Class 43 services.”
It argues that the Court does not have authority to direct the USPTO to register a trademark because that
duty is imposed on the Director of the USPTO by statute. See Def.’s Mot. to Amend at 3 (citing Gould v.
Quigg, 822 F.2d 1074, 1079 (Fed. Cir. 1987)). Further,
it points out that the USPTO cannot statutorily register
a mark without publishing the application for opposition,
under 15 U.S.C. § 1062(a). Id. It requests that that
the Court alter its judgment to remand the ’998 and ’097
Applications to the USPTO for “further administrative
proceedings consistent with the findings and conclusions of the Court’s memorandum opinion.” Id.
Booking agrees that the Court cannot order the
USPTO to register the mark, but responds that there
are no further “administrative proceedings,” and the
only course of conduct open to the USPTO is to publish
the marks for opposition. Pl.’s Partial Opp. to Mot.
Amend at 2 [Dkt. No. 97]. Booking argues that because the Court addressed all issues of fact and law with
respect to the two Applications, there is nothing left for
the agency to consider and it must follow its statutory
mandate to publish the marks for opposition. Id. at
2-3.
Booking has the better argument. Under 15 U.S.C.
§ 1062(a), once an examiner determines that a trademark application appears to be entitled to registration,
“the Director shall cause the mark to be published in the
Official Gazette of the Patent and Trademark Office.”

111a
15 U.S.C. § 1062(a) (emphasis added). Moreover, the
USPTO’s Trademark Manual of Examining Procedure
(“TMEP”) § 1708, provides that “[t]he Director has no
authority to waive or suspend the requirement of a rule
that is also a requirement of the statute.” TMEP
§ 1708. The clear statutory requirement, based on this
Court’s determination that the ’998 and ’097 Applications are entitled to protection is to move forward and
publish the marks for opposition.
This view as to the appropriate procedure is supported by the Federal Circuit’s decision in In re Wella
A.G., 858 F.2d 725 (Fed. Cir. 1988). In that case, the
Federal Circuit reversed the refusal of the TTAB to register a trademark because the court found that the
TTAB had misinterpreted § 2(d) of the Trademark Act
and held that “the only issue for the [TTAB] to consider
on the remand is whether, considering all the circumstances, there is a likelihood of confusion between the
mark sought to be registered and the four Wella U.S.
marks which under section 2(d) would warrant refusal
of registration.” Id. at 726. After the case was remanded, the TTAB denied registration on a new and
separate ground that the applicant was not the owner of
the mark, based on “additional views” of another judge
appended to the opinion. Id. at 727. The applicant
appealed again, and the court held that in refusing the
mark on a new ground that had not been raised in the
prior administrative proceeding or in the first appeal,
the TTAB failed to carry out the court’s instructions.
Id. at 728.
In this case, the Court has gone further than the Federal Circuit did by determining that both the ’998 and
’097 Applications are eligible for protection under the

112a
Trademark Act. See Mem. Op. at 50; see also Swatch
AG v. Beehive Wholesale, LLC, 739 F.3d 150, 155 (4th Cir.
2014) (finding that in de novo review of USPTO decisions, the district court acts as trier of fact). Given
those conclusions, the USPTO may not reconsider the
factual findings or try to determine new grounds to refuse registration of the marks, but must proceed with
the next statutory step in the registration process by
publishing the two marks for opposition. 15 U.S.C.
§ 1062(a).
The issues involved in the cases defendants cite for
the proposition that the Court’s authority is limited to
remanding the Applications to the agency for further action consistent with the corrected legal standards are
distinguishable. For example, in PPG Industries, Inc.
v. United States, the D.C. Circuit explained that there is
no principal of administrative law that restricts an
agency from reopening proceedings to take new evidence after the grounds on which it relied are found to
be invalid. 52 F.3d 363, 365 (D.C. Cir. 1995). The
court held that the agency should be allowed to take new
evidence to determine whether its jurisdictional decision was valid. Id. at 366. Here, there is no new evidence for the USPTO to take on the issue of eligibility
for registration of the ’998 or ’097 Applications. As
agreed by the parties, the Court resolved all factual disputes in making its ruling on summary judgment. See
Mem. Op. at 6 & n.2 (“[I]n a civil action under § 1071(b),
the district court reviews the record de novo and acts as
the finder of fact.”).
In certain situations, remand for further administrative action is appropriate, as when the agency in ques-

113a
tion is vested with discretion in its chosen course of conduct. See NLRB v. Food Store Emps. Union, Local
347, 417 U.S. 1, 10-11 (1974) (holding that remand is proper “when a reviewing court concludes that an agency
invested with broad discretion to fashion remedies has
apparently abused that discretion by omitting a remedy
justified in the court’s view by the factual circumstances”). See also FCC v. Pottsville Broadcasting
Co., 309 U.S. 134 (1940), in which the plaintiff initially
appealed the FCC’s denial of its application to construct
a broadcasting station. Id. at 139-40. The D.C. Circuit reversed the FCC’s decision and remanded the matter back to the agency for further proceedings. Id. at
140. On remand, the FCC decided to hear argument
on plaintiff ’s application along with argument on two
other applications that had been filed after the plaintiff ’s to determine which, “on a comparative basis in the
judgment of the Commission will best serve [sic] public
interest.” Id. Although the plaintiff objected that
the FCC’s conduct violated the remand and sought a
writ of mandamus ordering the FCC to consider its application irrespective of the other two applications, the
Supreme Court rejected this argument, holding that the
only questions that had been determined in the original
proceedings were legal questions and that the FCC was
statutorily charged with “the duty of judging application[s] in the light of ‘public convenience, interest, or necessity.” Id. at 145. The Court held that it was improper for a court to make these decisions whereas the
FCC was duty bound to enforce the legislative policy
committed to its charge. Id. In contrast with the duty
of the FCC in Pottsville Broadcasting, the only option
available to the USPTO based on the findings of this
Court is to publish the marks for opposition because all

114a
factual issues of eligibility have been resolved, and
therefore the “legislative policy” of the USPTO is to
publish the marks. See 15 U.S.C. § 1062(a).
Indeed, the USPTO has not identified any other proceeding or administrative procedure that it would need
to undertake before publishing the marks. Its only argument is that the agency still has discretion to determine the manner and timing of further proceedings.
See Def.’s Reply at 3. Defendants argue that the agency
still retains discretion to “determine the manner and
timing” of its own proceedings, citing 37 C.F.R. § 2.67,
which allows the USPTO to suspend its actions “for a
reasonable time for good and sufficient cause.” See
Def.’s Mot. to Amend at 5. “The fact that a proceeding
is pending before the Patent and Trademark Office or a
court which is relevant to the issue of registrability of
the applicant’s mark . . . will be considered prima
facie good and sufficient cause.” 37 C.F.R. § 2.67.
The USPTO claims that it does not act on orders involving applications or registrations until the time for an appeal has elapsed, and that this constitutes sufficient
cause for it to delay publication of the marks at issue.
Def.’s Reply [Dkt. No. 101] at 3.
This argument is unpersuasive. The regulation only
states that actual pendency of a proceeding before the
Patent and Trademark Office constitutes sufficient
cause. Until the USPTO or the Solicitor General chooses
to file an appeal, there is no pending proceeding. The
USPTO points to no authority which holds that the government’s own internal deliberations constitute “proceedings” within the meaning of the regulation. Should the
USPTO file an appeal to the Fourth Circuit, there would

115a
be a pending proceeding sufficient to justify delaying
any action by the agency.
In its opposition, Booking argues that the judgment
should be amended to order USPTO to publish all four
Applications, including the ’365 and ’366 Applications,
for opposition. This ignores the Court’s findings with
respect to those two separate Applications. Section
1062(a) only requires the USPTO to publish marks for
opposition after the examiner has determined that it appears the mark is “entitled to registration, or would be
entitled to registration upon the acceptance of the statement of use.” Here, the Court did not find that the
’365 and ’366 Applications were entitled to registration.
Instead, the Court specifically remanded those Applications to the USPTO for administrative proceedings “to
determine whether the design and color elements in
those two applications, in combination with the protectable word mark, are eligible for protection as to the
Class 43 services.” See Mem. Op. at 50-51 & n.23. 2
There was no determination that these Applications
should be registered. Because Booking offers no argument as to why the judgment with respect to the ’365 or
’366 Applications should be amended, the Court declines
to amend the judgment in this manner.
Further, as the USPTO points out, if Booking’s response is intended as a separate motion to amend the
judgment under Rule 59(e), it is untimely. Rule 59(e)
allows for a motion to amend to be filed no later than
28 days after the entry of the judgment; under Rule 6,

Both the ’365 and ’366 Applications include design elements that
the TTAB concluded were “not in themselves, distinctive and that
they therefore do not justify registration of the mark.” A2122.
2

116a
this time may not be extended. The judgment was entered on August 9, 2017. [Dkt. No. 88]. Booking filed
its response on September 13, 2017, which is over the
28 day time period to file such a motion. For these reasons, defendants’ Motion to Amend Judgment [Dkt. No.
94] will be granted only as to amending the judgment to
direct that the ’998 and ’097 Applications be immediately
published in the Official Gazette of the Patent and
Trademark Office and denied in all other respects.
B.

Motion for Expenses

The USPTO has also moved for an order pursuant to
15 U.S.C. § 107l(b)(3) requiring Booking to pay $76,873.61,
which reflects the USPTO’s “expenses of the proceeding.” Def.’s Mot. Expenses at 1-2.3 The USPTO argues
that these “reasonable expenses” include “the salaries
of the PTO’s attorney and paralegals attributed to the
defense of the action,” payments to expert witnesses,
printing expenses, and travel expenses. Id. at 5. Section 1071(b)(3) provides that “all the expenses of the
proceeding shall be paid by the party bringing the case,
whether the final decision is in favor of such party or
not.” The Fourth Circuit has interpreted this statute
to include all of the reasonable expenses of the USPTO,
including its personnel expenses, incurred during the
litigation. See Shammas v. Focarino, 784 F.3d 219,
222-27 (4th Cir. 2015).
Booking objects to the motion, arguing that the motion for expenses violates the “American Rule;” that

This total amount consists of: $1,660.05 in court reporter and
transcription expenses; $21,750.00 in expert fees; and $51,472.53 in
attorney/paralegal fees.
3

117a
§ 1071(b)(3) violates the First Amendment right of access to the courts; that the requested fees are not of this
proceeding and are not reasonable; and that there is no
basis to require it to pay the USPTO’s expert witness
fees. Pl.’s Opp. to Mot. Expenses at 2-4 [Dkt. No. 102].
1.

The American Rule

Booking first argues that the term “expenses” as
used in § 1071(b)(3) is not specific enough to warrant departure from the American Rule, which provides that
“each litigant pays his own attorney’s fees, win or lose,
unless a statute or contract provides otherwise.” Hardt
v. Reliance Standard Life Ins. Co., 560 U.S. 242, 252-53
(2010); In re Crescent City Estates, LLC, 588 F.3d 822,
825 (4th Cir. 2009).
Based on Fourth Circuit precedent, this argument
fails. In Shammas v. Focarino, the Fourth Circuit examined a fee petition under § 1071(b)(3) and found that
“in ordinary parlance, ‘expenses’ is sufficiently broad to
include attorney’s fees and paralegals fees,” relying, in
part, on definitions and explanations that standard legal
dictionaries and treatises provide for the term “expense.”
784 F.3d at 222. Those resources include Wright &
Miller on Federal Practice and Procedure which defines
“expenses” as “includ[ing] all the expenditures actually
made by a litigant in connection with the action,” including “attorney’s fees.” 10 CHARLES ALAN WRIGHT ET AL.,
FEDERAL PRACTICE AND PROCEDURE § 2666 (3d ed.
1998). Similarly, Black’s Law Dictionary defines “expenses” as “expenditure[s] of money, time, labor, or resources to accomplish a result.” BLACK’S LAW DICTIONARY 698 (10th ed. 2014) (emphasis added). As the
Fourth Circuit pointed out, the statute also “modified
the term ‘expenses’ with the term ‘all,’ clearly indicating

118a
that the common meaning of the term ‘expenses’ should
not be limited.” Shammas, 784 F.3d at 222. Furthermore, “even though the PTO’s attorneys [are] salaried,
. . . the PTO nonetheless incur[s] expenses when its
attorneys [are] required to defend the [PTO] in the district court proceedings, because their engagement divert[s] the PTO’s resources from other endeavors.” Id.
As a result, the Fourth Circuit held that “§ 1071(b)(3)
requires a dissatisfied . . . trademark applicant who
chooses to file an action in district court challenging the
final decision of the PTO, to pay, as ‘all expenses of the
proceeding,’ the salaries of the PTO’s attorneys and paralegals attributed to the defense of the action.” Id. at
227; see also Robertson v. Cooper, 46 F.2d 766, 767, 769
(4th Cir. 1931) (holding that, under a previous version of
35 U.S.C. § 145, the analogous patent provision, the
word “ ‘expenses’ [includes] more than that which is ordinarily included in the word ‘costs,’ ” and as a result the
PTO could recover an attorney’s travel expenses).
Moreover, the Fourth Circuit decided that “the
American Rule [] applies only where the award of attorneys fees turns on whether a party seeking fees has prevailed to at least some degree.” Shammas, 784 F.3d at
223. The court went on to conclude “[t]hus a statute
that mandates the payment of attorneys fees without regard to a party’s success is not a fee-shifting statute that
operates against the backdrop of the American Rule.”
Id. The Fourth Circuit relied, in part on the history of
the Lanham Act to reach this conclusion, recognizing
that § 1071(b)(3) originated from a similar provision in
the Patent Act of 1836, and an amendment to that Act
which established “a fund for the payment of the salaries
of the officers and clerks herein provided for, and all
other expenses of the Patent Office.” Id. at 226 (citing

119a
Act of July 4, 1836, ch. 357, § 9, 5 Stat. 117, 121) (emphasis added). That provision demonstrates that Congress intended that the term “expenses,” as used in the
Patent Act and later in the Lanham Act, contemplated
that “expenses” should include the salaries of the agency
employees. See id. at 226-27 (explaining that the Lanham Act incorporated the provisions of the Patent Act
and allowed judicial review “under the same conditions,
rules, and procedure[s] as are prescribed in the case of
patent appeals or proceedings”).
Booking contends that the Fourth Circuit’s analysis
in Shammas has been overruled by the recent Supreme
Court decision in Baker Botts L.L.P. v. ASARCO LLC,
135 S. Ct. 2158 (2015), which addressed the proper interpretation of § 330(a)(l) of the Bankruptcy Code. That
case involved determining whether the phrase “reasonable compensation for actual, necessary services,” which
unquestionably allows attorneys to be compensated for
services rendered in connection with the administration
of a bankruptcy estate, also permits the attorneys to recover fees incurred in successfully defending their fee
application. 135 S. Ct. at 2162-63. The Supreme Court
held that the phrase did not authorize recovery of the
fees the attorneys incurred in defending their compensation claim against the losing party, finding that deviations from the American Rule require “explicit statutory
authority.” Id. at 2163 (quoting Buckhannon Bd. &
Care Home, Inc. v. W. Va. Dep’t of Health & Human
Res., 532 U.S. 598, 602 (2001)).
Baker Botts is not directly on point because it only
interpreted provisions of the Bankruptcy Code, not the
Trademark Act, see 135 S. Ct. at 2162, and its narrow
holding is that § 330(a)(l) of the Bankruptcy Code does

120a
not permit a bankruptcy court to award attorneys’ fees
for work performed in defending a fee application. Id.
In contrast, the Fourth Circuit decision in Shammas is
directly addressed whether 15 U.S.C. § 1071(b)(3) allows
for the award of attorney fees and concluded that it
does. 738 F.3d at 222. Because Baker Botts is not
clearly contrary to the Fourth Circuit’s decision, it cannot be said that Baker Botts overruled Shammas. See
Shammas v. Lee, 187 F. Supp. 3d 659, 663 (E.D. Va.
2016) (reaching the same conclusion). 4
Moreover, the Supreme Court has interpreted “expenses” to be a more broad term than “costs.” See,
e.g., Taniguchi v. Kan Pacific Saipan, Ltd., 132 S. Ct.
1997, 2006 (2012). In Taniguchi, the Court specifically
distinguished “expenses” from the more limited term
“costs,” explaining that “costs” represents only a fraction
of “expenses,” relying specifically on the 1998 Wright &
Miller treatise:
Although costs has an everyday meaning synonymous with expenses, the concept of taxable costs
. . . is more limited. . . .
Taxable costs are
limited to relatively minor, incidental expenses[;]
Both the plaintiff and the USPTO in the Shammas case addressed the impact of Baker Botts while the Fourth Circuit considered rehearing, and again before the district court on a motion to
vacate. See, e.g., Shammas v. Lee, 187 F. Supp. 3d 659, 662 (E.D. Va.
2016); Petition for Rehearing and Rehearing En Banc, Shammas v.
Focarino, 738 F.3d 217 (4th Cir. 2015) (Dkt No. 42). The Fourth
Circuit summarily denied the petitions for rehearing and summarily
affirmed the district court’s denial of the motion to vacate, impliedly
rejecting the argument that Baker Botts affected its reasoning.
See Shammas v. Lee, 683 F. App’x 195 (4th Cir. 2017) (unpublished).
4

121a
. . . such items as clerk fees, court reporter fees,
expenses for printing and witnesses, expenses for exemplification and copies, docket fees, and compensation of court-appointed experts.
. . .
Taxable
costs are a fraction of the nontaxable expenses borne
by litigants for attorneys, experts, consultants, and
investigators. Id. at 2006 (emphasis added).
No party has identified any contrary authority in which
the Supreme Court has held that the term “expense”
categorically excludes attorneys’ fees.
Booking relies on the district court opinion in
Nantkwest, Inc. v. Lee, 162 F. Supp. 3d 540, 543
(E.D. Va. 2016) to support its interpretation of Baker
Botts and its effect on Shammas. In that case, which
involved 35 U.S.C. § 145, the analogous fee-shifting statute for patent cases, the court found that the statute did
not explicitly allow for the award of attorneys’ fees
under the Supreme Court’s rationale in Baker Botts.
162 F. Supp. 3d at 543. The Nankwest court reasoned
that if Congress intends to provide for an award of attorneys’ fees, it either explicitly states so using the language “attorney’s fees,” or when using a broad term like
“costs” or “expenses,” modifies the term to clarify its
meaning. See id. (citing 11 U.S.C. § 363(n) (authorizing
recovery of “any costs, attorneys’ fees, or expenses incurred”); 12 U.S.C. § 1464(d)(l)(B)(vii) (at the court’s
discretion, obligating federal savings associations to pay
“reasonable expenses and attorneys’ fees” in enforcement actions); 26 U.S.C. § 6673(a)(2)(A) (requiring lawyers who cause excessive costs to pay “excess costs, expenses, and attorneys’ fees”); Fed. R. Civ. P. 37(a)(5)(A)
(requiring party at fault to pay “reasonable expenses
. . . including attorney’s fees”)). This decision has

122a
been reversed by a panel of the Federal Circuit, which
expressed serious doubts about whether the American
Rule applied to § 145 when, like § 1071(b)(3), the provision makes no reference to prevailing parties. See
Nantkwest, Inc. v. Matal, 860 F.3d 1352, 1355 (Fed. Cir.
2017). The panel decision, in turn, has been vacated,
pending en banc review by the Federal Circuit. See
Nantkwest, Inc. v. Matal, 869 F.3d 1327 (Fed. Cir. 2017).
Although the issue of whether attorneys’ fees are recoverable is unclear as to § 145, the law in this circuit, reflected in the Fourth Circuit’s Shammas decision, compels the Court to find that defendants’ attorneys’ fees
are recoverable under § 1071(b)(3). 5
2.

The Constitutionality of § 1071(b)(3)

Plaintiff further contends that § 1071(b)(3) violates
the First Amendment by interfering with the right to
access the courts. Essentially, it argues that by imposing the USPTO’s expenses on even a successful party,
the statute unconstitutionally burdens an applicant’s
right to seek judicial review of USPTO decisions. Although the Supreme Court has recognized that “the
right of access to the courts is an aspect of the First
Amendment right to petition the Government for redress of grievances,” Bill Johnson’s Restaurants, Inc. v.
NLRB, 461 U.S. 731, 741 (1988), this right is not unrestricted, but rather is subject to Congress’s power to set

Although the Federal Circuit’s en banc decision in Nantkwest v.
Matal would be persuasive authority on the question presented here,
the USPTO correctly points out that it would not be controlling in
this context. See Def.’s Mot. Expenses at 8 n.1. Only the Fourth
Circuit sitting en banc or the Supreme Court could directly overrule
Shammas.
5

123a
limits on the jurisdiction of the federal judiciary. Congress is neither “constitutionally required to create Article III courts to hear and decide cases within the judicial power of the United States,” nor to vest those courts
that are created “with all the jurisdiction it was authorized to bestow under Article III.” Palmore v. United
States, 411 U.S. 389, 400-01 (1973). Congress may constitutionally limit access to certain courts, and may constitutionally impose some costs on a litigant’s access.
See United States v. Kras, 409 U.S. 434, 450 (1973) (refusing to adopt an “unlimited rule that a [litigant] at all
times and in all cases has the right to relief without the
payment of fees.”).
The Seventh Circuit directly addressed the question
of whether fee-shifting statutes are constitutional under
the First Amendment’s Petition clause in Premier Electrical Construction Co. v. National Electrical Contractors Ass’n, which concluded that “the proposition that
the first amendment, or any other part of the Constitution, prohibits or even has anything to say about feeshifting statutes in litigation seems too farfetched to require extended analysis.” 814 F.2d 358, 373 (7th Cir.
1987). That court correctly recognized that the imposition of costs or expenses to exercise a right cannot, in
and of itself, violate the First Amendment. Id. (“The
exercise of rights may be costly, and the first amendment does not prevent the government from requiring a
person to pay the costs incurred in exercising a right.”).
Indeed, extending Booking’s argument to its logical conclusion would also call into question the constitutionality
of filing fees, statutory costs under 28 U.S.C. § 1920,
costs for discovery requests, and other expenses that
necessarily place a burden on a litigant’s access to a

124a
court. It is well-settled that these types of reasonable expenses are constitutional. See, e.g., Roller v. Gunn,
107 F. 3d 227, 238 (4th Cir. 1997) (“If we were to adopt
Roller’s argument, all filing fees would be unconstitutional, which, of course, they are not.”); Whittington v.
Maes, 655 F. App’x 691, 698-99 (10th Cir. 2016) (holding
that mandatory court filing fees do not violate the First
Amendment).6
Additionally, the USPTO is funded by user fees. See
Leahy-Smith America Invents Act, Pub. L. No. 112-29,
§ 10, 125 Stat. 284, 316 (2011) (recognizing the USPTO
as exclusively an applicant-funded agency); Figueroa v.
United States, 466 F.3d 1023, 1028 (Fed. Cir. 2006). If
it were required to defend each of its denial decisions in
a de novo civil action, each applicant’s fees would have
to be substantially increased. Section 107l(b)(3) was
intended to be a “straightforward funding provision, designed to relieve the PTO of the financial burden that
results from an applicant’s election to pursue the more
expensive district court litigation.” Shammas, 784 F.3d
at 226; see also Hyatt, 625 F.3d at 1337. As these types
The Supreme Court has struck down filing fee requirements in
certain state court cases involving domestic disputes; however, these
cases address situations where a filing fee presents an insurmountable barrier to the protection of certain fundamental rights. For
example, in M.L.B. v. S.L.J., 519 U.S. 102 (1996), the Supreme Court
held that Mississippi could not condition an appeal from the termination of parental rights on the payment of a record preparation fee.
Similarly, in Boddie v. Connecticut, 401 U.S. 371 (1971), the Court
held that Connecticut could not deny a married couple access to divorce proceedings due to an inability to pay court fees. The Court
has made clear that in “the mine run of cases” which do not involve
“state controls or intrusions on family relationships” filing fees may
be required. See M.L.B., 519 U.S. at 123.
6

125a
of economic decisions are well within the constitutional
authority of Congress, Booking’s constitutional argument fails. See Cox v. New Hampshire, 312 U.S. 569,
577 (1941) (holding that a governmental decision to impose fees on the exercise of First Amendment rights is
constitutional if the fee is designed “to meet the expense incident to the administration of the act and to
the maintenance of public order”); Kwong v. Bloomberg, 723 F.3d 160, 165 (2d Cir. 2013) (discussing Supreme Court cases regarding the constitutionality of
governmental fees assessed in connection with activities protected by the First Amendment).
Plaintiff relies on BE & K Construction Co. v. NLRB
and the Noerr/Pennington doctrine to support its position. In BE & K Construction, the Supreme Court held
that, under the First Amendment, an employer’s unsuccessful retaliatory lawsuit against unions could not
serve as a basis for the NLRB to impose an administrative penalty, absent a finding that suit was also objectively baseless. 536 U.S. 516, 524 (2002); see also
Darveau v. Detcon, Inc., 515 F.3d 334, 341 (4th Cir. 2008)
(stressing that BE & K Construction affirms that “only
those lawsuits that are retaliatory in intent and baseless
in fact or law do not implicate First Amendment . . .
concerns”). Similarly the Noerr/Pennington doctrine
safeguards the First Amendment right to “petition the
government for a redress of grievances” by immunizing
citizens from antitrust liability that may attend the exercise of that right. See Eastern R.R. Presidents Conference v. Noerr Motor Freight, 365 U.S. 127, 138 (1961);
Waugh Chapel S., LLC v. United Food & Commercial
Workers Union Local 27, 728 F.3d 354, 362 (4th Cir.
2013). The Supreme Court has since extended the
Noerr/Pennington doctrine to encompass “the approach

126a
of citizens . . . to administrative agencies and to the
courts.” Cal. Motor Transp. Co. v. Trucking Unlimited,
404 U.S. 508, 510 (1972). Plaintiff argues that under
these precedents, § 1071(b)(3) fails to provide “the
breathing space essential to [the] fruitful exercise” of
the right to petition. See Pl.’s Opp. to Mot. Expenses at
16 (quoting BE & K Construction Co, 536 U.S. at 531).
This argument is unpersuasive. As an initial matter,
there is an obvious distinction in context. The Noerr/
Pennington doctrine and BE & K Construction Co. address the ability of federal agencies or individuals to penalize an entity for filing a lawsuit (to which the agency
was not a party). See, e.g., BE & K Construction,
536 U.S. at 524; Cal. Motor Transp. Co., 404 U.S. at 510
(addressing whether a group of highway carriers could
maintain an allegation of conspiracy to monopolize against
competitors who organized to institute state and federal
court proceedings to defeat applications by the plaintiffs).
Nothing in that jurisprudence addresses whether Congress can constitutionally decide to require a party to
pay “expenses” as part of filing a civil action in a district
court. Indeed, as addressed above, multiple courts have
held that Congress can impose such requirements as
part of its constitutional power over the jurisdiction of
federal courts. See
Further, Booking fails to properly recognize that, in
this context, Congress has provided a means to access
the federal courts for review of USPTO decisions that
does not require the applicant to reimburse expenses.
To avoid paying the USPTO’s expenses, an applicant
may appeal directly to the Federal Circuit. See 15 U.S.C.
§ 1071(a). Both the Fourth Circuit and Federal Circuit
have recognized that this alternative is the essence of

127a
the judicial review scheme created by Congress for disappointed applicants in both the trademark and patent
contexts. See Shammas, 784 F.3d at 225 (“If the dissatisfied applicant does not wish to pay the expenses of
a de novo civil action, he may appeal the adverse decision of the PTO to the Federal Circuit.”); Hyatt v. Kappos, 625 F.3d 1320, 1337 (Fed. Cir. 2010). Indeed, the
Federal Circuit stated that the alternative review scheme
was enacted to “deter applicants from exactly this type
of procedural gaming.” Hyatt, 625 F.3d at 1337. Although review in the Federal Circuit of agency action is
subject to a more deferential standard than in the district court, the agency’s decision is still subject to robust
judicial scrutiny. Given the clear weight of authority,
the Court finds that requiring disappointed applications
who opt to have de novo review of the USPTO’s decision
to pay the USPTO’s expenses incurred in defending its
decision does not violate the First Amendment.
3.

Reasonableness of Expenses

Plaintiff further claims that, even if § 1071(b)(3) does
include the USPTO’s attorneys’ fees, those fees are
“fixed costs . . . little different from utility expenses,”
because the USPTO would have paid the attorney’s salaries regardless of whether this proceeding occurred.
Pl.’s Opp. to Mot. Expenses at 17. Therefore, salaries
cannot be “of this proceeding” as required under
§ 1071(b)(3). Id.
This argument fails. Courts have awarded similar relief in the context of other salaried attorneys. See Shammas, 784 F.3d at 223 (recognizing that the USPTO “incurred expenses when its attorneys were required to defend the Director in the district court proceedings, because their engagement diverted the PTO’s resources

128a
from other endeavors”); Raney v. Fed. Bureau of Prisons, 222 F.3d 927, 935 (Fed. Cir. 2000) (awarding salaried union attorneys an apportionment of their salaries
because the litigation required the lawyers to divert their
time away from other pending matters); Wisconsin v.
Hotline Indus., Inc., 236 F.3d 363, 365-66 (7th Cir. 2000)
(holding that salaried government employees could recover their fees as they relate to the government’s opposition to an improper removal of a state court case).
Moreover, Booking cannot credibly dispute that the
USPTO attorneys and paralegals dedicated time and resources to defend this litigation when they could have
otherwise applied those resources to other matters.
Booking essentially endorses a rule that would theoretically permit an award if the USPTO retained outside
counsel to defend its interests but not if it elected to proceed on its own. Logically, the meaning of “of the proceedings” cannot turn on the type of attorneys retained
to defend the government’s interests. As the Federal
Circuit has recognized, courts “must equally regard salaried attorneys’ time” and “tak[e] into account the opportunity costs involved in devoting attorney time to one
case when it could be devoted to others.” Nantkwest,
Inc. v. Matal, 860 F.3d 1352, 1360 (Fed. Cir. 2017) (quoting Raney, 222 F.3d at 934-35). Here, the USPTO attorneys and paralegals were diverted from other tasks
and activities as a result of this litigation, therefore, the
costs associated with their time are properly considered
“expenses of this proceeding.”
Booking also challenges the USPTO’s request on the
basis that the amount sought is not reasonable. A
party seeking to recover fees bears the burden of
demonstrating that those fees are reasonable. See

129a
Hensley v. Eckerhart, 461 U.S. 424, 437 (1983). A reasonable fee request should exclude “hours that are excessive, redundant, or otherwise unnecessary.” Id.
Booking’s primary argument is that the documentation
submitted by the USPTO is insufficient to demonstrate
that its request is reasonable. Courts have rejected fee
requests on the basis of inadequate descriptions, where
such descriptions have failed to provide sufficient information to determine why the time was necessary or relevant. See, e.g., Zhang v. GC Servs., LP, 537 F. Supp.
2d at 814-15 (E.D. Va. 2008); Pinpoint IT Servs. LLC v.
Atlas IT Exp. Corp., No. 2:10-cv-516, 2012 WL 4475334,
at *6 (E.D. Va. Sept. 27, 2012) (refusing to grant attorneys’ fees for tasks that had a general description such
as “formulate response”).
With its motion, the USPTO submitted a salary chart
for each of the employees who worked on this matter:
USPTO employee

(hours & hour rate)

Personnel expense

Mary Beth Walker,
Attorney

(418 hours)
($75.69/hr.)

$ 31,638.42

Molly R. Silfen,
Second Chair

(89.5 hours)
($76.81/hr.)

$ 6,874.46

Christina J. Hieber,
Senior Counsel for
Trademark

(29 hours)
($81.43/hr.)

$ 2,361.47

Thomas L. Casagrande,
Deposition Counsel

(26 hours)
($76.81/hr.)

$ 1,997.06

Marynelle Wilson,
Associate

(137 hours)
($52.17/hr.)

$ 7,147.29

130a
Macia Fletcher,
Paralegal
Total USPTO
Personnel
Expenses

(31.75 hours)
($45.79/hr.)

$ 1,453.83
$ 51,472.53

See Def ’s Mot. Expenses at 9. Each employee provided a sworn declaration stating their annual salary at
the time of the litigation and the number of hours spent
on this civil action and, in its reply memorandum, the
USPTO supplemented the record with more detailed explanations of each employee’s tasks, based upon review
of “contemporaneously created records.” Def.’s Reply
Supp. Mot. Expenses at 17.
Booking argues that the time records attached to the
USPTO’s motion do not include sufficient information,
containing only generic descriptions such as “[l]itigate
and support IP legal actions—dist ct—Sect 1071(b).”
See Pl’s Opp. to Mot. Expenses at 20; Def.’s Mot. Expenses, Ex. D. at 5. Additionally, it contends that some
of the arguments developed by the USPTO, such as the
standard of review that should apply, were found by the
Court to be “indefensible,” see Mem. Op. at 6 n.2 [Dkt.
No 87], and the USPTO should not be reimbursed for
time spent developing such arguments. Similarly, Booking points out that there is evidence of “over-staffing”
because there were six individuals recording time on this
matter. See Pl’s Opp. Mot. to Expenses at 23; see also
Pinpoint IT Servs., LLC, 2012 WL 4475334, at *7 (discounting attorney fee award due to “overconferencing”).
A similar challenge to the nature of documentation
that the USPTO has submitted to support its personnel
expenses has been rejected in this district. In Realvirt

131a
LLC v. Lee, the court found that “the level of specificity” requested “is not required because the PTO attorneys and paralegals are salaried government employees.” 220 F. Supp. 3d 695, 703 (E.D. Va. 2016) As such,
the USPTO must use “the actual salaries of the lawyers
and paralegal[s] instead of prevailing market rates” to
calculate the attorneys’ fees, thereby allowing the PTO
to be reimbursed for “the portion of its attorneys’ [and
paralegals’] salaries that were dedicated to this proceeding.” Id. at 703-04. The court concluded that the
“sworn declarations stating annual salaries and the
hours spent on the case . . . adequately support[ed]
the PTO’s requested” fees. Id.
Further, the records submitted demonstrate that
there was a reasonable amount of time spent on each of
the various discovery motions, depositions, and briefing.
The USPTO explains that its personnel system does not
allow for individual entries for the specific “tasks performed” or other specific time records like private law
firms, id. at 16, and points out that it attempted to minimize the expenses in this litigation, for example by offering a briefing schedule limited to two briefs per side,
rather than the three insisted upon by plaintiff. See id.
at 18. The USPTO’s attorneys’ declarations do not show
any cumulative time spent on the same task by multiple
attorneys. Based on this analysis, the documentation
submitted is sufficient to justify awarding the USPTO
the full amount of the attorneys’ fees requested.7
Booking does not argue that the attorneys’ hourly rates are
unreasonable. Indeed, the hourly rate being charged is far lower
than the reasonable rates that have been adopted in this district for
private attorneys. See Vienna Metro LLC v. Pulte Home Corp.,
No. 1:10-cv-502, Dkt. No. 263 (E.D. Va. Aug. 24, 2011) (finding that,
7

132a
Booking further contends that there is “no statutory
basis” on which to award the USPTO its expert fees, citing 28 USC § 1920, which allows a recovery of expert
witness fees only where the expert is court appointed.
See Pl.’s Opp. to Mot. Expenses at 24-25. It also argues that the USPTO’s citation to Taniguichi is not supportive because that case “merely distinguished the
statutory meaning of ‘costs’ from the normal everyday
meaning of ‘expenses.’ ” Id. at 25.
This argument is plainly incorrect. As discussed
above, in Shammas, the Fourth Circuit broadly interpreted the term “expenses” as used in § 1071 (b)(3) to be
consistent with its ordinary meaning, and to include fees
for both attorneys and experts. Shammas, 784 F.3d at
222. This broad application is supported by Congress’s
decision to include “all” as a modifier to the word “expenses,” suggesting it did not intend to limit the type of
“expenses” recoverable by the USPTO. See id. Moreover, although the direct question in Taniguichi was
whether the term “interpreter” applied to translations
of written materials so as to allow a party to recover the
“costs” of document translation, the Supreme Court recognized that the statutory use of “expenses” includes
substantially more than the limited term “costs.” See

in 2011, reasonable rates included $130-350/hr for paralegals;
$250-435/hr for lawyers with 1-3 years of experience; $350-600/hr for
lawyers with 4-7 years of experience; $465-640/hr for lawyers with
8-10 years of experience; $520-770/hr for lawyers with 11-19 years of
experience). Here, the rate being charged for the attorney with the
most experience—$81.43 per hour for Ms. Hieber—is almost $50 dollars below the lowest rate for paralegals. Had the USPTO hired
outs ide counsel, or even charged the comparable market rate, Booking would be facing much higher expenses.

133a
Taniguichi, 132 S. Ct. at 2006 (“Taxable costs are a fraction of the nontaxable expenses borne by litigants for
attorneys, experts, consultants, and investigators.”); see
also Arlington Cent. School Dist. Bd. of Educ. v. Murphy, 548 U.S. 291, 297 (2006) (distinguishing the statutory term “costs” from the broader term “expenses”).
Indeed, courts have routinely awarded expert witness
fees to the USPTO in both § 1071(b)(3) and § 145 actions
as “part of the expenses of the proceeding.” See, e.g.,
Realvirt, 220 F. Supp. 3d at 704 (E.D. Va. 2016) (awarding $50,160.00 in expert witness expenses); Hitachi Koki
Co. v. Dudas, No. 2007-1504 (D.D.C. Mar. 30, 2017) (Dkt.
No. 66) (awarding the USPTO $59,866.43 in expert expenses); Taylor v. Matal, No. 15-1607 (E.D. Va. July 12,
2016) (requiring a plaintiff to post a $40,000 bond to
cover “anticipated expert expenses” among other expenses); Sandvik Aktiebolag v. Samuels, No. 89-3127-1FO,
1991 WL 25774, at *2 (D.D.C. Feb. 7, 1991) (ordering
plaintiffs to pay USPTO expert expenses).
Booking also argues that the USPTO’s expert fees
are unreasonable because it provided only a single invoice from its expert, Dr. Edward Blair, stating that he
worked 43.5 hours at a rate of $500/hr. See Pl.’s Opp.
Mot. to Expenses at 18; Def.’s Mot. Expenses, Ex. C.
In Sandvik Aktiebolag v. Samuels, a D.C. district court
allowed the USPTO to recover expert fees, but analyzed
the hours submitted for reasonableness. See 1991 WL
25774, at *2. Although Dr. Blair submitted only a single invoice, the total of 43.5 hours does not appear to be
excessive given the nature of this case. The record
demonstrates that Dr. Blair’s work included, after evaluating the four trademark applications at issue, the
three separate TTAB opinions affirming the denial of
registration, and plaintiff ’s expert report, preparing his

134a
own 30-page expert report and being deposed by Booking. See [Dkt. No. 61], Ex. B. at 3-6. Based on this
record, the Court finds that the hours Dr. Blair billed
were not unreasonable.
Finally, Booking claims that any expenses awarded
should be offset against its own recoverable costs under
Fed. R. Civ. P. 54(d)(l) as it is the prevailing party in this
action. Pl.’s Opp. to Mot. Expenses at 25. The USPTO
does not directly address this argument other than to
point out that expert expenses are not a part of the compensable costs generally awarded to a prevailing party.
Reply at 20; see also 28 U.S.C. § 1920 (listing the costs
recoverable in a bill of costs); id. § 2412(a) (allowing an
award for costs enumerated in § 1920 against the United
States or a U.S. agency). There is nothing in this record prohibiting Booking, as the prevailing party, from
submitting a bill of costs, which may offset some of the
payment that it will owe to the USPTO.
II.

CONCLUSION

For the above stated reasons, in an order to be issued
with this Memorandum Opinion, defendants’ Motion to
Alter Judgment [Dkt. No 94] will be granted only to the
extent that the Judgment Order will be amended to provide that the ’998 and ’097 Applications will be remanded
to the United States Patent and Trademark Office to
be immediately published in the Official Gazette of the
Patent and Trademark Office, pursuant to 15 U.S.C.
§ 1062(a) and defendants’ Motion for Expenses [Dkt.
No. 98] will be granted.

135a
Entered this 26th day of Oct., 2017.
Alexandria, Virginia
/s/ LMB
LEONIE M. BRINKEMA
United States District Judge

136a
APPENDIX D
UNITED STATES PATENT AND TRADEMARK OFFICE

Trademark Trial and Appeal Board
IN RE BOOKING.COM B.V.
Serial No. 79114998
Hearing: Jan. 5, 2016
Mailed: Feb. 18, 2016
Before: SHAW, ADLIN and MASIELLO, Administrative
Trademark Judges.
Opinion by MASIELLO, Administrative Trademark Judge:
Booking.com B.V. (“Applicant”) filed an application
for extension of protection to the United States of its International Registration of the standard character mark
shown below:1

The services identified in the application (as amended)
are:

Application Serial No. 79114998 was filed on June 5, 2012 under
Trademark Act Section 66(a), 15 U.S.C. § 1141f(a), based on International Registration No. 1104711 dated December 15, 2011.
1

137a
Arranging of tours and arranging of tours online; reservation and sale of travel tickets and online reservation and sale of travel tickets; information, advice and
consultancy regarding the arranging of tours and the
reservation and sale of travel tickets; provision of information relating to travel and travel destinations;
travel and tour agency services, namely, travel and
tour ticket reservation services; travel agency services; tourist agency services; providing online travel
and tourism services, namely, providing online travel
and tour ticket reservation services, online travel
agency services, online tourist agency services and
providing online information relating to travel and
travel destinations, in International Class 39;
Making hotel reservations for others; holiday accommodation reservation services and resort reservation
services, namely, providing hotel room reservation
services and resort hotel reservation services and
providing online hotel and resort hotel room reservation services; providing information about hotels, holiday accommodations and resorts accommodations,
whether or not based on the valuation of customers;
providing information, advice and consultancy relating making hotel reservations and temporary accommodation reservations; providing online information,
advice and consultancy relating making hotel reservations and temporary accommodation reservations,
in International Class 43.
The Examining Attorney refused the requested extension of protection under Section 2(e)(1) of the Trademark Act, 15 U.S.C. § 1052(e)(1), on the ground that Applicant’s mark is merely descriptive of Applicant’s services. When Applicant claimed, in the alternative, that

138a
Applicant’s mark had acquired distinctiveness and is
entitled to registration under Section 2(f ), 15 U.S.C.
§ 1052(f ), the Examining Attorney issued a new refusal
on the ground that the mark is generic as applied to the
services; she also maintained, in the alternative, the
mere descriptiveness refusal and found Applicant’s
showing of acquired distinctiveness to be insufficient.
When the Examining Attorney made the refusals final,
Applicant requested reconsideration and simultaneously appealed to this Board. The Examining Attorney denied the request for reconsideration and this appeal proceeded.2
At Applicant’s request, this case was consolidated
with three other pending appeals of refusals to register
the marks in Applicant’s related application Serial Nos.
79122365, 79122366 and 85485097.3 Applicant chose to
address all four cases in a single set of briefs, having
been granted leave to exceed the page limit for its main
brief.4 The cases are fully briefed, including extra supplemental briefs filed by both Applicant and the Examining Attorney. An oral hearing was held January 5,
2016. The evidentiary record in this case is sufficiently
different from the records of the other applications that
we find it appropriate to issue a separate decision.
A mark is generic if it refers to the class or category
of goods or services on or in connection with which it is
used. In re Dial-A-Mattress Operating Corp., 240 F.3d
1341, 57 USPQ2d 1807 (Fed. Cir. 2001), citing H. Marvin
The application was examined through final refusal and Applicant’s request for reconsideration by Sharon A. Meier of Law Office
112. It was then assigned to the current Examining Attorney.
3
Board order of December 12, 2014, 52 TTABVUE.
4
Board order of January 30, 2015, 54 TTABVUE.
2

139a
Ginn Corp. v. Int’l Ass’n of Fire Chiefs, Inc., 782 F.2d
987, 228 USPQ 528 (Fed. Cir. 1986) (“Marvin Ginn”).
The test for determining whether a mark is generic is
its primary significance to the relevant public. In re
American Fertility Soc’y, 188 F.3d 1341, 51 USPQ2d
1832 (Fed. Cir. 1999); Magic Wand Inc. v. RDB Inc.,
940 F.2d 638, 19 USPQ2d 1551 (Fed. Cir. 1991); and
Marvin Ginn, supra. Making this determination “involves a two-step inquiry: First, what is the genus of
goods or services at issue? Second, is the term sought
to be registered . . . understood by the relevant public
primarily to refer to that genus of goods or services?”
Marvin Ginn, 228 USPQ at 530. The examining attorney has the burden of establishing by clear evidence that
a mark is generic. In re Merrill Lynch, Pierce, Fenner
and Smith, Inc., 828 F.2d 1567, 4 USPQ2d 1141 (Fed. Cir.
1987); In re American Fertility Soc’y, supra; and Magic
Wand Inc., supra. “Doubt on the issue of genericness
is resolved in favor of the applicant.” In re DNI Holdings Ltd., 77 USPQ2d 1435, 1437 (TTAB 2005).
1.

The genus of Applicant’s services.

Our first task under Marvin Ginn is to determine,
based on the evidence of record, the genus of Applicant’s
services. Because the identification of goods or services in an application defines the scope of rights that
will be accorded the owner of any resulting registration
under Section 7(b) of the Trademark Act, generally “a
proper genericness inquiry focuses on the description of
services set forth in the [application or] certificate of
registration.” Magic Wand, 19 USPQ2d at 1552, citing
Octocom Sys., Inc. v. Houston Computer Servs., Inc.,
918 F.2d 937, 942, 16 USPQ2d 1783, 1787 (Fed. Cir.

140a
1990). The recitations of services in Classes 39 and 43
can be accurately summarized as follows:
Class 39:

Travel agency and tourist agency services;
arranging tours; reservation and sale of
travel and tour tickets; providing related information, advice and consultation; providing information regarding travel and travel
destinations; including such services performed online.

Class 43:

Making hotel reservations and resort reservations; providing information, advice and
consultation about hotels, holiday accommodations and resort accommodations; including such services performed online.

We consider the foregoing summaries to suitably express the genus of the services in each class.
2.

Public understanding of the term BOOKING.COM.

We next consider whether BOOKING.COM would be
understood by the relevant public primarily to refer to
each genus of services discussed above. The relevant
public consists of all persons having an interest in arranging a reservation for travel, for a tour, or for a room
in a hotel, resort, or other lodging; or in obtaining information, advice or consultation regarding such reservations or regarding travel, travel destinations, or holiday
accommodations. The Examining Attorney’s refusal
and supporting arguments focus almost exclusively on
Applicant’s online reservation services, and we will do

141a
the same.5 Registration is properly refused if the mark
is generic with respect to any one of the services for
which registration is sought in a given International
Class. In re Analog Devices, Inc., 6 USPQ2d 1808,
1810 (TTAB 1988), aff ’d, 871 F.2d 1097, 10 USPQ2d 1879
(Fed. Cir. 1989) (unpublished); Cf. In re Stereotaxis Inc.,
429 F.3d 1039, 77 USPQ2d 1087, 1089 (Fed. Cir. 2005),
quoting, Application of Richardson Ink Co., 511 F.2d
559, 185 USPQ 46, 48 (CCPA 1975) (“Our predecessor
court . . . has stated that registration should be refused if the mark is descriptive of any of the goods for
which registration is sought.”). In our deliberations,
we have considered all of the evidence of record. We
summarize below and discuss the evidence that we find
most highly relevant and probative regarding the public’s understanding of Applicant’s mark.
(a)

Salient evidence of record.

As evidence of the relevant public’s understanding of
Applicant’s mark, the Examining Attorney and Applicant made of record various definitions of the word
“booking,” including:
1. An engagement, as for a performance by an entertainer.
2.

A reservation, as for accommodations at a hotel.6
*

*

*

*

*

5
While Applicant’s brief refers to its “brick and mortar services,”
55 TTABVUE 28, there is no evidence showing that Applicant’s services are available otherwise than online.
6
THE AMERICAN HERITAGE DICTIONARY OF THE ENGLISH LANGUAGE (Fourth ed. 2009), Office Action of September 28, 2012 at 16.

142a
1. a contract, engagement, or scheduled performance of a professional entertainer.
2.

reservation ( def 5 ).

3.

the act of a person who books. 7
*

*

*

*

*

1. an arrangement to buy a travel ticket, stay in a
hotel room, etc. at a later date Increasingly, travelers
are using the Internet for both information and
bookings.
You can make a booking on the
phone with a credit card.
make a booking:

2. an arrangement made by a performer to perform at a particular place and time in the future. 8
*

*

*

*

*

:
an arrangement for a person or group (such as a
singer or band) to perform at a particular place
:
an arrangement to have something (such as a
room) held for your use at a later time
. . .
:

RESERVATION

*

9

*

*

*

*

<dictionary.reference.com>, id. at 19.
<macmillandictionary.com>, Off ice Action of November 18,
2013 at 53.
9
<merriam-webster.com>, id. at 55.
7
8

143a
the act of reserving (a place or passage) or engaging
the services of (a person or group)
“wondered who had made the booking”
Synonyms:

reservation 10
*

*

*

*

*

1. An act of reserving accommodations, travel, etc.,
or of buying a ticket in advance:
‘the hotel does not handle group bookings’
‘early booking is essential’
1.1 An engagement for a performance by an entertainer:
‘TV show bookings were mysteriously canceled’ 11
*

*

*

*

*

Overview of noun booking
The noun booking has 2 senses (first 2 from tagged
texts)
1. (6) engagement, booking—(employment for performers or performing groups that lasts for a limited
period of time; “the play had bookings throughout the
summer.”)

<vocabulary.com>, Office Action of July 20, 2014 at 234.
<oxforddictionaries.com/us/definition/american_english>, id. at
222.
10
11

144a
2. (1) booking, reservation—(the act of reserving (a
place or passage) or engaging the services of (a person or group); “wondered who had made the booking”)12
*

*

*

*

*

The Examining Attorney has also made the following
definitions of record:
.com (dot-com):

Part of the Internet address of many companies and
organizations. It indicates that the site is commercial, as opposed to educational or governmental.
The phrase dot-com is used to refer generically to almost anything connected to business on the
Internet.13
Note:

*

*

*

*

*

.com:

(1) (.COMmercial) A top-level Internet domain used
by businesses, although individuals register .com
names as well. Since .com (dot-com) was the original commercial domain name on the Internet, it is the
most coveted, and all major companies in the U.S.
and many companies worldwide have .com Web sites.
Web browsers default to adding .com to the end of

12
<poets.notredame.ac.ip>, Office Action of November 18, 2013
at 65.
13
<dictionary.reference.com>, Office Action of September 28,
2012 at 23.

145a
the URL if no other domain suffix, such as .org or
.edu, is typed in. 14
*

*

*

*

*

*

*

.com:

Commercial organization. 15
*

*

*

.com:

abbr.
commercial organization (in Internet addresses). 16
*

*

*

*

*

.com:

1. A file extension used for PC programs, especially those that run under DOS (for example, command.com, win.com).
2. A domain type used for Internet locations that
are part of a business or commercial enterprise (for
example, www.cnet.com).17

Computer Desktop Encyclopedia (1981-2013), Office Action of
November 18, 2013 at 74.
15
THE AMERICAN HERITAGE ABBREVIATIONS DICTIONARY (Third
ed. 2005), Office Action of September 28, 2012 at 24.
16
THE AMERICAN HERITAGE DICTIONARY OF THE ENGLISH LANGUAGE (Fifth ed. 2011), Office Action of July 20, 2014 at 134.
17
Glossary definition at <www.cnet.com>, Office Action of September 28, 2012 at 25.
14

146a
The Examining Attorney made of record excerpts
from numerous websites that use the term “booking” to
describe Applicant’s online services and similar online
services provided by others. Notably, Applicant’s own
materials make liberal use of the term “booking.” Applicant’s own website uses “booking,” both as a noun
meaning a hotel reservation and as a verb meaning to
make such a reservation:
Our Vision
Booking.com is an informative, user-friendly website
—that guarantees the best available prices. Our
goal is to provide business and leisure travelers with
the most accessible and cost-effective way of discovering and booking the broadest selection of accommodations in every corner of the world.18
*

*

*

*

*

Easily manage all your bookings19
*

*

*

*

*

Welcome to Booking.com Customer Service
Change your booking or make a request: it’s easy,
instant and secure! 20
Applicant’s website sets forth a selection of available hotels in various cities, indicating when the latest “booking” was made at the particular hotels:

<booking.com>, Office Action of April 22, 2013 at 56 (emphasis
added).
19
Id. at 54 (emphasis added).
20
<booking.com>, Office Action of July 20, 2014 at 51.
18

147a
New York City
417 properties
. . .
Helmsley Park Lane Hotel * * * *
from $428
Score from 2890 reviews. Very good, 8.1
Latest booking: 18 minutes ago
There are 22 people looking at this hotel
New York Marriott Marquis * * *
from $299
Score from 1194 reviews. Very good, 8.3
Latest booking: 41 minutes ago
There are 14 people looking at this hotel 21
Similarly, third-party websites also use the term “booking” in various formulations as the name of travel reservation services. Such services, when provided online,
have been called (among other things) booking websites,
hotel booking sites, hotel booking websites, online hotel
booking websites, hotel-only booking sites, travel booking websites, travel booking sites, flight booking site,
and travel booking online. 22 Examples of use follow:
Most popular online booking sites for travelers
TripAdvisor.com is the world’s second-most popular
booking site, according to new data. So who’s first?23
*

*

*

*

*

<booking.com>, Office Action of April 22, 2013 at 52-53 (emphasis added).
22
Office Action of September 28, 2012 at 32-47.
23
<travel.cnn.com>, Office Action of July 20, 2014 at 20.
21

148a
The Top Online Travel Booking Sites for January
2014
[reader comment] I like Travelocity and TripAdvisor,
there is very good advantage of booking online is to
check out past clients reviews for restaurants, hotels
and flights . . . 24
*

*

*

*

*

The Super-Slick UX of Virgin America’s New Booking Site.
THE RESULT IS A SITE THAT GETS FLYERS
BOOKED NEARLY TWICE AS FAST, ON ANY
KIND OF DEVICE.25
*

*

*

*

*

Room 77 hotel search
Search and save on over 200,000 hotels worldwide
We search dozens of booking sites
*

*

*

*

. . .

26

*

Free Travel Free-For-All Among Online Booking
Sites Orbitz, Expedia and Hotels.com Sweeten RewardPoints Deals to Keep Travelers From Just Browsing
. . .

24
25
26

<skift.com>, id. at 24, 29.
<wired.com>, id. at 39-40.
<room77.com>, id. at 65 (ellipsis in original).

149a
Even infrequent travelers can collect booking-site
points on top of airline miles and credit-card paybacks, and sometimes double-dip on hotel points,
too.27
*

*

*

*

*

CAN WE MAKE THE BOOKING PROCESS MORE
PLEASANT?
Airline bookings evolved from paper and fax machines to online website containers. Unfortunately
that is how they remain to this day . . . 28
*

*

*

*

*

Five great travel booking sites
. . .
Dohop.com
Strictly for booking plane trips entirely outside of the
U.S., such as a flight between Paris and Rome.
. . .
Venere.com
. . .
Any booking site can point you to large, widely known
hotels. But you might prefer to stay in a charming
inn or a small property on your next trip. . . .29
*

27
28
29

*

*

*

*

<online.wsj.com>, id. at 71.
<f-i.com>, id. at 84.
<cnn.com>, Office Action of April 22, 2013 at 9-10.

150a
Five Best Cheap Travel Booking Sites
. . .
We asked you earlier in the week which sites were
your favorite when it comes to booking travel.
. . .
Kayak promises to be your single destination for airfare, hotel booking, car rental, and even entire vacation packages. The secret to Kayak’s “search one
and done” motto is in the hundreds of travel and
booking sites that Kayak digs through to provide you
the lowest possible price on travel. 30
*

*

*

*

*

New Flight Booking Site Lets Users ‘Pick Two, Get
One’31
*

*

*

*

*

Best and Worst Hotel Booking Websites 32
*

*

*

*

*

2013 Best Hotel Booking Services Comparisons and
Reviews
. . .
Hotel Booking Services Review
Why Hotel Booking Services?

30
31
32

<lifehacker.com>, id. at 11-12.
<abcnews.go.com>, id. at 16.
<frommers.com>, id. at 24.

151a
. . . you will almost certainly benefit from using a
hotel booking service to research the best lodging
deals.33
*

*

*

*

*

Hotel booking site, Tingo.com arrived on the scene
about a year ago, promising to give money back to
hotel guests if the rates dropped after they made
their reservation but before they arrived for their
stay.34
*

*

*

*

*

Luxury Hotel Booking Site “Want Me Get Me”
Launched Today35
The Examining Attorney has made of record evidence of third-party domain names and trade names
that include the designation “booking.com”:
Domain name

Nature of use

ebooking.com

website called ebooking.com,
offering online hotel reservations.36

instantworldbooking.com website called Instant World
Booking.com, offering “Online booking for hotels, youth

<hotel-booking-services-review.toptenreviews.com>, id. at 28-29.
<hotelchatter.com>, id. at 32.
35
<hotelchatter.com>, id. at 34.
36
Office Action of July 20, 2014 at 97-98. See also U.S. Reg. No.
3888087, id. at 198-200.
33
34

152a
hostels, and bed and breakfast accommodations at world
heritage destinations.” 37
hotelbooking.com

website called hotelbooking.
com, offering “your best hotel web search engine.” 38

blinkbooking.com

website offering mobile application called Blink: “In
just a few taps, you can book
a room in Europe’s best hotels: it’s that simple!” 39

eurobookings.com

website called eurobookings.
com offering search of hotels
in Europe.40

francehotelbooking.com

website called Link Paris
.com, offering to “find you a
great Paris hotel” and hotel
search for other French cities.41

homesstaybooking.com

website for matching homestay hosts with guests.42

37
38
39
40
41
42

Id. at 107-110.
Id. at 155-156.
Id. at 113-114.
Id. at 111-112.
Id. at 157-158.
Id. at 105-106.

153a
dubai-travelbooking.com website
called
dubaitravelbooking.com, offering
hotel search.43
Images of some of these websites are set forth below:

43

Id. at 99-101.

154a

155a

The record also includes evidence of domain names that
combine “.com” with various combinations of the words
“booking” or “book,” including the following:
Bookingbuddy.com44
Fastbooking-hotels.com45
Hotelbookingsolutions.com 46
Ebookers.com47
BOOKINGWIZ.COM48
To demonstrate public understanding of BOOKING.
COM, Applicant has made of record and focuses heavily
upon a two-page, 2012 J.D. Power & Associates press
release relating to its rankings of independent travel

44
45
46
47
48

Id.at 148-150.
Id.at 151.
Id.at 159.
Id.at 122-4.
Reg. No. 3634936, Office Action of July 20, 2014 at 193-4.

156a
websites based upon a consumer survey, accompanied
by a one-page chart. Neither the survey itself nor any
supporting or background material about the survey is
of record. Salient excerpts of the press release are set
forth below:
J.D. Power and Associates Reports:
Pricing Is the Strongest Driver of Satisfaction with
Independent Travel Websites

Booking.com Ranks Highest in Overall Satisfaction
among Independent Travel Websites
. . . Satisfaction with the price paid on a travel
website drives high overall satisfaction among consumers with their overall website experience, according to the J.D. Power and Associates 2012 Independent Travel Website Satisfaction Report SM released
today.
“ . . . the highest-ranked travel websites in overall satisfaction all have significantly higher price satisfaction scores than the report average,” said Sara
Wong Hilton . . . “While other factors certainly
affect overall satisfaction, 75 percent of online travel
website consumers indicate price as a primary purchase reason, so there is no denying price greatly impacts the overall website experience.”
The report measures consumers’ overall satisfaction
with their purchase experience on an independent
travel website, which consists of a vacation package,
flight, hotel or rental car. The report examines seven

157a
factors (listed in order of importance): competitiveness of pricing; usefulness of information; availability
of booking/reservation options; website/online store;
ease of booking/reserving; competitiveness of sales and
promotions; and contact with customer service. . . .
Independent Travel Website Satisfaction Rankings

Booking.com ranks highest with a score of 816, performing particularly well in availability of booking/
reservation options; ease of booking/reserving; and
pricing. Following Booking.com in the rankings are
Hotwire.com (813) and Priceline.com (808).
The 2012 Independent Travel Website Satisfaction
Report is based on responses from 2,009 consumers
who made an online purchase from an independent
travel website in the past 12 months. . . . 49
The chart accompanying the press release is set forth
below:50

49
50

Applicant’s response of May 19, 2014 at 93-4.
Id. at 95.

158a

The press release is supported by a declaration of Applicant’s Director, Rutger Marinus Prakke, stating:
Applicant’s BOOKING.COM service has received
numerous industry awards, including, for example:

159a
-

J.D. Power and Associates, a premier research
and analytics firm, ranked BOOKING.COM
First in Consumer Satisfaction among independent travel websites based on a consumer
survey (awarded in 2013); . . . 51

The Prakke Declaration also states that Applicant has
won awards for a 2013 advertising campaign; for “Best
Tablet App”; and “Best Mobile Site.” 52 It also sets
forth figures for the following aspects of Applicant’s
business:
-

countries served;

-

accommodations-providers accessible via the
service;

-

transaction value (worldwide) of accommodation
reservations made;

-

unique monthly U.S. visitors to website;

-

roomnights reserved daily (worldwide);

-

languages in which the service is offered;

-

U.S.-based subscribers to Applicant’s newsletters;

-

television channels on which commercials have
been aired;

Declaration of Rutger Marinus Prakke, ¶ 11, Applicant’s response
of May 19, 2014 at 87. There are two slightly different versions of
the Prakke declaration in the record. See also the version filed with
Applicant’s response of March 29, 2013. The version filed on May
19, 2014 is the more comprehensive version.
52
Prakke declaration, ¶ 11, Applicant’s response of May 19, 2014
at 87.
51

160a
-

American consumers reached through commercials in movie theatres and streamed internet
commercials;

-

Facebook “likes” and “talking about”;

-

Twitter followers;

-

number of unsolicited news articles found in a
Google News search. 53

(b)

Discussion.

It is clear from the dictionary definitions that an accepted meaning of “booking” is a reservation or arrangement to buy a travel ticket or stay in a hotel room;
or the act of reserving such travel or accommodation.
It is also clear from the Internet evidence that the term
“booking” has been widely used to describe the service
of arranging reservations for hotel rooms or air travel,
as described in Applicant’s recitation of services and as
comprehended by the applicable genera of services.
Applicant contends that the dictionary definitions
show that the primary descriptive meaning of “booking”
does not relate to travel, but to theatre bookings, referring to definitions such as “a contract, engagement, or
scheduled performance of a professional entertainer”;
“An engagement, as for a performance by an entertainer”; and “an arrangement for a person or group
(such as a singer or band) to perform at a particular
place.” Applicant also refers to definitions from THE
ONLINE SLANG DICTIONARY and URBAN DICTIONARY,
showing that “book” as an adjective may mean “cool,”
that “to book” may mean “to leave quickly,” and that
53

Id. at 85-90.

161a
“booking” may mean “running really fast.” 54
argues:

Applicant

The existence of alternate meanings of the wording
at issue precisely calls into question what is the “primary” significance of the term “booking” (not even
BOOKING.COM) to consumers. . . . Indeed, it is
fundamentally inconsistent for the Examiner both to
assert that the Board should give weight to dictionary definitions of the word “booking” while at the
same time telling the Board to shield its eyes from
some of those definitions (including the primary definition) that undermine the Examiner’s argument. 55
Applicant’s arguments are unavailing. The question before us is the understanding of “the relevant public,” which in this case consists of persons having an interest in reservations for travel, tours, or hotel rooms.
Those persons would be exposed to the mark in the context of those services and, accordingly, that is the context in which we must consider the primary meaning of
the term at issue. In one of the most lucid discussions
of this point, Abercrombie & Fitch Co. v. Hunting World,
Inc., 537 F.2d 4, 189 USPQ 759 (2d Cir. 1976), the Court
acknowledged that in the spectrum of distinctiveness
(generic/descriptive/suggestive/arbitrary/fanciful) “a term
that is in one category for a particular product may be
in quite a different one for another, . . . [and] a term
may have one meaning to one group of users and a different one to others . . . ,” 189 USPQ at 764; and
that “a word may have more than one generic use.”
54
Applicant’s brief at 21, fn5, 55 TTABVUE 22, referring to evidence submitted with Applicant’s Response of May 19, 2014 at 54-65.
55
Applicant’s reply brief at 12, 58 TTABUE 13.

162a
189 USPQ at 766.56 See also Gear Inc. v. L.A. Gear California Inc., 670 F. Supp. 508, 4 USPQ2d 1192, 1197
(S.D.N.Y. 1987) (“that the word ‘gear’ is more frequently used in its several other meanings than as a
term for wearing apparel” does not save it from a finding
of genericness for apparel; “the term at issue is still generic if its principal meaning in the relevant market is
generic”), vacated in part, dismissed, 13 USPQ2d 1655
(S.D.N.Y 1989); In re ActiveVideo Networks, Inc.,
111 USPQ2d 1581, 1588 (TTAB 2014) (meteorological
meanings of “cloud” irrelevant as to whether CLOUDTV
is generic for computer goods and services); and In re
Rosemount Inc., 86 USPQ2d 1436, 1439 (TTAB 2008)
(“It is well established that we must look to the meaning
of the term within the context of the identified goods.”).
Applicant correctly points out that we must consider
its mark in its entirety. 57 Applicant argues further:
In each of the Office Actions, the Examiners have
submitted evidence showing descriptive use of “booking” and “.com” separately as evidence that the composite mark BOOKING.COM is generic. This analytical
structure sets a lower bar for genericness for domain
In Abercrombie, the word “safari,” as applied to apparel, was at
issue. The fact that “safari” had a specific meaning in the unrelated
context of “an expedition into the African wilderness” did not prevent the Court from finding the term generic in the field of fashion
apparel. 18 USPQ at 766.
57
We must point out that the Examining Attorney was wrong
to say, in her brief, “Applicant is incorrect in its brief in claiming
that the required standard for a finding of genericness is that the
composite mark BOOKING.COM as a full phrase be generic.”
57 TTABVUE 12 (emphasis in original). The opposite is true: to
affirm the Examining Attorney’s refusal we must find that a mark,
in its entirety, is generic.
56

163a
name marks than other marks, ignores the realities of
the marketplace and is contrary to settled law.
There is no evidence whatsoever that consumers isolate and separately consider “BOOKING” and “.COM”
in Applicant’s mark . . . 58
We do not agree that the Examining Attorney’s approach is improper. In In re Hotels.com LP, 573 F.3d
1300, 91 USPQ2d 1532 (Fed. Cir. 2009), in which the
mark HOTELS.COM was at issue, the Court said,
“We discern no error in the Board’s consideration of the
word ‘hotels’ for genericness separate from the ‘.com’
suffix.” 91 USPQ at 1535. The Court implicitly approved the same approach in In re Reed Elsevier Props.
Inc., 77 USPQ2d 1649 (TTAB 2005), aff ’d, 82 USPQ2d
1378 (Fed. Cir. 2007), in which the Board considered
separate dictionary definitions of “lawyer” and “.com”;
and the Court expressly approved this approach in In re
1800Mattress.com IP LLC, 586 F.3d 1359, 92 USPQ2d
1682, 1684 (Fed. Cir. 2009) (“[T]he Board considered
each of the constituent words, “mattress” and “.com,”
and determined that they were both generic. . . .
The Board then considered the mark as a whole . . . ”)
In all of these cases, the Court held to be generic marks
that were similar in structure to Applicant’s mark on the
basis of evidence highly similar to that now before us.
The fact that “booking” and “.com” appear in dictionaries separately, but not together, does not mean that
their combination cannot be generic. The relevant
analysis under Marvin Ginn is to determine what relevant customers would understand from the combination
of these two terms. As the Court stated in Hotels.com,
58

Applicant’s brief at 7, 55 TTABVUE 8.

164a
“the generic term ‘hotels’ did not lose its generic character by placement in the domain name HOTELS.COM.”
91 USPQ2d at 1535.
Addressing Applicant’s mark as a whole, the Examining Attorney contends:
Each of the terms BOOKING and .COM has a clear
and readily understood meaning and the combined
term communicates just as clearly and directly that
Applicant operates a commercial website that provides its customers with booking information and reservation booking services.59
This contention is supported by the dictionary definitions, quoted above, indicating that “booking” means
“reservation” or “an arrangement to buy a travel ticket,
stay in a hotel room, etc. . . . ” and that “.com” is an
abbreviation meaning “commercial organization (in Internet addresses).” It is also supported by the Internet evidence showing how third parties use the words
“booking” and the suffix “.com”; and how they use the
combination “booking.com” as a component of domain
names and trade names.
Applicant suggests that the question before us is as
follows:
. . . the Examiners must show that the “primary
significance” of BOOKING.COM “to the relevant
consuming public” is simply to designate the genus
or class of services identified in the applications [citing Magic Wand].60
Examining Attorney’s brief, 57 TTABVUE 13 (emphasis in original).
60
Applicant’s brief at 5, 55 TTABVUE 6.
59

165a
[The question is whether] the entire term is used
or recognized by consumers to designate a genus
of goods or services and that the primary significance of such usage is the generic designation. . . .
BOOKING.COM is not literally a genus or class
name, but it at most contains elements descriptive or
suggestive of the class. 61
The above formulations overstate the rule that we must
apply. Marvin Ginn does not require that the public
use a term to designate the genus; only that the public
understand the term to refer to the genus. Marvin
Ginn does not require that a term literally be the name
of the genus; only that it be understood primarily to refer to the genus. This degree of flexibility was clear in
Marvin Ginn and was restated with clarity by the Federal Circuit in In re 1800Mattress.com:
The test is not only whether the relevant public would
itself use the term to describe the genus, but also
whether the relevant public would understand the
term to be generic. See H. Marvin Ginn, 782 F.2d
at 990 (describing the test as whether the term is “understood by the relevant public primarily to refer to
[the appropriate] genus of goods or services”).
Thus, it is irrelevant whether the relevant public refers to online mattress retailers as “mattress.com.”
Instead, as the Board properly determined, the correct inquiry is whether the relevant public would understand, when hearing the term “mattress.com,”
that it refers to online mattress stores.

61

Id. at 10, 55 TTABVUE 11 (emphasis in original).

166a
92 USPQ2d at 1685 (emphasis in original). Thus, while
it might be true that “it is impossible to use BOOKING.
COM in a grammatically coherent way to refer generically to anything”; or that “it is not at all logical to refer
to a type of product or service as a ‘booking.Com’ ”; 62
that does not mean that this term could not be understood primarily to refer to an online service for making
bookings. In other words, the test is not whether the
public can use the term in a grammatically correct sentence, but whether the public understands the term to
refer to the genus.
The Examining Attorney’s contentions as to the public’s understanding of the combination BOOKING.COM
are supported by the dictionary evidence; the internet
evidence showing how third parties use the words
“booking” and the suffix “.com”; and, perhaps most importantly, the evidence of how third parties use the combination “booking.com” as a component of domain
names and trade names in the field of travel and hotel
reservations. We must, however, balance the Examining Attorney’s evidence against Applicant’s evidence of
public perceptions, including the J.D. Power survey.
Applicant argues:
It defies logic that consumers would rank BOOKING.
COM as the most trusted accommodations website if
consumers failed to recognize BOOKING.COM as a
source-identifier. Stated another way, if BOOKING.
COM merely designated a type or category of services, consumers would not be able to attribute any

62

Id. at 12, 55 TTABVUE 13.

167a
particular level of quality to services offered under the
designation. This is plainly not the case . . . 63
It bears noting, before we proceed, that Applicant’s
characterization of the J.D. Power survey as showing
that Applicant is “the most trusted accommodations
website” is a substantial overstatement. As the press
release, quoted above, indicates, the survey related to
customers’ “satisfaction,” and trust was not one of the
seven factors measured by the survey. Even if we
were to accept the J.D. Power press release for the truth
of the matters asserted in it, 64 we find that it is at best
a very indirect demonstration of what relevant customers understand “booking.com” to mean. The press release tells us that survey subjects were asked about
seven factors—pricing; information provided; booking
options; the online “store”; ease of booking; sales and
promotions; and customer service—with respect to specific travel websites. These are not the types of questions that would be posed to subjects of a typical genericness survey (e.g., a “Teflon” or “Thermos” survey),
which would test whether subjects perceive a term as a
brand or a generic term. See E. I. Du Pont de Nemours
& Co. v. Yoshida Int’l, Inc., 393 F. Supp. 502, 185 USPQ
597 (E.D.N.Y. 1975); Am. Thermos Prods. Co. v. Aladdin Indus., Inc., 207 F. Supp. 9, 134 USPQ 98 (D. Conn.
1962), aff ’d sub nom. King-Seeley Thermos Co. v.
Alladin Indus., Inc., 321 F.2d 577, 138 USPQ 349

Id. at 3, 55 TTABVUE 4.
“The Board generally takes a somewhat more permissive stance
with respect to the admissibility and probative value of evidence in
an ex parte proceeding than it does in an inter partes proceeding.”
TBMP § 1208.
63
64

168a
(2d Cir. 1963). What the survey does tell us is that participants had used Applicant’s website and expressed a
higher level of satisfaction with it (based on some unknown combination of the seven factors) than with other
competing websites. Although this survey tells us something about Applicant’s business success—i.e., that its
customers are highly satisfied—it says little or nothing
about what customers understand the term BOOKING.
COM to mean. (Even if the survey had posed more directly relevant questions, the data presented to the
Board are extremely non-specific: we do not know the
actual questions that were posed to the survey subjects,
nor do we have their responses or a tabulation of their
responses, much less an expert’s opinion on the validity
and meaning of the survey’s results.)
We have considered all of Applicant’s evidence, including the testimony in its representative’s declaration
and the exhibits thereto. These materials demonstrate
the scope of Applicant’s business and the success that
Applicant has achieved in marketing its services.
However, compared to the J.D. Power survey, the information these materials provide is even farther afield
from the crucial question: whether customers perceive
BOOKING.COM as a brand or a generic term. The
fact that Applicant has served many customers, or that
its advertising and other communications have reached
many customers and potential customers, does not answer this central question.
By contrast, the Examining Attorney’s evidence is directly relevant to the question of public perception.
We accept the dictionary definitions as evidence of the
generally accepted meanings of the component terms of
Applicant’s mark; and the Internet evidence of actual

169a
third-party uses of the component terms and the combined term “booking.com” is presented with sufficient
context to allow us to understand the use and public perception of these terms.
In Hotels.com, supra, where the USPTO relied on evidence of genericness similar to the Examining Attorney’s evidence here, the applicant presented in rebuttal
a “Teflon” genericness survey showing that 76% of respondents perceived the term at issue as a brand name;
together with 64 declarations of individuals stating that
the term was not generic. Noting the Board’s critique
of the survey, the Court found:
[O]n the entirety of the evidence before the TTAB,
and with cognizance of the standard and burden of
proof borne by the PTO, the TTAB could reasonably
have given controlling weight to the large number of
similar usages of “hotels” with a dot-com suffix, as
well as the common meaning and dictionary definition of “hotels” and the standard usage of “.com” to
show a commercial internet domain. We conclude
that the Board satisfied its evidentiary burden, by
demonstrating that the separate terms “hotel” and
“.com” in combination have a meaning identical to the
common meaning of the separate components. The
Board’s finding that HOTELS.COM is generic was
supported by substantial evidence.
91 USPQ2d at 1537. The applicant’s evidence in Hotels.
com was far more extensive and supportive of allowing
registration than is Applicant’s evidence in this case.

170a
In In re Reed Elsevier Props. Inc., 82 USPQ2d 1378
(Fed. Cir. 2007), the Court found evidence similar to the
evidence in this case sufficient to demonstrate genericness:
[I]n determining what the relevant public would
understand LAWYERS.COM to mean, the board
considered eight websites containing “lawyer.com”
or “lawyers.com” in the domain name, e.g., www.
massachusetts-lawyers.com, www.truckerlawyers.
com, and www.medialawyer.com. It discussed the
services provided by these websites in order to illuminate what services the relevant public would understand a website operating under Reed’s mark to
provide. These websites are competent sources under In re Merrill Lynch, 828 F.2d at 1570, and they
provide substantial evidence to support the board’s
finding.
82 USPQ2d at 1381. See also In re 1800Mattress.com
IP LLC, 92 USPQ2d at 1684 (“[H]ere, the Board permissibly gave controlling weight to the large number of similar uses of ‘mattress.com’ as well as the common meanings of ‘mattress’ and ‘.com.’ ”).
Applicant argues that the existence of “ample readily
available terms for the genus of services, such as ‘travel
agency’ (or even ‘travel site’ or ‘accommodation site’)”
constitutes “positive evidence the disputed term is not
generic.” 65 This is a fallacy. The existence of numerous alternative generic terms does not negate the genericness of any one of them. In 1800Mattress.com, the
Court said:

65

Applicant’s brief at 6, 55 TTABVUE 7.

171a
We also disagree with Dial-A-Mattress’s assertion that
there can only be one generic term, which is “online
mattress stores.” Instead, any term that the relevant
public understands to refer to the genus of “online
retail store services in the field of mattresses, beds,
and bedding” is generic.
92 USPQ2d 1685. The cases upon which Applicant relies, In re Dial-A-Mattress Operating Corp., 240 F.3d
1341, 57 USPQ2d 1807 (Fed. Cir. 2001); Elliott v. Google
Inc., 45 F. Supp. 3d 1156 (D. Arizona 2014); and Salton,
Inc. v. Cornwall Corp., 477 F. Supp. 975 (D.N.J. 1979),
do not support the principle that Applicant posits; they
do not hold that a failure to show competitive need disproves genericness, but only that it lends no support to
a claim of genericness. In any event, in the case before
us there is evidence of competitors’ use of the designation “booking.com” as a part of trade names and domain
names that describe the nature of their services
(e.g., “hotelbooking.com,” “instantworldbooking.com,”
“ebooking.com,” and “francebooking.com,” among others). If such businesses could not use “booking.com” as
a part of their domain names or trade names, they could
be meaningfully hampered in their ability to communicate the nature of their online booking services. In
Reed Elsevier, the Board relied on similar evidence,
77 USPQ2d at 1657 (“In short, this case does not involve
a perceived need for others to use a term, but involves a
demonstrated use of the term by others.”); and the Federal Circuit subsequently affirmed the finding of genericness. Reed Elsevier, 82 USPQ2d 1378.

172a
Applicant argues that it is impossible for a term in
the form of a domain name, like “booking.com,” to identify an entire class or genus of goods or services precisely because “a specific URL can identify only one entity.” 66 In fact, a URL points not to an entity, but to
one specific Internet address, which can be occupied by
any entity that secures the address by entering into an
arrangement with the registrar of that address. As domain name registrations are not perpetual, Applicant
may be supplanted as the registrant of that Internet address or may voluntarily transfer its domain name registration to another. Moreover, Applicant’s argument
ignores the use of “booking.com” by third parties to
identify their internet addresses.
Applicant also argues that refusing to register its
mark would be contrary to the policies underlying trademark law and the Trademark Act, stating that Congress’s “two purposes” were (1) to protect the public
from source confusion; and (2) to protect a business’s investment of energy, time, and money from misappropriation by pirates. 67 Applicant argues:
Given the stature of the brand among consumers, the
purposes of trademark law are advanced by permitting Applicant to protect its great investment in its
mark and to protect consumers against the confusion
that would inevitably result if others were free to
copy the name. Denying registration to the most
trusted brand in the field undermines the purposes

66
67

Applicant’s brief at 14; see also id. at 24, 55 TTABVUE 15, 25.
Id. at 18, 55 TTABVUE 19.

173a
of trademark law by betraying the trust consumers
place in the brand. 68
Applicant’s policy argument addresses the reasons for
protecting marks, but neglects to mention the policy underlying the legal exclusion of generic matter from the
category of “marks.” That policy is based upon concerns relating to fair competition:
Generic terms, by definition incapable of indicating
sources, are the antithesis of trademarks, and can
never attain trademark status. [Citation omitted.]
The reason is plain:
To allow trademark protection for generic terms,
i.e., names which describe the genus of goods being sold, even when these have become identified
with a first user, would grant the owner of the
mark a monopoly, since a competitor could not describe his goods as what they are.
In re Merrill Lynch, 4 USPQ at 1142, quoting CES
Publ’g Corp. v. St. Regis Publ’ns, Inc., 531 F.2d 11,
188 USPQ 612, 615 (2d Cir. 1975) (emphasis added).
See also In re Pennington Seed Inc., 466 F.3d 1053,
80 USPQ2d 1758, 1763 (Fed. Cir. 2006). As in Merrill
Lynch, courts have repeatedly noted the possibility that
a business might invest in, and acquire name recognition
in, an unprotectable generic term:
[N]o matter how much money and effort the user of
a generic term has poured into promoting the sale of
its merchandise and what success it has achieved in
securing public identification, it cannot deprive

68

Id. at 3, 55 TTABVUE 4.

174a
competing manufacturers of the product of the right
to call an article by its name.
Abercrombie & Fitch, 189 USPQ at 764, citing J. Kohnstam, Ltd. v. Louis Marx and Co., 280 F.2d 437, 126 USPQ
362, 364 (CCPA 1960) (emphasis added).
While it is always distressing to contemplate a situation in which money has been invested in a promotion
in the mistaken belief that trademark rights of value
are being created, merchants act at their peril in attempting, by advertising, to convert common descriptive names, which belong to the public, to their own
exclusive use. Even though they succeed in the creation of de facto secondary meaning, due to lack of
competition or other happenstance, the law respecting registration will not give it any effect.
Weiss Noodle Co. v. Golden Cracknel and Specialty Co.,
290 F.2d 845, 129 USPQ 411, 414 (CCPA 1961) (emphasis added).
Applicant seeks to demonstrate that the USPTO has
registered numerous marks in the form of a domain
name in which a generic term is combined with a toplevel domain indicator like “.com.” 69 Such demonstrations of purportedly inconsistent conduct of the USPTO
are not persuasive, because we must decide each case on
its own merits, In re Owens-Corning Fiberglas Corp.,
774 F.2d 1116, 1127, 227 USPQ 417, 424 (Fed. Cir. 1985),
and are not bound by the USPTO’s allowance of prior
registrations. In re Nett Designs Inc., 236 F.3d 1339,
57 USPQ2d 1564, 1566 (Fed. Cir. 2001). In any event,
in this case the proffered registrations do not support
Id. at 24-25, 55 TTABVUE 25-26; Applicant’s response of May
19, 2014 at 66-83; Applicant’s response of October 22, 2013 at 70-82.
69

175a
Applicant’s position. That is, the purportedly “generic”
terms are registered not for the services that the terms
directly identify, but for other services that are obliquely
related to the terms. For example, DICTIONARY.COM
is not registered for providing an online dictionary, but
for online games and promoting the goods and services
of others. Reg. No. 4184950. ENTERTAINMENT.COM
is not registered for providing entertainment of any
kind, but for advertising services, promoting the goods
and services of others, and discount programs. Reg.
No. 4294532, registered under Section 2(f ).
Applicant compares the present case to In re
Steelbuilding.com, 415 F.3d 1293, 75 USPQ2d 1420
(Fed. Cir. 2005), in which the Court reversed the
Board’s finding that STEELBUILDING.COM is generic. In that case, evidence before the Court persuaded it that the applicant’s services, as identified in
the application, included not only the retail sale of steel
buildings but also the online, interactive design and
manufacture of structures made of steel; and that in that
context customers would appreciate the dual meaning of
“steelbuilding” as used in the applicant’s mark (i.e., a
building made of steel and the process of designing and
constructing a structure with steel). In this case, Applicant urges that its services are not merely reservation
services but also include “soliciting and collating usergenerated content such as reviews of lodgings and other
travel related items”; and that customers would appreciate that BOOKING.COM “conveys much more than
mere ‘reservation’ services.” 70 We do not agree that, in
the context of Applicant’s identified services, customers
would perceive any ambiguity or dual meaning in the term
70

Applicant’s brief at 27, 55 TTABVUE 28.

176a
BOOKING.COM. Rather, in that context, BOOKING.
COM would be obviously and immediately understood
as having the meaning of booking travel, tours, and lodgings through an internet service.
We therefore find that the Examining Attorney’s dictionary and usage evidence demonstrates, prima facie,
by clear evidence, that relevant customers would understand the term BOOKING.COM primarily to refer to an
online reservation service for travels, tours, and lodgings; and that Applicant’s evidence of its business success and high level of customer satisfaction does not rebut this showing. Accordingly, we affirm the Examining Attorney’s refusal to register Applicant’s mark on the
ground that BOOKING.COM is generic.
3.

The refusal, in the alternative, on grounds of mere
descriptiveness.

Bearing in mind the possibility that our finding that
Applicant’s mark is generic may be reversed on appeal,
we find it appropriate to consider the Examining Attorney’s refusal to register the mark on the ground that it
is merely descriptive of Applicant’s services and that
Applicant has failed to demonstrate that it has acquired
distinctiveness.
The dictionary and usage evidence submitted by the
Examining Attorney demonstrates, at the very least,
that BOOKING.COM is very highly descriptive and
would require significant evidence of acquired distinctiveness in order to allow registration of the mark.
Yamaha Int’l Corp. v. Hoshino Gakki Co., 840 F.2d
1571, 6 USPQ2d 1001 1008 (Fed. Cir. 1988) (The kind

177a
and amount of evidence of acquired distinctiveness required to secure a registration will necessarily vary with
the subject matter for which registration is sought.).
(a)

Applicant’s services in Class 39.

Initially we note that the application does not make
any claim that Applicant has used its mark for any of the
services identified in Class 39 (i.e., services relating to
reservations for travel and tours); and there is no evidence that Applicant has in fact provided reservation
services relating to tours or the transportation of passengers. All of the evidence of record relates to reservation services for lodging. In particular, we note that
the Prakke declaration refers only to Applicant’s “online
hotel reservation service through which hotels all over
the world can advertise their rooms for reservation and
through which customers all over the world can make
reservations.” 71 Therefore, there is no evidence to support a finding that BOOKING.COM has acquired distinctiveness with respect to Applicant’s identified services in Class 39. Accordingly, we affirm the Examining
Attorney’s refusal under Section 2(e)(1) as to the services in Class 39.
(b)

Applicant’s services in Class 43.

Applicant has made of record the following evidence
showing the scope and success of its business in the field
of reservations for hotels and other lodging:
•

The J.D. Power survey discussed above.

Prakke declaration ¶ 2, Applicant’s response of May 19, 2014
at 85.
71

178a
•

The Prakke declaration stating that Applicant commenced use of BOOKING.COM in June, 2006; that
Applicant’s websites have averaged 10.3 million
unique visitors from the United States per month;
that there are over 2.2 million U.S.-based subscribers to Applicant’s newsletters, which are distributed two or three times per month; that Applicant
has advertised extensively on television, the internet, and in movie theatres; that in the first quarter
of 2013, its movie theatre commercials reached over
20 million U.S. consumers; and its streamed advertisements on third-party internet websites reached
19 million U.S. consumers; and that Applicant’s services under the BOOKING.COM mark have received notice in the press and in the hospitality and
advertising industries. Mr. Prakke also states his
belief that BOOKING.COM “is recognized as a
source-identifier and has become distinctive of Applicant’s services through its substantial sales and
great commercial success, as well as its substantially exclusive and continuous use of the mark in
U.S. Commerce for many years.”
The declaration states the number of roomnights
booked daily (625,000) and the transaction value of
its reservations in 2012 and 2013 (exceeding $3 billion
and $8 billion, respectively); however, these figures
are not limited to services provided to U.S. customers. The declaration also sets forth figures for
Twitter followers and Facebook “likes,” but again
these are not limited to U.S. persons.

179a
•

Information (submitted as exhibits to the Prakke
declaration) regarding Applicant’s receipt of a Gold
level Adrian Award from Hospitality Sales & Marketing Association International; and “Best Tablet
App” and “Best Mobile Site” awards for 2014 from
Mobile Travel & Tourism.

•

Five news items taking note of Applicant’s business
(from NBCNews.com; Orlando Business Journal;
Adweek; Los Angeles Times; and Hospitality Net).

This evidence would not under any circumstances
render a generic term registrable. See In re Northland Aluminum Prods., Inc.,777 F.2d 1556, 227 USPQ
961 (Fed. Cir. 1985). Assuming for the sake of analysis
that BOOKING.COM is not generic, but highly descriptive, we must consider whether the evidence suffices to
render the term registrable under Section 2(f ).
The Examining Attorney’s evidence showing that
third parties make use of the term “booking.com” in
their trade names and domain names seriously undercuts Applicant’s claim to have made “substantially exclusive” use of the term, as well as Applicant’s claim to
have acquired distinctiveness. See Levi Strauss & Co.
v. Genesco, Inc., 742 F.2d 1401, 222 USPQ 939, 940-1
(Fed. Cir. 1984) (“When the record shows that purchasers are confronted with more than one (let alone numerous) independent users of a term or device, an application for registration under Section 2(f ) cannot be successful, for distinctiveness on which purchasers may
rely is lacking under such circumstances.”); and In re
Boston Beer Co. L.P., 198 F.3d 1370, 53 USPQ2d 1056,
11058 (Fed. Cir. 1999) (“The examples of use of the
phrase by others in its descriptive form support the

180a
board’s conclusion that the mark had not acquired distinctiveness.”) Such evidence confirms what is suggested by the evidence of the meanings of the terms
“booking” and “.com” and the ways in which people use
these terms: that is, the combination of these terms
not only appears to be a likely way for people to describe
reservation services provided online, but has actually already been adopted for that purpose by businesses in
Applicant’s field.
In view of the highly descriptive nature of BOOKING.
COM and its actual use in the marketplace by third parties, very strong evidence of acquired distinctiveness
would be required to render the term registrable. We
find Applicant’s demonstration of its business success to
be insufficient for this purpose, especially because it
does not focus on demonstrating actual market recognition of BOOKING.COM as a source indicator. The
press notices are few in number, and while one of them
refers to Applicant as a “[h]otel booking giant,” the
same article also states, “even though many Americans
are unfamiliar with the brand, Booking.com is the largest hotel-booking site in the world . . . ” 72 The record contains no statements by customers indicating the
degree of their recognition of the term as Applicant’s
source-indicator; and the record has very few examples
of Applicant’s advertising materials to show how Applicant has sought to replace, in the minds of consumers,
the general descriptiveness of the term with an impression of single-source identification. The press release
relating to the J.D. Power survey, which neither sets
forth the questions asked nor the answers received from

72

Applicant’s response of May 19, 2014 at 105-6 (emphasis added).

181a
the survey respondents, does not present the unmediated views of consumers, but merely an undetailed digest of their responses, indicating general satisfaction
with Applicant’s services. Considering that the structure of the term BOOKING.COM indicates that it refers
to an internet address, the survey does not show that
customers recognize BOOKING.COM as a single-source
indicator, but only that they were satisfied with the services provided at a particular internet address. Overall, we find Applicant’s evidence to be too sparse and
equivocal to indicate that a term as highly descriptive as
BOOKING.COM has acquired distinctiveness under
Section 2(f ). We therefore affirm the Examining Attorney’s refusal to register Applicant’s mark on the
ground that BOOKING.COM is merely descriptive and
that Applicant has failed to demonstrate that the term
has acquired distinctiveness within the meaning of Section 2(f ).
Decision: The refusal to register Applicant’s mark
is AFFIRMED on the ground that BOOKING.COM is
generic as applied to Applicant’s services; and on the
ground that BOOKING.COM is merely descriptive of
Applicant’s services and has not been shown to have acquired distinctiveness.

182a
APPENDIX E
UNITED STATES PATENT AND TRADEMARK OFFICE

Trademark Trial and Appeal Board
IN RE BOOKING.COM B.V.
Serial No. 85485097
Hearing: Jan. 5, 2016
Mailed: Feb. 18, 2016
Before: SHAW, ADLIN and MASIELLO, Administrative
Trademark Judges.
Opinion by MASIELLO, Administrative Trademark Judge:
Booking.com B.V. (“Applicant”) filed an application
for registration on the Principal Register of the mark
shown below:1

Application Serial No. 85485097 was filed on December 1, 2011
under Trademark Act Sections 1(a) and 44(e), 15 U.S.C. §§ 1051(a)
and 1126(e).
1

183a
The colors white, light blue, and dark blue are claimed
as features of the mark. The design to the left of the
wording is described in the application as “a stylized depiction of the earth behind a briefcase.”
The services identified in the application (as amended)
are:
Travel agency services, namely, making reservations
for transportation; travel and tour ticket reservation
services; travel agency services, namely, making reservations for transportation for tourists; provision of
travel information; providing consultation related to
making reservations for transportation, and travel
and tour ticket reservation; all of the foregoing services rendered in-person and via the internet, in International Class 39;
Making hotel reservations for others in person and
via the internet; providing personalized information
about hotels and temporary accommodations for
travel in-person and via the Internet; providing online reviews of hotels; consultation services related to
making hotel reservations for others, provision of
personalized information about hotels and temporary
accommodations for travel, and on-line reviews of hotels, in International Class 43.
With respect to the Class 39 services, the Application
is based solely on Applicant’s OHIM Registration No.
005752274, issued April 24, 2008, under Section 44(e).
With respect to the Class 43 services, the Application is
based on the above OHIM registration under Section
44(e) and on Applicant’s use of the mark in commerce,
under Section 1(a), claiming January 12, 2005 as the date
of first use and first use in U.S. commerce.

184a
The Examining Attorney required, as a condition of
registration, that Applicant disclaim the exclusive right
to use BOOKING.COM apart from the mark as shown,
on the ground that this wording is merely descriptive of
Applicant’s services and, therefore, an unregistrable
component of the mark under Trademark Act Section 6,
15 U.S.C. § 1056. When Applicant claimed, in the alternative, that BOOKING.COM has acquired distinctiveness and is entitled to registration under Section
2(f ), 15 U.S.C. § 1052(f ), the Examining Attorney maintained her requirement of a disclaimer on the ground
that the wording in the mark is merely descriptive of
Applicant’s services and that Applicant’s evidence is inadequate to demonstrate acquired distinctiveness; and
on the ground that the wording in the mark is generic as
applied to the services, and that therefore no amount of
evidence purporting to demonstrate acquired distinctiveness could render the wording registrable. When
the Examining Attorney made her refusals to register
the mark final, Applicant appealed to this Board and requested reconsideration. The Examining Attorney denied the request for reconsideration and this appeal proceeded.
At Applicant’s request, this case was consolidated
with three other pending appeals of refusals to register
the marks in Applicant’s related application Serial Nos.
79122365, 79122366 and 79114998.2 Applicant chose to
address all four cases in a single set of briefs, having
been granted leave to exceed the page limit for its main
brief. 3 The cases were fully briefed, including extra

2
3

Board order of December 12, 2014, 19 TTABVUE.
Board order of January 30, 2015, 21 TTABVUE.

185a
supplemental briefs filed by both Applicant and the Examining Attorney. An oral hearing was held January
5, 2016. The evidentiary record in this case is sufficiently different from the records of the other applications that we find it appropriate to issue a separate decision.
The Director of the USPTO “may require the applicant to disclaim an unregistrable component of a mark
otherwise registrable.” Trademark Act Section 6(a).
The USPTO may require a disclaimer as a condition of
registration if the term at issue is merely descriptive of
any of the identified goods or services. In re Stereotaxis
Inc., 429 F3d 1039, 77 USPQ2d 1087, 1089 (Fed. Cir.
2005). In this case, the Examining Attorney maintains
that the wording BOOKING.COM is not only merely descriptive, but generic as applied to Applicant’s services.
A generic term is “the ‘ultimate in descriptiveness.’ ” In
re La. Fish Fry Prods., Ltd., 797 F.3d 1332, 116 USPQ2d
1262, 1264 (Fed. Cir. 2015).
A mark (or a component thereof ) is generic if it refers
to the class or category of goods or services on or in connection with which it is used. In re Dial-A-Mattress Operating Corp., 240 F.3d 1341, 57 USPQ2d 1807 (Fed. Cir.
2001), citing H. Marvin Ginn Corp. v. Int’l Ass’n of Fire
Chiefs, Inc., 782 F.2d 987, 228 USPQ 528 (Fed. Cir. 1986)
(“Marvin Ginn”). The test for determining whether a
mark is generic is its primary significance to the relevant public. In re American Fertility Soc’y, 188 F.3d
1341, 51 USPQ2d 1832 (Fed. Cir. 1999); Magic Wand
Inc. v. RDB Inc., 940 F.2d 638, 19 USPQ2d 1551 (Fed. Cir.
1991); and Marvin Ginn, supra. Making this determination “involves a two-step inquiry: First, what is the genus of goods or services at issue? Second, is the term

186a
sought to be registered . . . understood by the relevant public primarily to refer to that genus of goods or
services?” Marvin Ginn, 228 USPQ at 530. The examining attorney has the burden of establishing by clear
evidence that a mark is generic. In re Merrill Lynch,
Pierce, Fenner and Smith, Inc., 828 F.2d 1567, 4 USPQ2d
1141 (Fed. Cir. 1987); In re American Fertility Soc’y,
supra; and Magic Wand Inc., supra. “Doubt on the issue of genericness is resolved in favor of the applicant.”
In re DNI Holdings Ltd., 77 USPQ2d 1435, 1437 (TTAB
2005).
1.

The genus of Applicant’s services.

Our first task under Marvin Ginn is to determine,
based on the evidence of record, the genus of Applicant’s
services. Because the identification of goods or services in an application defines the scope of rights that
will be accorded the owner of any resulting registration
under Section 7(b) of the Trademark Act, generally “a
proper genericness inquiry focuses on the description of
services set forth in the [application or] certificate of
registration.” Magic Wand, 19 USPQ2d at 1552, citing
Octocom Sys., Inc. v. Houston Computer Servs., Inc.,
918 F.2d 937, 942, 16 USPQ2d 1783, 1787 (Fed. Cir.
1990). The recitations of services in Classes 39 and 43
can be accurately summarized as follows:
Class 39: Travel agency services, namely, making reservations for transportation and providing
related information and consultation, including such services performed online.

187a
Class 43: Making hotel reservations in person and via
the internet, providing related information
and consultation, and providing online reviews
of hotels.
We consider the foregoing summaries to suitably express the genus of the services in each class.
2.

Public understanding of the term BOOKING.COM.

We next consider whether BOOKING.COM would be
understood by the relevant public primarily to refer to
each genus of services discussed above. The relevant
public consists of all persons having an interest, from
time to time, in arranging a reservation for transportation or for a room in a hotel, resort, or other lodging; in
obtaining information or consultation regarding such
reservations; and in reading online reviews of hotels.
The Examining Attorney’s refusal and supporting arguments focus almost exclusively on Applicant’s online
reservation services, and we will do the same. 4 Registration is properly refused if the mark is generic with
respect to any one of the services for which registration
is sought in a given International Class. In re Analog
Devices, Inc., 6 USPQ2d 1808, 1810 (TTAB 1988), aff ’d,
871 F.2d 1097, 10 USPQ2d 1879 (Fed. Cir. 1989) (unpublished); Cf. In re Stereotaxis Inc., 77 USPQ2d at
1089, quoting, Application of Richardson Ink Co.,
511 F.2d 559, 185 USPQ 46, 48 (CCPA 1975) (“Our predecessor court
. . . has stated that registration
should be refused if the mark is descriptive of any of the

While Applicant’s brief refers to its “brick and mortar services,”
22 TTABVUE 28, there is no evidence showing that Applicant’s services are available otherwise than online.
4

188a
goods for which registration is sought.”). In our deliberations, we have considered all of the evidence of record. We summarize below the evidence that we found
most highly relevant and probative regarding the public’s understanding of Applicant’s mark.
(a)

Salient evidence of record.

As evidence of the relevant public’s understanding of
Applicant’s mark, the Examining Attorney and Applicant made of record various definitions of the word
“booking,” including:
:
an arrangement for a person or group (such as a
singer or band) to perform at a particular place
:
an arrangement to have something (such as a
room) held for your use at a later time
. . .
:

RESERVATION

*

5

*

*

*

*

1. an arrangement to buy a travel ticket, stay in a
hotel room, etc. at a later date Increasingly, travelers
are using the Internet for both information and
bookings.
You can make a booking on the
phone with a credit card.
make a booking:

2. an arrangement made by a performer to perform at a particular place and time in the future. 6
Definition at <merriam-webster.com>, Applicant’s response of
October 11, 2013 at 71.
6
Definition at <macmillandictionary.com>, Office Action of May
23, 2014 at 69.
5

189a
*

*

*

*

*

1. An act of reserving accommodations, travel, etc.,
or of buying a ticket in advance:
‘the hotel does not handle group bookings’
‘early booking is essential’
1.1 An engagement for a performance by an entertainer:
‘TV show bookings were mysteriously canceled’ 7
*

*

*

*

*

the act of reserving (a place or passage) or engaging
the services of (a person or group)
“wondered who had made the booking”
Synonyms:

reservation 8
*

*

*

*

*

an engagement, as for a lecture or concert. 9
The Examining Attorney has also made of record the
following definition of “.com”:
abbr.
commercial organization (in Internet addresses). 10

Definition at <oxforddictionaries.com/us/definition/american_
english>, id. at 61.
8
Definition at <vocabulary.com>, id. at 73.
9
Definition at <collinsdictionary.com/dictionary/American>, Applicant’s response of October 11, 2013 at 68.
10
THE AMERICAN HERITAGE DICTIONARY OF THE ENGLISH LANGUAGE (Fifth ed. 2011), Office Action of October 28, 2013 at 16.
7

190a
*

*

*

*

*

The Examining Attorney made of record excerpts
from numerous websites that use the term “booking” to
describe Applicant’s online services and similar online
services provided by others. Notably, Applicant’s own
materials make liberal use of the term “booking.” Applicant’s specimen of use states:
To notify Booking.com of an invalid credit card,
please login to the Extranet and go to the Bookings
tab. . . . All reservations will be listed there by
booking and arrival date. . . .
Overbooking:

If the hotel is overbooked please make every effort to
accommodate the guest at a different hotel. 11
Applicant’s own website uses “booking,” both as a noun
meaning a hotel reservation and as a verb meaning to
make such a reservation:
We’ll match the price of the other deal if:
1. You contacted us immediately after booking
with all the details of the other deal . . .
. . .
4. The conditions of your booking with us still allow
penalty-free cancellations and modifications.12
Applicant’s website sets forth a selection of available hotels in various cities, indicating when the latest “booking” was made at the particular hotels:

11
12

Application at 19.
Office Action of October 28, 2013 at 22.

191a
New York City
452 properties
. . .
Helmsley Park Lane Hotel * * * *
from $325
Score from 3590 reviews. Very good, 8.1
Latest booking: 32 minutes ago
There are 31 people looking at this hotel
Four Points by Sheraton Midtown—
Times Square * * *
from $299
Score from 875 reviews. Very good, 8
Latest booking: 13 minutes ago
There are 26 people looking at this hotel 13
Similarly, third-party websites also use the term
“booking” in various formulations as the name of travel
reservation services. Such services have been called
(among other things), booking travel, booking travel
online, booking, booking system, booking sites, booking
websites, online bookings, travel-booking, travel-booking
sites, travel-booking website, online travel booking sites,
hotel bookings, hotel website booking engine, hotel booking services, online hotel booking, mobile booking engine,
and internet booking engines. Examples of use follow:
3 Myths About Booking Travel From the Source
. . . travelers who do not book directly with the airline will pay higher fees, . . . [T]he best deals I’ve
found lately are the result of booking directly with a
hotel or airline. 14
Id. at 17 (emphasis added).
“3 Myths About Booking Travel From the Source,” The New
York Times, September 26, 2012. Office Action of November 28,
2012 at 16-17.
13
14

192a
*

*

*

*

*

Get your holiday off to a flying start by booking a
cheap flight to hundreds of destinations ebookers offers.15
*

*

*

*

*

Smart, Simplified Online Bookings
Checkfront is a hosted real-time booking system for
Tours, Activities & Hospitality. 16
*

*

*

*

*

Booking Travel Online?
A couple of years ago, online travel-booking sites
such as Expedia and Travelocity began issuing servicerelated manifestos . . . 17
*

*

*

*

*

The Shift in Desktop to Mobile & Tablet Continues
to Transform Hotel Bookings in Q1 2014. 18
*

*

*

*

*

Hotel Reservation Solutions
Hotel Website Booking Engine
Mobile Booking Engine. 19

15
16
17
18
19

<ebookers.com>, id. at 24.
<checkfront.com>, id.at 26.
“Booking Travel Online?,” Travel+Leisure, April 2008, id. at 30.
<genares.com>, Office Action of May 23, 2014 at 16.
<genares.com>, id.at 19.

193a
*

*

*

*

*

At InnLink Central Reservations, we do more than
provide central reservations services . . . Featuring . . . branded internet booking engines,
mobile booking engines, . . . 20
*

*

*

*

*

Hotel Booking—Expedia Guarantees the Best Price
Book & Save on Hotel Booking.
. . .
Orbitz® Book Hotels—ORBITZ.com
. . .
6 best travel-booking tricks you’re not using . . .
A quirk of travel-booking systems is that they will
show the lowest fare available to seat your entire
party . . .
. . .
The Top Online Travel Booking Sites for January
201421
*

*

*

*

*

How to Save Money When Booking Travel Online
Websites like Expedia.com, Hotwire.com and Orbitz.
com have all but eliminated the need for travel agents
. . . [W]e persuaded CheapAir.com CEO Jeff Klee,
Getaroom.com and Hotels.com co-founder Bob Diener,
and Airfarewatchdog creator George Hobica to divulge their own travel booking secrets.

20
21

<innlink.com>, id.at 21.
<google.com> search results for “hotel booking,” id.at 75, 78.

194a
. . .
“A lot of booking sites have eliminated flexible
search,” . . . stressing that you should spend extra time looking at prices both on booking websites
and directly on airline websites.22
*

*

*

*

*

This Travel-Booking Website Loves it When You Call
. . . Plenty of people still want a fellow human for
travel booking, . . . 23
*

*

*

*

*

2013 Best Hotel Booking Services Comparisons and
Reviews
. . .
Hotel Booking Services Review
Why Hotel Booking Services?
. . . you will almost certainly benefit from using a
hotel booking service to research the best lodging
deals.24
*

*

*

*

*

When it comes to the gold standard of online hotel
booking, one site comes to mind. Marriott.com25
“How to Save Money When Booking Travel Online,” Huff Post
Travel, October 22, 2013, Office Action of October 28, 2013 at 11-13.
23
“This Travel-Booking Website Loves it When You Call,” Bloomberg Businessweek Technology, August 22, 2013, id. at 26-27.
24
“2013 Best Hotel Booking Services Comparisons and Reviews,”
TopTen Reviews, id. at 30-31.
25
<marriott.com>, id.at 39.
22

195a
*

*

*

*

*

Review or Cancel a Booking
Review your booking
Retrieve your booking to view/print your itinerary
online
If you made your booking with Air New Zealand
through our website or over the telephone you can
view your booking online. 26
*

*

*

*

*

Manage My Booking
. . . Log in to your booking
ing . . . 27

. . .

Find my book-

The Examining Attorney has made of record evidence of third-party domain names and trade names
that include the designation “booking.com”:
Domain name

Nature of use

hotelbooking.com

website called hotelbooking.com, offering
“your best hotel web
search engine.” 28

instantworldbooking.com

website called Instant
World Booking.com,
offering “Online booking for hotels, youth

<airnewzealand.com>, Office Action of November 28, 2012 at 22.
<britishairways.com>, id.at 29.
28
Website at <hotelbooking.com>, Office Action of October 28,
2013 at 41-42.
26
27

196a
hostels, and bed and
breakfast accommodations at world heritage
destinations.” 29
blinkbooking.com

website offering mobile application called
Blink: “In just a few
taps, you can book a
room in Europe’s best
hotels: it’s that simple!” 30

francehotelbooking.com

website called Link
Paris .com, offering to
“find you a great
Paris hotel” and hotel
search
for
other
French cities.31
U.S. Reg. No. 3888087,
for “Travel agency services, namely, making
reservations and bookings for temporary accommodations for others by means of the
Internet.32

29
30
31
32

Id. at 46-48.
Office Action of November 28, 2012 at 14-15.
Office Action of October 28, 2013 at 43-44.
Office Action of May 23, 2014 at 37-39.

197a
Images of some of these websites are set forth below:

198a
The record also includes evidence of domain names that
combine “.com” with various combinations of the words
“booking” or “book,” including the following: 33
Bookingbuddy.com
Fastbooking-hotels.com
Hotelbookingsolutions.com
Ebookers.com
BOOKINGWIZ.COM 34
To demonstrate public understanding of BOOKING.
COM, Applicant has made of record and focuses heavily
upon a two-page, 2012 J.D. Power & Associates press
release relating to its rankings of independent travel
websites based upon a consumer survey, accompanied
by a one-page chart. Neither the survey itself nor any
supporting or background material about the survey is
of record. Salient excerpts of the press release are set
forth below:
J.D. Power and Associates Reports:
Pricing Is the Strongest Driver of Satisfaction with
Independent Travel Websites

Booking.com Ranks Highest in Overall Satisfaction
among Independent Travel Websites
. . . Satisfaction with the price paid on a travel
website drives high overall satisfaction among consumers with their overall website experience, accord-

Office Action of October 28, 2013 at 34-38, 45, and Office Action
of November 28, 2012 at 23-25.
34
Reg. No. 3634936, Office Action of May 23, 2014 at 32-33.
33

199a
ing to the J.D. Power and Associates 2012 Independent Travel Website Satisfaction Report SM released
today.
“ . . . the highest-ranked travel websites in overall satisfaction all have significantly higher price satisfaction scores than the report average,” said Sara
Wong Hilton . . . “While other factors certainly
affect overall satisfaction, 75 percent of online travel
website consumers indicate price as a primary purchase reason, so there is no denying price greatly impacts the overall website experience.”
The report measures consumers’ overall satisfaction
with their purchase experience on an independent
travel website, which consists of a vacation package,
flight, hotel or rental car. The report examines
seven factors (listed in order of importance): competitiveness of pricing; usefulness of information; availability of booking/reservation options; website/online
store; ease of booking/reserving; competitiveness of
sales and promotions; and contact with customer service. . . .
Independent Travel Website Satisfaction Rankings

Booking.com ranks highest with a score of 816, performing particularly well in availability of booking/
reservation options; ease of booking/reserving; and
pricing. Following Booking.com in the rankings are
Hotwire.com (813) and Priceline.com (808).
The 2012 Independent Travel Website Satisfaction
Report is based on responses from 2,009 consumers

200a
who made an online purchase from an independent
travel website in the past 12 months. . . . 35
The chart accompanying the press release is set forth
below:36

35
36

Applicant’s response of April 29, 2014 at 82-83.
Id. at 84.

201a
The press release is supported by a declaration of Applicant’s CFO, Olivier Bisserier, stating:
Applicant’s BOOKING.COM service has received
numerous industry awards, including, for example:
- J.D. Power and Associates, a premier research
and analytics firm, ranked BOOKING.COM
First in Consumer Satisfaction among independent travel websites based on a consumer
survey (awarded in 2013); . . . 37
The Bisserier Declaration also states that Applicant has
won awards for a 2013 advertising campaign; for “Best
Tablet App”; and “Best Mobile Site.” 38 It also sets
forth figures for the following aspects of Applicant’s
business:
-

countries served;

-

accommodations-providers accessible via the
service;

-

transaction value (worldwide) of accommodation
reservations made;

-

unique monthly U.S. visitors to website;

-

roomnights reserved daily (worldwide);

-

languages in which the service is offered;

-

U.S.-based subscribers to Applicant’s newsletters;

Declaration of Olivier Bisserier, ¶ 11, Applicant’s response of
April 29, 2014 at 75.
38
Id.
37

202a
-

television channels on which commercials have
been aired;

-

American consumers reached through commercials in movie theatres and streamed internet
commercials;

-

Facebook “likes” and “talking about”;

-

Twitter followers;

-

number of unsolicited news articles found in a
Google News search. 39

(b)

Discussion.

It is clear from the dictionary definitions that an accepted meaning of “booking” is a reservation or arrangement to buy a travel ticket or stay in a hotel room;
or the act of reserving such travel or accommodation.
It is also clear from the Internet evidence that the term
“booking” has been widely used to describe the service
of arranging reservations for hotel rooms or air travel,
as described in Applicant’s recitation of services and as
comprehended by the applicable genera of services.
Applicant contends that the dictionary definitions
show that the primary descriptive meaning of “booking”
does not relate to travel, but to theatre bookings, referring to definitions such as “a contract, engagement, or
scheduled performance of a professional entertainer”;
“An engagement, as for a performance by an entertainer”; and “an arrangement for a person or group
(such as a singer or band) to perform at a particular
place.” Applicant also refers to definitions from THE
ONLINE SLANG DICTIONARY and URBAN DICTIONARY,
39

Id. at 83-90.

203a
showing that “book” as an adjective may mean “cool,”
that “to book” may mean “to leave quickly,” and that
“booking” may mean “running really fast.” 40 Applicant
argues:
The existence of alternate meanings of the wording
at issue precisely calls into question what is the “primary” significance of the term “booking” (not even
BOOKING.COM) to consumers. . . . Indeed, it is
fundamentally inconsistent for the Examiner both to
assert that the Board should give weight to dictionary definitions of the word “booking” while at the
same time telling the Board to shield its eyes from
some of those definitions (including the primary definition) that undermine the Examiner’s argument. 41
Applicant’s arguments are unavailing. The question before us is the understanding of “the relevant public,” which in this case consists of persons having an interest in reservations for transportation or hotel rooms.
Those persons would be exposed to the mark in the context of those services and, accordingly, that is the context in which we must consider the primary meaning of
the term at issue. In one of the most lucid discussions
of this point, Abercrombie & Fitch Co. v. Hunting
World , Inc., 537 F.2d 4, 189 USPQ 759 (2d Cir. 1976),
the Court acknowledged that in the spectrum of distinctiveness (generic/descriptive/suggestive/arbitrary/
fanciful) “a term that is in one category for a particular
product may be in quite a different one for another,
40
Applicant’s brief at 21, fn5, 22 TTABVUE 22, referring to evidence submitted with Applicant’s Response of May 15, 2014 at 56-59
in Application Serial No. 79122366.
41
Applicant’s reply brief at 12, 25 TTABUE 13.

204a
. . . [and] a term may have one meaning to one group
of users and a different one to others
. . .
,”
189 USPQ at 764; and that “a word may have more than
one generic use.” 189 USPQ at 766.42 See also Gear
Inc. v. L.A. Gear California Inc., 670 F. Supp. 508,
4 USPQ2d 1192, 1197 (S.D.N.Y. 1987) (“that the word
‘gear’ is more frequently used in its several other meanings than as a term for wearing apparel” does not save
it from a finding of genericness for apparel; “the term at
issue is still generic if its principal meaning in the relevant market is generic”), vacated in part, dismissed,
13 USPQ2d 1655 (S.D.N.Y 1989); In re ActiveVideo Networks, Inc., 111 USPQ2d 1581, 1588 (TTAB 2014) (meteorological meanings of “cloud” irrelevant as to whether CLOUDTV is generic for computer goods and services); and In re Rosemount Inc., 86 USPQ2d 1436, 1439
(TTAB 2008) (“It is well established that we must look
to the meaning of the term within the context of the
identified goods.”).
Applicant correctly points out that we must consider
its mark in its entirety. 43 Applicant argues further:

In Abercrombie, the word “safari,” as applied to apparel, was at
issue. The fact that “safari” had a specific meaning in the unrelated
context of “an expedition into the African wilderness” did not prevent the Court from finding the term generic in the field of fashion
apparel. 18 USPQ at 766.
43
We must point out that the Examining Attorney was wrong to
say, in her brief, “Applicant is incorrect in its brief in claiming
that the required standard for a finding of genericness is that the
composite mark BOOKING.COM as a full phrase be generic.”
24 TTABVUE 12 (emphasis in original). The opposite is true: to
affirm the Examining Attorney’s refusal we must find that a mark,
in its entirety, is generic.
42

205a
In each of the Office Actions, the Examiners have
submitted evidence showing descriptive use of “booking” and “.com” separately as evidence that the composite mark BOOKING.COM is generic. This analytical structure sets a lower bar for genericness for domain name marks than other marks, ignores the realities of the marketplace and is contrary to settled
law.
There is no evidence whatsoever that consumers isolate and separately consider “BOOKING” and “.COM”
in Applicant’s mark . . . 44
We do not agree that the Examining Attorney’s approach is improper. In In re Hotels.com LP, 573 F.3d
1300, 91 USPQ2d 1532 (Fed. Cir. 2009), in which the
mark HOTELS.COM was at issue, the Court said, “We
discern no error in the Board’s consideration of the word
‘hotels’ for genericness separate from the ‘.com’ suffix.”
91 USPQ at 1535. The Court implicitly approved the
same approach in In re Reed Elsevier Props. Inc.,
77 USPQ2d 1649 (TTAB 2005), aff ’d, 82 USPQ2d 1378
(Fed. Cir. 2007), in which the Board considered separate
dictionary definitions of “lawyer” and “.com”; and the
Court expressly approved this approach in In re
1800Mattress.com IP LLC, 586 F.3d 1359, 92 USPQ2d
1682, 1684 (Fed. Cir. 2009) (“[T]he Board considered
each of the constituent words, “mattress” and “.com,”
and determined that they were both generic. . . . The
Board then considered the mark as a whole . . . ”)
In all of these cases, the Court held to be generic marks
that were similar in structure to the wording of Applicant’s mark on the basis of evidence highly similar to
44

Applicant’s brief at 7, 22 TTABVUE 8.

206a
that now before us. The fact that “booking” and “.com”
appear in dictionaries separately, but not together, does
not mean that their combination cannot be generic.
The relevant analysis under Marvin Ginn is to determine what relevant customers would understand from
the combination of these two terms. As the Court
stated in Hotels.com, “the generic term ‘hotels’ did not
lose its generic character by placement in the domain
name HOTELS.COM.” 91 USPQ2d at 1535.
Addressing the term BOOKING.COM as a whole, the
Examining Attorney contends:
Each of the terms BOOKING and .COM has a clear
and readily understood meaning and the combined
term communicates just as clearly and directly that
Applicant operates a commercial website that provides its customers with booking information and reservation booking services.45
This contention is supported by the dictionary definitions, quoted above, indicating that “booking” means
“reservation” or “an arrangement to buy a travel ticket,
stay in a hotel room, etc. . . . ” and that “.com” is an
abbreviation meaning “commercial organization (in Internet addresses).” It is also supported by the Internet evidence showing how third parties use the words
“booking” and the suffix “.com”; and how they use the
combination “booking.com” as a component of domain
names and trade names.

Examining Attorney’s brief, 24 TTABVUE 13 (emphasis in original).
45

207a
Applicant suggests that the question before us is as
follows:
. . . the Examiners must show that the “primary
significance” of BOOKING.COM “to the relevant
consuming public” is simply to designate the genus
or class of services identified in the applications [citing Magic Wand].46
[The question is whether] the entire term is used or
recognized by consumers to designate a genus of
goods or services and that the primary significance
of such usage is the generic designation.
. . .
BOOKING.COM is not literally a genus or class
name, but it at most contains elements descriptive or
suggestive of the class. 47
The above formulations overstate the rule that we must
apply. Marvin Ginn does not require that the public
use a term to designate the genus; only that the public
understand the term to refer to the genus. Marvin
Ginn does not require that a term literally be the name
of the genus; only that it be understood primarily to refer to the genus. This degree of flexibility was clear in
Marvin Ginn and was restated with clarity by the Federal Circuit in In re 1800Mattress.com:
The test is not only whether the relevant public would
itself use the term to describe the genus, but also
whether the relevant public would understand the
term to be generic. See H. Marvin Ginn, 782 F.2d
at 990 (describing the test as whether the term is “understood by the relevant public primarily to refer to
46
47

Applicant’s brief at 5, 22 TTABVUE 6.
Id. at 10, 22 TTABVUE 11 (emphasis in original).

208a
[the appropriate] genus of goods or services”).
Thus, it is irrelevant whether the relevant public refers to online mattress retailers as “mattress.com.”
Instead, as the Board properly determined, the correct inquiry is whether the relevant public would understand, when hearing the term “mattress.com,”
that it refers to online mattress stores.
92 USPQ2d at 1685 (emphasis in original). Thus, while
it might be true that “it is impossible to use BOOKING.
COM in a grammatically coherent way to refer generically to anything”; or that “it is not at all logical to refer
to a type of product or service as a ‘booking.com’ ”; 48
that does not mean that this term could not be understood primarily to refer to an online service for making
bookings. In other words, the test is not whether the
public can use the term in a grammatically correct sentence, but whether the public understands the term to
refer to the genus.
The Examining Attorney’s contentions as to the public’s understanding of the combination BOOKING.COM
are supported by the dictionary evidence; the Internet
evidence showing how third parties use the words
“booking” and the suffix “.com”; and, perhaps most importantly, the evidence of how third parties use the combination “booking.com” as a component of domain
names and trade names in the field of travel and hotel
reservations. We must, however, balance the Examining Attorney’s evidence against Applicant’s evidence of
public perceptions, including the J.D. Power survey.
Applicant argues:

48

Id. at 12, 22 TTABVUE 13.

209a
It defies logic that consumers would rank BOOKING.
COM as the most trusted accommodations website if
consumers failed to recognize BOOKING.COM as a
source-identifier. Stated another way, if BOOKING.
COM merely designated a type or category of services,
consumers would not be able to attribute any particular level of quality to services offered under the designation. This is plainly not the case . . . 49
It bears noting, before we proceed, that Applicant’s
characterization of the J.D. Power survey as showing
that Applicant is “the most trusted accommodations
website” is a substantial overstatement. As the press
release, quoted above, indicates, the survey related to
customers’ “satisfaction,” and trust was not one of the
seven factors measured by the survey. Even if we
were to accept the J.D. Power press release for the truth
of the matters asserted in it,50 we find that it is at best
a very indirect demonstration of what relevant customers understand “booking.com” to mean. The press release tells us that survey subjects were asked about
seven factors—pricing; information provided; booking
options; the online “store”; ease of booking; sales and
promotions; and customer service—with respect to specific travel websites. These are not the types of questions that would be posed to subjects of a typical genericness survey (e.g., a “Teflon” or “Thermos” survey),
which would test whether subjects perceive a term as a
brand or a generic term. See E. I. Du Pont de Nemours
Id. at 3, 22 TTABVUE 4.
“The Board generally takes a somewhat more permissive stance
with respect to the admissibility and probative value of evidence in
an ex parte proceeding than it does in an inter partes proceeding.”
TBMP § 1208.
49
50

210a
& Co. v. Yoshida Int’l, Inc., 393 F. Supp. 502, 185 USPQ
597 (E.D.N.Y. 1975); Am. Thermos Prods. Co. v. Aladdin Indus., Inc., 207 F. Supp. 9, 134 USPQ 98 (D. Conn.
1962), aff ’d sub nom. King-Seeley Thermos Co. v. Alladin Indus., Inc., 321 F.2d 577, 138 USPQ 349 (2d Cir.
1963). What the survey does tell us is that participants
had used Applicant’s website and expressed a higher
level of satisfaction with it (based on some unknown
combination of the seven factors) than with other competing websites. Although this survey tells us something about Applicant’s business success—i.e., that its
customers are highly satisfied—it says little or nothing
about what customers understand the term BOOKING.
COM to mean. (Even if the survey had posed more directly relevant questions, the data presented to the
Board are extremely non-specific: we do not know the
actual questions that were posed to the survey subjects,
nor do we have their responses or a tabulation of their
responses, much less an expert’s opinion on the validity
and meaning of the survey’s results.)
We have considered all of Applicant’s evidence, including the testimony in its representative’s declaration
and the exhibits thereto. These materials demonstrate
the scope of Applicant’s business and the success that
Applicant has achieved in marketing its services.
However, compared to the J.D. Power survey, the information these materials provide is even farther afield
from the crucial question: whether customers perceive
BOOKING.COM as a brand or a generic term. The
fact that Applicant has served many customers, or that
its advertising and other communications have reached
many customers and potential customers, does not answer this central question.

211a
By contrast, the Examining Attorney’s evidence is directly relevant to the question of public perception.
We accept the dictionary definitions as evidence of the
generally accepted meanings of the component terms of
Applicant’s mark; and the Internet evidence of actual
third-party uses of the component terms and the combined term “booking.com” is presented with sufficient
context to allow us to understand the use and public perception of these terms.
In Hotels.com, supra, where the USPTO relied on evidence of genericness similar to the Examining Attorney’s evidence here, the applicant presented in rebuttal
a “Teflon” genericness survey showing that 76% of respondents perceived the term at issue as a brand name;
together with 64 declarations of individuals stating that
the term was not generic. Noting the Board’s critique
of the survey, the Court found:
[O]n the entirety of the evidence before the TTAB,
and with cognizance of the standard and burden of
proof borne by the PTO, the TTAB could reasonably
have given controlling weight to the large number of
similar usages of “hotels” with a dot-com suffix, as
well as the common meaning and dictionary definition of “hotels” and the standard usage of “.com” to
show a commercial internet domain. We conclude
that the Board satisfied its evidentiary burden, by
demonstrating that the separate terms “hotel” and
“.com” in combination have a meaning identical to the
common meaning of the separate components. The
Board’s finding that HOTELS.COM is generic was
supported by substantial evidence.

212a
91 USPQ2d at 1537.
The applicant’s evidence in
Hotels.com was far more extensive and supportive of allowing registration than is Applicant’s evidence in this
case.
In In re Reed Elsevier Props. Inc., 82 USPQ2d 1378
(Fed. Cir. 2007), the Court found evidence similar to the
evidence in this case sufficient to demonstrate genericness:
[I]n determining what the relevant public would understand LAWYERS.COM to mean, the board considered eight websites containing “lawyer.com”
or “lawyers.com” in the domain name, e.g., www.
massachusetts-lawyers.com, www.truckerlawyers.com,
and www.medialawyer.com. It discussed the services provided by these websites in order to illuminate what services the relevant public would understand a website operating under Reed’s mark to provide. These websites are competent sources under
In re Merrill Lynch, 828 F.2d at 1570, and they provide substantial evidence to support the board’s finding.
82 USPQ2d at 1381. See also In re 1800Mattress.com
IP LLC, 92 USPQ2d at 1684 (“[H]ere, the Board permissibly gave controlling weight to the large number of similar uses of ‘mattress.com’ as well as the common meanings of ‘mattress’ and ‘.com.’ ”).
Applicant argues that the existence of “ample readily
available terms for the genus of services, such as ‘travel
agency’ (or even ‘travel site’ or ‘accommodation site’)”
constitutes “positive evidence the disputed term is not

213a
generic.” 51 This is a fallacy. The existence of numerous alternative generic terms does not negate the genericness of any one of them. In 1800Mattress.com, the
Court said:
We also disagree with Dial-A-Mattress’s assertion
that there can only be one generic term, which is
“online mattress stores.” Instead, any term that
the relevant public understands to refer to the genus
of “online retail store services in the field of mattresses, beds, and bedding” is generic.
92 USPQ2d 1685. The cases upon which Applicant relies, In re Dial-A-Mattress Operating Corp., 240 F.3d
1341, 57 USPQ2d 1807 (Fed. Cir. 2001); Elliott v. Google
Inc., 45 F. Supp. 3d 1156 (D. Arizona 2014); and Salton,
Inc. v. Cornwall Corp., 477 F. Supp. 975 (D.N.J. 1979),
do not support the principle that Applicant posits; they
do not hold that a failure to show competitive need disproves genericness, but only that it lends no support to
a claim of genericness. In any event, in the case before
us there is evidence of competitors’ use of the designation “booking.com” as a part of trade names and domain
names that describe the nature of their services (e.g.,
“hotelbooking.com,” “instantworldbooking.com,” and
“francebooking.com,” among others). If such businesses could not use “booking.com” as a part of their domain names or trade names, they could be meaningfully
hampered in their ability to communicate the nature of
their online booking services. In Reed Elsevier, the
Board relied on similar evidence, 77 USPQ2d at 1657
(“In short, this case does not involve a perceived need
for others to use a term, but involves a demonstrated use
51

Applicant’s brief at 6, 22 TTABVUE 7.

214a
of the term by others.”); and the Federal Circuit subsequently affirmed the finding of genericness. Reed Elsevier, 82 USPQ2d 1378.
Applicant argues that it is impossible for a term in
the form of a domain name, like “booking.com,” to identify an entire class or genus of goods or services precisely because “a specific URL can identify only one entity.” 52 In fact, a URL points not to an entity, but to
one specific Internet address, which can be occupied by
any entity that secures the address by entering into an
arrangement with the registrar of that address. As domain name registrations are not perpetual, Applicant
may be supplanted as the registrant of that Internet address or may voluntarily transfer its domain name registration to another. Moreover, Applicant’s argument
ignores the use of “booking.com” by third parties to
identify their internet addresses.
Applicant also argues that refusing to register its
mark would be contrary to the policies underlying trademark law and the Trademark Act, stating that Congress’s “two purposes” were (1) to protect the public
from source confusion; and (2) to protect a business’s investment of energy, time, and money from misappropriation by pirates. 53 Applicant argues:
Given the stature of the brand among consumers, the
purposes of trademark law are advanced by permitting Applicant to protect its great investment in its
mark and to protect consumers against the confusion
that would inevitably result if others were free to
copy the name. Denying registration to the most
52
53

Applicant’s brief at 14; see also id. at 24, 22 TTABVUE 15, 25.
Id. at 18, 22 TTABVUE 19.

215a
trusted brand in the field undermines the purposes
of trademark law by betraying the trust consumers
place in the brand. 54
Applicant’s policy argument addresses the reasons for
protecting marks, but neglects to mention the policy underlying the legal exclusion of generic matter from the
category of “marks.” That policy is based upon concerns relating to fair competition:
Generic terms, by definition incapable of indicating sources, are the antithesis of trademarks, and
can never attain trademark status. [Citation omitted.] The reason is plain:
To allow trademark protection for generic terms,
i.e., names which describe the genus of goods
being sold, even when these have become identified with a first user, would grant the owner
of the mark a monopoly, since a competitor
could not describe his goods as what they are.
In re Merrill Lynch, 4 USPQ at 1142, quoting CES
Publ’g Corp. v. St. Regis Publ’ns, Inc., 531 F.2d 11,
188 USPQ 612, 615 (2d Cir. 1975) (emphasis added).
See also In re Pennington Seed Inc., 466 F.3d 1053,
80 USPQ2d 1758, 1763 (Fed. Cir. 2006). As in Merrill
Lynch, courts have repeatedly noted the possibility that
a business might invest in, and acquire name recognition
in, an unprotectable generic term:
[N]o matter how much money and effort the user of
a generic term has poured into promoting the sale of
its merchandise and what success it has achieved in
securing public identification, it cannot deprive
54

Id. at 3, 22 TTABVUE 4.

216a
competing manufacturers of the product of the right
to call an article by its name.
Abercrombie & Fitch, 189 USPQ at 764, citing J. Kohnstam, Ltd. v. Louis Marx and Co., 280 F.2d 437,
126 USPQ 362, 364 (CCPA 1960) (emphasis added).
While it is always distressing to contemplate a situation in which money has been invested in a promotion
in the mistaken belief that trademark rights of value
are being created, merchants act at their peril in attempting, by advertising, to convert common descriptive names, which belong to the public, to their own
exclusive use. Even though they succeed in the creation of de facto secondary meaning, due to lack of
competition or other happenstance, the law respecting registration will not give it any effect.
Weiss Noodle Co. v. Golden Cracknel and Specialty Co.,
290 F.2d 845, 129 USPQ 411, 414 (CCPA 1961) (emphasis added).
Applicant seeks to demonstrate that the USPTO has
registered numerous marks in the form of a domain
name in which a generic term is combined with a toplevel domain indicator like “.com.” 55 Such demonstrations of purportedly inconsistent conduct of the USPTO
are not persuasive, because we must decide each case on
its own merits, In re Owens-Corning Fiberglas Corp.,
774 F.2d 1116, 1127, 227 USPQ 417, 424 (Fed. Cir. 1985),
and are not bound by the USPTO’s allowance of prior
registrations. In re Nett Designs Inc., 236 F.3d 1339,
57 USPQ2d 1564, 1566 (Fed. Cir. 2001). In any event,
in this case the proffered registrations do not support
Id. at 24-25, 22 TTABVUE 25-26; Applicant’s response of April
29, 2014 at 52-69; Applicant’s response of October 11, 2013 at 75-88.
55

217a
Applicant’s position. That is, the purportedly “generic”
terms are registered not for the services that the terms
directly identify, but for other services that are obliquely
related to the terms. For example, DICTIONARY.COM
is not registered for providing an online dictionary, but
for online games and promoting the goods and services
of others. Reg. No. 4184950. ENTERTAINMENT.
COM is not registered for providing entertainment of
any kind, but for advertising services, promoting the
goods and services of others, and discount programs.
Reg. No. 4294532, registered under Section 2(f ).
Applicant compares the present case to In re
Steelbuilding.com, 415 F.3d 1293, 75 USPQ2d 1420
(Fed. Cir. 2005), in which the Court reversed the Board’s
finding that STEELBUILDING.COM is generic. In
that case, evidence before the Court persuaded it that
the applicant’s services, as identified in the application,
included not only the retail sale of steel buildings but
also the online, interactive design and manufacture of
structures made of steel; and that in that context customers would appreciate the dual meaning of “steelbuilding” as used in the applicant’s mark (i.e., a building
made of steel and the process of designing and constructing a structure with steel). In this case, Applicant urges that its services are not merely reservation
services but also include “soliciting and collating usergenerated content such as reviews of lodgings and other
travel related items”; and that customers would appreciate that BOOKING.COM “conveys much more than mere
‘reservation’ services.” 56 We do not agree that, in the
context of Applicant’s identified services, customers would
perceive any ambiguity or dual meaning in the term
56

Applicant’s brief at 27, 22 TTABVUE 28.

218a
BOOKING.COM. Rather, in that context, BOOKING.
COM would be obviously and immediately understood
as having the meaning of booking transportation and
lodgings through an internet service.
We therefore find that the Examining Attorney’s dictionary and usage evidence demonstrates, prima facie,
by clear evidence, that relevant customers would understand the term BOOKING.COM to refer to an online
reservation service for transportation and lodgings; and
that Applicant’s evidence of its business success and
high level of customer satisfaction does not rebut this
showing. Accordingly, we affirm the Examining Attorney’s finding that BOOKING.COM is generic and,
therefore, an unregistrable component of Applicant’s
mark within the meaning of Section 6 of the Trademark
Act, and we affirm her refusal to register the mark
absent a disclaimer of the exclusive right to use
BOOKING.COM apart from the mark as shown.
3.

The requirement of a disclaimer on the alternative
ground of mere descriptiveness.

Bearing in mind the possibility that our finding that
BOOKING.COM is generic may be reversed on appeal,
we find it appropriate to consider the Examining Attorney’s requirement of a disclaimer of BOOKING.COM on
the alternative ground that it is merely descriptive of
Applicant’s services and that Applicant has failed to
demonstrate that it has acquired distinctiveness.
The dictionary and usage evidence submitted by the
Examining Attorney demonstrates, at the very least,
that BOOKING.COM is very highly descriptive and
would require significant evidence of acquired distinc-

219a
tiveness in order to allow registration of the mark without a disclaimer of the wording. Yamaha Int’l Corp. v.
Hoshino Gakki Co., 840 F.2d 1571, 6 USPQ2d 1001 1008
(Fed. Cir. 1988) (The kind and amount of evidence of acquired distinctiveness required to secure a registration
will necessarily vary with the subject matter for which
registration is sought.).
(a)

Applicant’s services in Class 39.

Initially we note that the application does not make
any claim that Applicant has used its mark for any of the
services identified in Class 39 (i.e., services relating to
reservations for transportation); and there is no evidence that Applicant has in fact provided reservation
services relating to transportation of passengers. All
of the evidence of record relates to reservation services
for lodging. In particular, we note that the Bisserier
declaration refers only to Applicant’s “online hotel reservation service through which hotels all over the world
can advertise their rooms for reservation and through
which customers all over the world can make reservations.” 57 Therefore, there is no evidence to support a
finding that BOOKING.COM has acquired distinctiveness with respect to Applicant’s identified services in
Class 39. Accordingly, registration of Applicant’s mark
in Class 39 without a disclaimer of BOOKING.COM
must be refused, and we affirm the Examining Attorney’s refusal as to Class 39.

Bisserier declaration ¶ 2, Applicant’s response of April 29, 2014
at 72.
57

220a
(b)

Applicant’s services in Class 43.

Applicant has made of record the following evidence
showing the scope and success of its business in the field
of reservations for hotels and other lodging:
•

The J.D. Power survey discussed above.

•

The Bisserier declaration stating that Applicant
commenced use of BOOKING.COM in June, 2006;
that Applicant’s websites have averaged 10.3 million
unique visitors from the United States per month;
that there are over 2.2 million U.S.-based subscribers to Applicant’s newsletters, which are distributed two or three times per month; that Applicant
has advertised extensively on television, the internet, and in movie theatres; that in the first quarter
of 2013, its movie theatre commercials reached over
20 million U.S. consumers; and its streamed advertisements on third-party internet websites reached
19 million U.S. consumers; and that Applicant’s services under the BOOKING.COM mark have received notice in the press and in the hospitality and
advertising industries. Mr. Bisserier also states
his belief that BOOKING.COM “is recognized as a
source-identifier and has become distinctive of Applicant’s services through its substantial sales and
great commercial success, as well as its substantially exclusive and continuous use of the mark in
U.S. Commerce for many years.”
The declaration states the number of roomnights
booked daily (625,000) and the transaction value of
its reservations in 2012 and 2013 (exceeding $3 billion
and $8 billion, respectively); however, these figures
are not limited to services provided to U.S. customers.

221a
The declaration also sets forth figures for Twitter
followers and Facebook “likes,” but again these are
not limited to U.S. persons.
•

Charts from AttentionMeter,58 showing the number
of “Daily United States People” (apparently visitors
to the <booking.com> website) between February
2, 2012 and July 30, 2012, ranging between less than
250,000 and more than 400,000. There are also
charts purporting to show unique website visitors
during unspecified periods between August 2011
and August 2012; however, they are not marked so
as to indicate whether the visitors are U.S. persons
or to indicate the period of time during which each
measurement was made (e.g., daily, weekly, monthly,
etc.).

•

Information (submitted as exhibits to the Bisserier
declaration) regarding Applicant’s receipt of a Gold
level Adrian Award from Hospitality Sales & Marketing Association International; and “Best Tablet
App” and “Best Mobile Site” awards for 2014 from
Mobile Travel & Tourism.

•

Five news items taking note of Applicant’s business
(from NBCNews.com; Orlando Business Journal;
Adweek; Los Angeles Times; and Hospitality Net).

•

The non-verified declaration of Applicant’s outside
counsel, stating that the mark has become distinctive through Applicant’s “substantially exclusive
and continuous use in commerce that the U.S. Congress may lawfully regulate for at least the five

58

Applicant’s response of September 24, 2012 at 21-23.

222a
years immediately before the date of this statement
[September 24, 2012].” 59
This evidence would not under any circumstances
render a generic term registrable. See In re Northland Aluminum Prods., Inc., 777 F.2d 1556, 227 USPQ
961 (Fed. Cir. 1985). Assuming for the sake of analysis
that BOOKING.COM is not generic, but highly descriptive, we must consider whether the evidence suffices to
render the term a registrable component of Applicant’s
mark.
The Examining Attorney’s evidence showing that
third parties make use of the term “booking.com” in
their trade names and domain names seriously undercuts Applicant’s claim to have made “substantially exclusive” use of the term, as well as Applicant’s claim to
have acquired distinctiveness. See Levi Strauss & Co.
v. Genesco, Inc., 742 F.2d 1401, 222 USPQ 939, 940-1
(Fed. Cir. 1984) (“When the record shows that purchasers are confronted with more than one (let alone numerous) independent users of a term or device, an application for registration under Section 2(f ) cannot be successful, for distinctiveness on which purchasers may
rely is lacking under such circumstances.”); and In re
Boston Beer Co. L.P., 198 F.3d 1370, 53 USPQ2d 1056,
11058 (Fed. Cir. 1999) (“The examples of use of the
phrase by others in its descriptive form support the
board’s conclusion that the mark had not acquired distinctiveness.”) Such evidence confirms what is suggested by the evidence of the meanings of the terms
“booking” and “.com” and the ways in which people use
Id. at 9 (this statement of outside counsel apparently relates to
the entire word-and-design mark that Applicant seeks to register).
59

223a
these terms: that is, the combination of these terms
not only appears to be a likely way for people to describe
reservation services provided online, but has actually already been adopted for that purpose by businesses in
Applicant’s field.
In view of the highly descriptive nature of BOOKING.
COM and its actual use in the marketplace by third parties, a very strong demonstration of acquired distinctiveness would be required to render the term registrable. We find Applicant’s demonstration of its business
success to be insufficient for this purpose, especially because it does not focus on demonstrating actual market
recognition of BOOKING.COM as a source indicator.
The press notices are only five in number, and while one
of them refers to Applicant as a “[h]otel booking giant,”
the same article also states, “even though many Americans are unfamiliar with the brand, Booking.com is the
largest hotel-booking site in the world . . . ” 60 The
record contains no statements by customers indicating
the degree of their recognition of the term as Applicant’s
source-indicator; and the record has very few examples
of Applicant’s advertising materials to show how Applicant has sought to replace, in the minds of consumers,
the general descriptiveness of the term with an impression of single-source identification. The press release
relating to the J.D. Power survey, which neither sets
forth the questions asked nor the answers received from
the survey respondents, does not present the unmediated views of consumers, but merely an undetailed digest of their responses, indicating general satisfaction
with Applicant’s services. Considering that the structure of the term BOOKING.COM indicates that it refers
60

Applicant’s response of April 29, 2014 at 93-94 (emphasis added).

224a
to an internet address, the survey does not show that
customers recognize BOOKING.COM as a single-source
indicator, but only that they were satisfied with the services provided at a particular internet address. Overall,
we find Applicant’s evidence to be too sparse and equivocal to indicate that a term as highly descriptive as
BOOKING.COM has acquired distinctiveness under
Section 2(f ). We therefore affirm the Examining Attorney’s determination that BOOKING.COM is merely
descriptive and that Applicant has failed to demonstrate
that the term has acquired distinctiveness within the
meaning of Section 2(f ); and we affirm the Examining
Attorney’s refusal to register Applicant’s mark unless
Applicant disclaims the exclusive right to use BOOKING.
COM apart from the mark as shown.
The refusal to register Applicant’s mark
in the absence of a disclaimer of BOOKING.COM is AFFIRMED on the ground that BOOKING.COM is generic as applied to Applicant’s services; and on the
ground that BOOKING.COM is merely descriptive of
Applicant’s services and has not been shown to have acquired distinctiveness.
Applicant is allowed until
thirty (30) days from the date of this decision to submit
to the Board a disclaimer (in proper form) of the designation BOOKING.COM, in which case this decision will
be set aside. See Trademark Rule 2.142(g).
Decision:

225a
APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE FOURTH DISTRICT

No. 17-2458 (L)
(1:16-cv-00425-LMB-IDD)
BOOKING.COM B.V., PLAINTIFF-APPELLEE
v.
THE UNITED STATES PATENT AND TRADEMARK
OFFICE; ANDREI IANCU, IN HIS OFFICIAL CAPACITY AS
UNDER SECRETARY OF COMMERCE FOR INTELLECTUAL
PROPERTY AND DIRECTOR OF THE UNITED STATES
PATENT AND TRADEMARK OFFICE,
DEFENDANTS-APPELLANTS
AMERICAN INTELLECTUAL PROPERTY LAW
ASSOCIATION, AMICUS CURIAE
No. 17-2459
(1:16-cv-00425-LMB-IDD)
BOOKING.COM B.V., PLAINTIFF-APPELLANT
v.
THE UNITED STATES PATENT AND TRADEMARK
OFFICE; ANDREI IANCU, IN HIS OFFICIAL CAPACITY AS
UNDER SECRETARY OF COMMERCE FOR INTELLECTUAL
PROPERTY AND DIRECTOR OF THE UNITED STATES
PATENT AND TRADEMARK OFFICE,
DEFENDANTS-APPELLEES
AMERICAN INTELLECTUAL PROPERTY LAW
ASSOCIATION, AMICUS CURIAE

226a
Filed: Apr. 5, 2019
ORDER

The petition for rehearing en banc was circulated to
the full court. No judge requested a poll under Fed.
R. App. P. 35. The court denies the petition for rehearing en banc.
For the Court
/s/ Patricia S. Connor, Clerk

227a
APPENDIX G

1.

15 U.S.C. 1051 provides:

Application for registration; verification
(a)

Application for use of trademark

(1) The owner of a trademark used in commerce
may request registration of its trademark on the principal register hereby established by paying the prescribed fee and filing in the Patent and Trademark Office an application and a verified statement, in such form
as may be prescribed by the Director, and such number
of specimens or facsimiles of the mark as used as may
be required by the Director.
(2) The application shall include specification of the
applicant’s domicile and citizenship, the date of the applicant’s first use of the mark, the date of the applicant’s
first use of the mark in commerce, the goods in connection with which the mark is used, and a drawing of the
mark.
(3) The statement shall be verified by the applicant
and specify that—
(A) the person making the verification believes
that he or she, or the juristic person in whose behalf
he or she makes the verification, to be the owner of
the mark sought to be registered;
(B) to the best of the verifier’s knowledge and
belief, the facts recited in the application are accurate;

228a
(C)

the mark is in use in commerce; and

(D) to the best of the verifier’s knowledge and
belief, no other person has the right to use such mark
in commerce either in the identical form thereof or in
such near resemblance thereto as to be likely, when
used on or in connection with the goods of such other
person, to cause confusion, or to cause mistake, or to
deceive, except that, in the case of every application
claiming concurrent use, the applicant shall—
(i) state exceptions to the claim of exclusive
use; and
(ii) shall 1 specify, to the extent of the verifier’s knowledge—
(I)

any concurrent use by others;

(II) the goods on or in connection with
which and the areas in which each concurrent
use exists;
(III) the periods of each use; and
(IV) the goods and area for which the applicant desires registration.
(4) The applicant shall comply with such rules or
regulations as may be prescribed by the Director. The
Director shall promulgate rules prescribing the requirements for the application and for obtaining a filing date
herein.

1

So in original.

The word “shall” probably should not appear.

229a
(b)

Application for bona fide intention to use trademark

(1) A person who has a bona fide intention, under circumstances showing the good faith of such person, to use
a trademark in commerce may request registration of its
trademark on the principal register hereby established
by paying the prescribed fee and filing in the Patent and
Trademark Office an application and a verified statement, in such form as may be prescribed by the Director.
(2) The application shall include specification of the
applicant’s domicile and citizenship, the goods in connection with which the applicant has a bona fide intention to use the mark, and a drawing of the mark.
(3) The statement shall be verified by the applicant
and specify—
(A) that the person making the verification believes that he or she, or the juristic person in whose
behalf he or she makes the verification, to be entitled
to use the mark in commerce;
(B) the applicant’s bona fide intention to use the
mark in commerce;
(C) that, to the best of the verifier’s knowledge
and belief, the facts recited in the application are accurate; and
(D) that, to the best of the verifier’s knowledge
and belief, no other person has the right to use such
mark in commerce either in the identical form thereof or in such near resemblance thereto as to be likely,
when used on or in connection with the goods of such
other person, to cause confusion, or to cause mistake,
or to deceive.

230a
Except for applications filed pursuant to section 1126 of
this title, no mark shall be registered until the applicant
has met the requirements of subsections (c) and (d) of
this section.
(4) The applicant shall comply with such rules or
regulations as may be prescribed by the Director. The
Director shall promulgate rules prescribing the requirements for the application and for obtaining a filing date
herein.
(c)

Amendment of application under subsection (b) to
conform to requirements of subsection (a)

At any time during examination of an application filed
under subsection (b) of this section, an applicant who has
made use of the mark in commerce may claim the benefits of such use for purposes of this chapter, by amending
his or her application to bring it into conformity with the
requirements of subsection (a) of this section.
(d)

Verified statement that trademark is used in
commerce

(1) Within six months after the date on which the
notice of allowance with respect to a mark is issued under section 1063(b)(2) of this title to an applicant under
subsection (b) of this section, the applicant shall file in
the Patent and Trademark Office, together with such
number of specimens or facsimiles of the mark as used
in commerce as may be required by the Director and
payment of the prescribed fee, a verified statement that
the mark is in use in commerce and specifying the date
of the applicant’s first use of the mark in commerce and
those goods or services specified in the notice of allowance on or in connection with which the mark is used in
commerce. Subject to examination and acceptance of

231a
the statement of use, the mark shall be registered in the
Patent and Trademark Office, a certificate of registration shall be issued for those goods or services recited in
the statement of use for which the mark is entitled to
registration, and notice of registration shall be published in the Official Gazette of the Patent and Trademark Office. Such examination may include an examination of the factors set forth in subsections (a) through
(e) of section 1052 of this title. The notice of registration shall specify the goods or services for which the
mark is registered.
(2) The Director shall extend, for one additional
6-month period, the time for filing the statement of use
under paragraph (1), upon written request of the applicant before the expiration of the 6-month period provided in paragraph (1). In addition to an extension under the preceding sentence, the Director may, upon a
showing of good cause by the applicant, further extend
the time for filing the statement of use under paragraph
(1) for periods aggregating not more than 24 months,
pursuant to written request of the applicant made before the expiration of the last extension granted under
this paragraph. Any request for an extension under
this paragraph shall be accompanied by a verified statement that the applicant has a continued bona fide intention to use the mark in commerce and specifying those
goods or services identified in the notice of allowance on
or in connection with which the applicant has a continued bona fide intention to use the mark in commerce.
Any request for an extension under this paragraph shall
be accompanied by payment of the prescribed fee. The
Director shall issue regulations setting forth guidelines
for determining what constitutes good cause for purposes of this paragraph.

232a
(3) The Director shall notify any applicant who files
a statement of use of the acceptance or refusal thereof
and, if the statement of use is refused, the reasons for the
refusal. An applicant may amend the statement of use.
(4) The failure to timely file a verified statement of
use under paragraph (1) or an extension request under
paragraph (2) shall result in abandonment of the application, unless it can be shown to the satisfaction of the
Director that the delay in responding was unintentional,
in which case the time for filing may be extended, but
for a period not to exceed the period specified in paragraphs (1) and (2) for filing a statement of use.
(e)

Designation of resident for service of process and
notices

If the applicant is not domiciled in the United States
the applicant may designate, by a document filed in the
United States Patent and Trademark Office, the name
and address of a person resident in the United States on
whom may be served notices or process in proceedings
affecting the mark. Such notices or process may be
served upon the person so designated by leaving with
that person or mailing to that person a copy thereof at
the address specified in the last designation so filed. If
the person so designated cannot be found at the address
given in the last designation, or if the registrant does not
designate by a document filed in the United States Patent
and Trademark Office the name and address of a person
resident in the United States on whom may be served
notices or process in proceedings affecting the mark,
such notices or process may be served on the Director.

233a
2.

15 U.S.C. 1052 provides:

Trademarks registrable on principal register; concurrent
registration

No trademark by which the goods of the applicant
may be distinguished from the goods of others shall be
refused registration on the principal register on account
of its nature unless it—
(a) Consists of or comprises immoral, deceptive, or
scandalous matter; or matter which may disparage or
falsely suggest a connection with persons, living or dead,
institutions, beliefs, or national symbols, or bring them
into contempt, or disrepute; or a geographical indication
which, when used on or in connection with wines or spirits, identifies a place other than the origin of the goods
and is first used on or in connection with wines or spirits
by the applicant on or after one year after the date on
which the WTO Agreement (as defined in section
3501(9) of title 19) enters into force with respect to the
United States.
(b) Consists of or comprises the flag or coat of arms
or other insignia of the United States, or of any State or
municipality, or of any foreign nation, or any simulation
thereof.
(c) Consists of or comprises a name, portrait, or
signature identifying a particular living individual except by his written consent, or the name, signature, or
portrait of a deceased President of the United States
during the life of his widow, if any, except by the written
consent of the widow.
(d) Consists of or comprises a mark which so resembles a mark registered in the Patent and Trademark
Office, or a mark or trade name previously used in the

234a
United States by another and not abandoned, as to be
likely, when used on or in connection with the goods of
the applicant, to cause confusion, or to cause mistake, or
to deceive: Provided , That if the Director determines
that confusion, mistake, or deception is not likely to result from the continued use by more than one person of
the same or similar marks under conditions and limitations as to the mode or place of use of the marks or the
goods on or in connection with which such marks are
used, concurrent registrations may be issued to such
persons when they have become entitled to use such
marks as a result of their concurrent lawful use in commerce prior to (1) the earliest of the filing dates of the
applications pending or of any registration issued under
this chapter; (2) July 5, 1947, in the case of registrations
previously issued under the Act of March 3, 1881, or
February 20, 1905, and continuing in full force and effect
on that date; or (3) July 5, 1947, in the case of applications filed under the Act of February 20, 1905, and registered after July 5, 1947. Use prior to the filing date
of any pending application or a registration shall not be
required when the owner of such application or registration consents to the grant of a concurrent registration to
the applicant. Concurrent registrations may also be issued by the Director when a court of competent jurisdiction has finally determined that more than one person is entitled to use the same or similar marks in commerce. In issuing concurrent registrations, the Director shall prescribe conditions and limitations as to the
mode or place of use of the mark or the goods on or in
connection with which such mark is registered to the respective persons.

235a
(e) Consists of a mark which (1) when used on or in
connection with the goods of the applicant is merely descriptive or deceptively misdescriptive of them, (2) when
used on or in connection with the goods of the applicant
is primarily geographically descriptive of them, except
as indications of regional origin may be registrable under section 1054 of this title, (3) when used on or in connection with the goods of the applicant is primarily geographically deceptively misdescriptive of them, (4) is
primarily merely a surname, or (5) comprises any matter that, as a whole, is functional.
(f ) Except as expressly excluded in subsections (a),
(b), (c), (d), (e)(3), and (e)(5) of this section, nothing in
this chapter shall prevent the registration of a mark
used by the applicant which has become distinctive of
the applicant’s goods in commerce. The Director may
accept as prima facie evidence that the mark has become
distinctive, as used on or in connection with the applicant’s goods in commerce, proof of substantially exclusive and continuous use thereof as a mark by the applicant in commerce for the five years before the date on
which the claim of distinctiveness is made. Nothing in
this section shall prevent the registration of a mark which,
when used on or in connection with the goods of the applicant, is primarily geographically deceptively misdescriptive of them, and which became distinctive of the applicant’s goods in commerce before December 8, 1993.
A mark which would be likely to cause dilution by blurring or dilution by tarnishment under section 1125(c) of
this title, may be refused registration only pursuant to a
proceeding brought under section 1063 of this title. A
registration for a mark which would be likely to cause
dilution by blurring or dilution by tarnishment under

236a
section 1125(c) of this title, may be canceled pursuant to
a proceeding brought under either section 1064 of this
title or section 1092 of this title.
3.

15 U.S.C. 1071 provides:

Appeal to courts
(a)

Persons entitled to appeal; United States Court of
Appeals for the Federal Circuit; waiver of civil action;
election of civil action by adverse party; procedure

(1) An applicant for registration of a mark, party to
an interference proceeding, party to an opposition proceeding, party to an application to register as a lawful
concurrent user, party to a cancellation proceeding, a
registrant who has filed an affidavit as provided in section 1058 of this title or section 1141k of this title, or an
applicant for renewal, who is dissatisfied with the decision of the Director or Trademark Trial and Appeal
Board, may appeal to the United States Court of Appeals for the Federal Circuit thereby waiving his right
to proceed under subsection (b) of this section: Provided , That such appeal shall be dismissed if any adverse party to the proceeding, other than the Director,
shall, within twenty days after the appellant has filed
notice of appeal according to paragraph (2) of this subsection, files notice with the Director that he elects to
have all further proceedings conducted as provided in
subsection (b) of this section. Thereupon the appellant
shall have thirty days thereafter within which to file a
civil action under subsection (b) of this section, in default
of which the decision appealed from shall govern the further proceedings in the case.

237a
(2) When an appeal is taken to the United States
Court of Appeals for the Federal Circuit, the appellant
shall file in the United States Patent and Trademark Office a written notice of appeal directed to the Director,
within such time after the date of the decision from
which the appeal is taken as the Director prescribes, but
in no case less than 60 days after that date.
(3) The Director shall transmit to the United States
Court of Appeals for the Federal Circuit a certified list
of the documents comprising the record in the United
States Patent and Trademark Office. The court may
request that the Director forward the original or certified copies of such documents during pendency of the
appeal. In an ex parte case, the Director shall submit
to that court a brief explaining the grounds for the decision of the United States Patent and Trademark Office,
addressing all the issues involved in the appeal. The
court shall, before hearing an appeal, give notice of the
time and place of the hearing to the Director and the
parties in the appeal.
(4) The United States Court of Appeals for the
Federal Circuit shall review the decision from which the
appeal is taken on the record before the United States
Patent and Trademark Office. Upon its determination
the court shall issue its mandate and opinion to the Director, which shall be entered of record in the United
States Patent and Trademark Office and shall govern
the further proceedings in the case. However, no final
judgment shall be entered in favor of an applicant under
section 1051(b) of this title before the mark is registered, if such applicant cannot prevail without establishing constructive use pursuant to section 1057(c) of this
title.

238a
(b)

Civil action; persons entitled to; jurisdiction of
court; status of Director; procedure

(1) Whenever a person authorized by subsection (a)
of this section to appeal to the United States Court of
Appeals for the Federal Circuit is dissatisfied with the
decision of the Director or Trademark Trial and Appeal
Board, said person may, unless appeal has been taken to
said United States Court of Appeals for the Federal Circuit, have remedy by a civil action if commenced within
such time after such decision, not less than sixty days,
as the Director appoints or as provided in subsection (a)
of this section. The court may adjudge that an applicant is entitled to a registration upon the application involved, that a registration involved should be canceled,
or such other matter as the issues in the proceeding require, as the facts in the case may appear. Such adjudication shall authorize the Director to take any necessary action, upon compliance with the requirements of
law. However, no final judgment shall be entered in favor of an applicant under section 1051(b) of this title before the mark is registered, if such applicant cannot prevail without establishing constructive use pursuant to
section 1057(c) of this title.
(2) The Director shall not be made a party to an inter partes proceeding under this subsection, but he shall
be notified of the filing of the complaint by the clerk of
the court in which it is filed and shall have the right to
intervene in the action.
(3) In any case where there is no adverse party, a
copy of the complaint shall be served on the Director,
and, unless the court finds the expenses to be unreasonable, all the expenses of the proceeding shall be paid by
the party bringing the case, whether the final decision is

239a
in favor of such party or not. In suits brought hereunder, the record in the United States Patent and Trademark Office shall be admitted on motion of any party,
upon such terms and conditions as to costs, expenses,
and the further cross-examination of the witnesses as
the court imposes, without prejudice to the right of any
party to take further testimony. The testimony and
exhibits of the record in the United States Patent and
Trademark Office, when admitted, shall have the same
effect as if originally taken and produced in the suit.
(4) Where there is an adverse party, such suit may
be instituted against the party in interest as shown by
the records of the United States Patent and Trademark
Office at the time of the decision complained of, but any
party in interest may become a party to the action. If
there are adverse parties residing in a plurality of districts not embraced within the same State, or an adverse
party residing in a foreign country, the United States
District Court for the Eastern District of Virginia shall
have jurisdiction and may issue summons against the
adverse parties directed to the marshal of any district in
which any adverse party resides. Summons against
adverse parties residing in foreign countries may be
served by publication or otherwise as the court directs.
4.

15 U.S.C. 1091 provides:

Supplemental register
(a)

Marks registerable

In addition to the principal register, the Director
shall keep a continuation of the register provided in paragraph (b) of section 1 of the Act of March 19, 1920, entitled “An Act to give effect to certain provisions of the

240a
convention for the protection of trademarks and commercial names, made and signed in the city of Buenos
Aires, in the Argentine Republic, August 20, 1910, and
for other purposes”, to be called the supplemental register. All marks capable of distinguishing applicant’s
goods or services and not registrable on the principal
register provided in this chapter, except those declared
to be unregistrable under subsections (a), (b), (c), (d),
and (e)(3) of section 1052 of this title, which are in lawful
use in commerce by the owner thereof, on or in connection with any goods or services may be registered on the
supplemental register upon the payment of the prescribed fee and compliance with the provisions of subsections (a) and (e) of section 1051 of this title so far as
they are applicable. Nothing in this section shall prevent the registration on the supplemental register of a
mark, capable of distinguishing the applicant’s goods or
services and not registrable on the principal register under this chapter, that is declared to be unregistrable under section 1052(e)(3) of this title, if such mark has been
in lawful use in commerce by the owner thereof, on or in
connection with any goods or services, since before December 8, 1993.
(b)

Application and proceedings for registration

Upon the filing of an application for registration on
the supplemental register and payment of the prescribed fee the Director shall refer the application to the
examiner in charge of the registration of marks, who
shall cause an examination to be made and if on such examination it shall appear that the applicant is entitled to
registration, the registration shall be granted. If the

241a
applicant is found not entitled to registration the provisions of subsection (b) of section 1062 of this title shall
apply.
(c)

Nature of mark

For the purposes of registration on the supplemental
register, a mark may consist of any trademark, symbol,
label, package, configuration of goods, name, word, slogan, phrase, surname, geographical name, numeral, device, any matter that as a whole is not functional, or any
combination of any of the foregoing, but such mark must
be capable of distinguishing the applicant's goods or services.
5.

15 U.S.C. 1127 provides:

Construction and definitions; intent of chapter

In the construction of this chapter, unless the contrary is plainly apparent from the context—
The United States includes and embraces all territory which is under its jurisdiction and control.
The word “commerce” means all commerce which
may lawfully be regulated by Congress.
The term “principal register” refers to the register
provided for by sections 1051 to 1072 of this title, and
the term “supplemental register” refers to the register
provided for by sections 1091 to 1096 of this title.
The term “person” and any other word or term used
to designate the applicant or other entitled to a benefit
or privilege or rendered liable under the provisions of
this chapter includes a juristic person as well as a natural person. The term “juristic person” includes a firm,

242a
corporation, union, association, or other organization capable of suing and being sued in a court of law.
The term “person” also includes the United States,
any agency or instrumentality thereof, or any individual,
firm, or corporation acting for the United States and
with the authorization and consent of the United States.
The United States, any agency or instrumentality
thereof, and any individual, firm, or corporation acting
for the United States and with the authorization and
consent of the United States, shall be subject to the provisions of this chapter in the same manner and to the
same extent as any nongovernmental entity.
The term “person” also includes any State, any instrumentality of a State, and any officer or employee of
a State or instrumentality of a State acting in his or her
official capacity. Any State, and any such instrumentality, officer, or employee, shall be subject to the provisions of this chapter in the same manner and to the same
extent as any nongovernmental entity.
The terms “applicant” and “registrant” embrace the
legal representatives, predecessors, successors and assigns of such applicant or registrant.
The term “Director” means the Under Secretary of
Commerce for Intellectual Property and Director of the
United States Patent and Trademark Office.
The term “related company” means any person whose
use of a mark is controlled by the owner of the mark with
respect to the nature and quality of the goods or services
on or in connection with which the mark is used.
The terms “trade name” and “commercial name” mean
any name used by a person to identify his or her business or vocation.

243a
The term “trademark” includes any word, name, symbol, or device, or any combination thereof—
(1)

used by a person, or

(2) which a person has a bona fide intention to
use in commerce and applies to register on the principal register established by this chapter,
to identify and distinguish his or her goods, including a
unique product, from those manufactured or sold by others and to indicate the source of the goods, even if that
source is unknown.
The term “service mark” means any word, name,
symbol, or device, or any combination thereof—
(1)

used by a person, or

(2) which a person has a bona fide intention to
use in commerce and applies to register on the principal register established by this chapter,
to identify and distinguish the services of one person,
including a unique service, from the services of others
and to indicate the source of the services, even if that
source is unknown. Titles, character names, and other
distinctive features of radio or television programs may
be registered as service marks notwithstanding that
they, or the programs, may advertise the goods of the
sponsor.

244a
The term “certification mark” means any word, name,
symbol, or device, or any combination thereof—
(1)

used by a person other than its owner, or

(2) which its owner has a bona fide intention to
permit a person other than the owner to use in commerce and files an application to register on the principal register established by this chapter,
to certify regional or other origin, material, mode of
manufacture, quality, accuracy, or other characteristics
of such person’s goods or services or that the work or
labor on the goods or services was performed by members of a union or other organization.
The term “collective mark” means a trademark or
service mark—
(1) used by the members of a cooperative, an association, or other collective group or organization, or
(2) which such cooperative, association, or other
collective group or organization has a bona fide intention to use in commerce and applies to register on the
principal register established by this chapter,
and includes marks indicating membership in a union,
an association, or other organization.
The term “mark” includes any trademark, service
mark, collective mark, or certification mark.
The term “use in commerce” means the bona fide use
of a mark in the ordinary course of trade, and not made
merely to reserve a right in a mark. For purposes of
this chapter, a mark shall be deemed to be in use in
commerce—

245a
(1)

on goods when—

(A)
it is placed in any manner on the goods
or their containers or the displays associated
therewith or on the tags or labels affixed thereto,
or if the nature of the goods makes such placement
impracticable, then on documents associated with
the goods or their sale, and
(B)
the goods are sold or transported in commerce, and
(2) on services when it is used or displayed in the
sale or advertising of services and the services are
rendered in commerce, or the services are rendered
in more than one State or in the United States and a
foreign country and the person rendering the services is engaged in commerce in connection with the
services.
A mark shall be deemed to be “abandoned” if either
of the following occurs:
(1) When its use has been discontinued with intent not to resume such use. Intent not to resume
may be inferred from circumstances. Nonuse for
3 consecutive years shall be prima facie evidence of
abandonment. “Use” of a mark means the bona fide
use of such mark made in the ordinary course of
trade, and not made merely to reserve a right in a
mark.
(2) When any course of conduct of the owner,
including acts of omission as well as commission,
causes the mark to become the generic name for the
goods or services on or in connection with which it is
used or otherwise to lose its significance as a mark.

246a
Purchaser motivation shall not be a test for determining abandonment under this paragraph.
The term “colorable imitation” includes any mark
which so resembles a registered mark as to be likely to
cause confusion or mistake or to deceive.
The term “registered mark” means a mark registered in the United States Patent and Trademark Office
under this chapter or under the Act of March 3, 1881, or
the Act of February 20, 1905, or the Act of March 19,
1920. The phrase “marks registered in the Patent and
Trademark Office” means registered marks.
The term “Act of March 3, 1881”, “Act of February
20, 1905”, or “Act of March 19, 1920”, means the respective Act as amended.
A “counterfeit” is a spurious mark which is identical
with, or substantially indistinguishable from, a registered mark.
The term “domain name” means any alphanumeric
designation which is registered with or assigned by any
domain name registrar, domain name registry, or other
domain name registration authority as part of an electronic address on the Internet.
The term “Internet” has the meaning given that term
in section 230(f )(1) of title 47.
Words used in the singular include the plural and vice
versa.
The intent of this chapter is to regulate commerce
within the control of Congress by making actionable the
deceptive and misleading use of marks in such commerce; to protect registered marks used in such com-

247a
merce from interference by State, or territorial legislation; to protect persons engaged in such commerce against
unfair competition; to prevent fraud and deception in
such commerce by the use of reproductions, copies, counterfeits, or colorable imitations of registered marks; and
to provide rights and remedies stipulated by treaties
and conventions respecting trademarks, trade names,
and unfair competition entered into between the United
States and foreign nations.

